<html>
<title> - AN EXAMINATION OF THE IMPACTS OF GLOBAL WARMING ON THE CHESAPEAKE BAY</title>
<body><pre>[Senate Hearing 110-1176]
[From the U.S. Government Publishing Office]


                                                       S. Hrg. 110-1176
 
 AN EXAMINATION OF THE IMPACTS OF GLOBAL WARMING ON THE CHESAPEAKE BAY 

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 26, 2007

                               __________

  Printed for the use of the Committee on Environment and Public Works



       Available via the World Wide Web: http://www.fdsys.gpo.gov

                               __________

                         U.S. GOVERNMENT PRINTING OFFICE 

73-572 PDF                       WASHINGTON : 2012

For sale by the Superintendent of Documents, U.S. Government Printing 
Office, Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800;
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 



               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                       ONE HUNDRED TENTH CONGRESS
                             FIRST SESSION

                  BARBARA BOXER, California, Chairman
MAX BAUCUS, Montana                  JAMES M. INHOFE, Oklahoma
JOSEPH I. LIEBERMAN, Connecticut     JOHN W. WARNER, Virginia
THOMAS R. CARPER, Delaware           GEORGE V. VOINOVICH, Ohio
HILLARY RODHAM CLINTON, New York     JOHNNY ISAKSON, Georgia
FRANK R. LAUTENBERG, New Jersey      DAVID VITTER, Louisiana
BENJAMIN L. CARDIN, Maryland         JOHN BARRASSO, Wyoming<SUP>1</SUP>
BERNARD SANDERS, Vermont             LARRY E. CRAIG, Idaho
AMY KLOBUCHAR, Minnesota             LAMAR ALEXANDER, Tennessee
SHELDON WHITEHOUSE, Rhode Island     CHRISTOPHER S. BOND, Missouri

       Bettina Poirier, Majority Staff Director and Chief Counsel
                Andrew Wheeler, Minority Staff Director
                                 ------                                

<SUP>1</SUP>Note: During the 110th Congress, Senator Craig 
    Thomas, of Wyoming, passed away on June 4, 2007. Senator John 
    Barrasso, of Wyoming, joined the committee on July 10, 2007.



                            C O N T E N T S

                              ----------                              
                                                                   Page

                           SEPTEMBER 26, 2007
                           OPENING STATEMENTS

Boxer, Hon. Barbara, U.S. Senator from the State of California...     1
Warner, Hon. John, U.S. Senator from the Commonwealth of Virginia     1
Inhofe, Hon. James M., U.S. Senator from the State of Oklahoma...     4
Cardin, Hon. Benjamin L., U.S. Senator from the State of Maryland     6

                               WITNESSES

Mikulski, Hon. Barbara, U.S. Senator from the State of Maryland..    11
    Prepared statement...........................................    12
Webb, Hon. James, U.S. Senator from the Commonwealth of Virginia.    14
Gilchrest, Hon. Wayne T., U.S. Representative from the State of 
  Maryland.......................................................    15
    Prepared statement...........................................    17
Kaine, Hon. Timothy M., Governor of the Commonwealth of Virginia.    19
    Prepared statement...........................................    21
O'Malley, Hon. Martin, Governor of the State of Maryland.........    23
    Prepared statement...........................................    24
Baker, William C., president, Chesapeake Bay Foundation..........    34
    Prepared statement...........................................    35
    Responses to additional questions from:
        Senator Cardin...........................................    38
        Senator Inhofe...........................................    39
Pyke, Christopher R., member, Chesapeake Bay Program's Scientific 
  and Technical Advisory Committee; fellow, Virginia Institute of 
  Marine Science's Center of Coastal Resources Management........    40
    Prepared statement...........................................    42
    Response to an additional question from Senator Cardin.......    45
Boesch, Donald F., president, University of Maryland Center for 
  Environmental Science..........................................    46
    Prepared statement...........................................    48
    Responses to additional questions from Senator Cardin........    54
Avery, Dennis T., senior fellow, Hudson Institute; director, 
  Center for Global Food Issues..................................    57
    Prepared statement...........................................    59
    Responses to additional questions from Senator Inhofe........    63
Schnare, David W., senior fellow for Energy and the Environment, 
  Thomas Jefferson Institute for Public Policy...................    64
    Prepared statement...........................................    65
    Responses to additional questions from Senator Inhofe........    72
    Supplemental to prepared statement...........................   151
Edmund, Richard, pastor, United Methodist Churches of Smith 
  Island, MD.....................................................    73
    Prepared statement...........................................    75
    Responses to additional questions from Senator Cardin........    76

                          ADDITIONAL MATERIAL

Statement, Chesapeake Bay Commission, Climate Change and 
  Chesapeake Bay: A Summary of Management Issues.................   146
Reports:
    The Chesapeake Bay and Global Warming, A Paradise Lost for 
      Hunters, Anglers, and Outdoor Enthusiasts..................    88
    Chesapeake Bay Foundation, Saving a National Treasure, 
      Climate Change and the Chesapeake Bay: Challenges, Impacts, 
      and the Multiple Benefits of Agricultural Conservation Work   128
Article, BBC News, Greenland Ice Swells Ocean Rise...............   107
Paper, The Incredible Economics of Geoengineering, Scott Barrett, 
  Johns Hopkins University School of Advanced International 
  Studies, March 18, 2007........................................   109
Chart, Spring SST Estimates at Chesapeake Bay for 2000 Years.....   150


 AN EXAMINATION OF THE IMPACTS OF GLOBAL WARMING ON THE CHESAPEAKE BAY

                              ----------                              


                     WEDNESDAY, SEPTEMBER 26, 2007

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The full committee met, pursuant to notice, at 9:34 a.m. in 
room 406, Dirksen Senate Office Building, Hon. Barbara Boxer 
(chairman of the full committee) presiding.
    Present: Senators Boxer, Inhofe, Cardin, Warner, 
Whitehouse.
    Also present, Senators Mikulski and Webb.

STATEMENT OF HON. BARBARA BOXER, U.S. SENATOR FROM THE STATE OF 
                           CALIFORNIA

    Senator Boxer. We call the Committee to order. We welcome 
our honored guests. I know that Senator Warner has to go down 
to the Floor and work on the defense bill. He is going to come 
back as soon as he possibly can, but in deference to his 
schedule, I would ask if he would like to make his remarks 
before Senator Inhofe and I do.
    Senator Warner. I thank you, Madam Chairman.
    Senator Boxer. Certainly.
    Senator Warner. Then I shall return to this hearing quite 
promptly.

     STATEMENT OF HON. JOHN WARNER, U.S. SENATOR FROM THE 
                    COMMONWEALTH OF VIRGINIA

    Senator Warner. I am privileged this morning, together with 
my colleague Senator Webb, to introduce our distinguished 
Governor, Governor Kaine, who I have worked with now these 
several years. It has been my privilege in the 29 years I have 
been in this institution to work with 10 Virginia Governors. I 
would say that this one is fast achieving the role of being at 
the top of his class. He has a heartfelt concern about the 
issues surrounding global climate changes, the mysteries and 
what is known in this area. He is proceeding to lead our State 
to take an important position, along with other States I hope, 
as we begin to go into the world of the unknowns and try and do 
what we can at this point in America's history to hopefully 
join other nations to achieve a measure of global warming 
recognition and action.
    Under your leadership, as you know, Senator Lieberman and I 
have a bill that will soon come before this Committee. But on 
this subject, I would like to first mention that it has been my 
privilege to work on the issues of the Chesapeake Bay for many 
years. I harken back to two great Senators, Senator Matthias 
and Senator Paul Sarbanes and I and others who initiated the 
earliest legislation with regard to the Chesapeake Bay. We went 
in there with the best of intentions, and laid a foundation 
legislatively. I think collectively the several States that 
border the Bay have begun to pull their fair share of the load 
and responsibility, together with the Federal Government, but 
it has to be a joint project.
    This magnificent bay is absolutely essential to our 
ecosystem, and also we must be concerned about a part of the 
real estate of our great commonwealth, Virginia, which borders 
the Bay and could be subjected, the Tidewater region, to severe 
damage if in the future years there is a significant rise in 
the water levels worldwide. I believe our territory--and the 
Governor will go into details on this--is one of the lowest of 
any major city throughout certainly the United States.
    So we are anxious to hear from Governor Kaine when his time 
comes, and thank you, Madam Chairman and the Ranking Member, 
for allowing me to make a few remarks. I will return as quickly 
as I can.
    [The prepared statement of Senator Warner follows:]
         Statement of Hon. John Warner, U.S. Senator from the 
                        Commonwealth of Virginia
    Good Morning. I am pleased to welcome today's witnesses, and was 
pleased to welcome my distinguished colleagues from the Chesapeake Bay 
region, Senators Webb and Mikulski, Congressman Gilchrest, Governor 
Kaine, and Governor O'Malley. Your presence here today speaks to the 
serious nature of the issue today's hearing will examine.
    Together over the years, the Congressional delegations from 
Virginia and Maryland have played a pivotal role in efforts to promote 
restoration of the Chesapeake Bay. The state governments have enacted 
strong restoration policies as well. I fear that all this good work, 
just a drop in the bucket of what it will take to ``Save the Bay,'' is 
racing an impossible race against increasing global temperatures and 
sea level rise.
    The Chesapeake Bay is a national treasure that sits on the front 
lines of climate change. The problems that already plague the Bay will 
be exacerbated if Congress does not fulfill its responsibility and 
enact a measure to reduce greenhouse gas emissions. It is widely known 
by now that I have entered into a partnership with my friend and 
colleague, Senator Lieberman, to craft a climate change bill. We hope 
to have a bill for introduction in the early weeks of October.
    Madam Chairman, I am deeply troubled by the impacts climate change 
is having in my own back yard. It is an environmental issues as well as 
an economic issue. The Chesapeake Bay is one of the most significant 
estuary systems in the United States, but it is greatly changed from 
the days when blue crabs and oysters were abundant. I fear not only 
that family traditions will be lost, but that an economic driver for 
the Eastern Seaboard is in jeopardy.
    I look forward to hearing today's witnesses examine not only the 
impacts climate change is having on the Bay, but possible solutions as 
well.
    Thank you.

    Senator Boxer. Thank you, Senator Warner. Thank you very, 
very much.
    This is a very important day for me as Chairman of this 
Committee, and I know for Senator Cardin who is one of our 
newest and a wonderful member of this Committee, he and Senator 
Mikulski, Senator Webb and others have been asking me please to 
take a look in our own backyard at the impacts that global 
warming is having already.
    This Committee, many members went to Greenland. We saw what 
is happening there with the ice melt. As a matter of fact, 
Senator Mikulski, who sits on a key subcommittee on 
Appropriations, joined us in that trip. That is why her 
presence here today is so valuable because we are kind of 
marrying what we learned in Greenland in looking at the lessons 
in our own backyard. But they have pressed us to do this 
hearing. Senator Warner asked us to do it at a time when he 
could be here. Now, look what has happened with the defense 
bill, so I am sure he is going to come back. It is a good day 
for us.
    I want to talk about a little bit before our panel some of 
the impacts that are close to us here in D.C., because you 
really don't have to travel as far as Greenland to see the 
impacts of global warming, when you could see them a few miles 
at the Chesapeake. The Chesapeake Bay is already showing the 
effects of global warming, including sea level rise, warmer 
water, erosion of the shoreline, loss of wetlands that protect 
us from strong storms and provide habitat for our wildlife.
    Testimony we will hear from leading scientists today, and a 
variety of published studies, say that warmer air and water in 
the region will change the Bay ecosystem, contribute to 
worsening dead zones, and harmful algae blooms, and encourage 
the spread of marine diseases and invasive species.
    I ask unanimous consent that a report by the National 
Wildlife Federation being released today, entitled ``The 
Chesapeake Bay and Global Warming: A Paradise Lost for Hunters, 
Anglers and Outdoor Enthusiasts?''--that is the title of it--be 
entered into the record.
    [The referenced document follows on page 88.]
    Senator Boxer. This report concludes that warming will harm 
fish, oyster, clam and crab populations, as well as the 
breeding grounds and migration patterns for waterfowl. Fewer 
birds are expected to make their way to the Chesapeake Bay. 
This will also disrupt the ability of watermen, hunters and 
anglers to use and enjoy the Bay.
    These kinds of impacts are not limited to the Chesapeake 
Bay. We are beginning to see some of them in my own home State 
of California. But there is good news. The good news is that we 
can do something about this, and we will all be better off for 
it. The solutions to global warming are good for our economy, 
good for our security, and good for our planet.
    Yesterday, with strong leadership from Senator Sanders, we 
held a hearing examining green jobs created by global warming 
initiatives. Witnesses told us that through addressing global 
warming, we can create potentially millions of new green collar 
jobs. We heard from very successful businessmen.
    We can address global warming, while expanding our economy, 
improving our energy independence, and enhancing our national 
security. So those are the reasons why I approach this issue 
with hope and not fear. I believe we can rise to the challenge. 
The really great news is this Committee is ready to do that 
under the leadership of my subcommittee Chair Lieberman and 
Ranking Member of his Subcommittee Warner. We expect to have a 
very good bill very soon before this Committee.
    So we will rise to the challenge. I am determined that we 
can and will solve global warming, while strengthening our 
economy, creating new green jobs, and saving all of our 
backyards, including our national treasures, and in that list, 
certainly the Chesapeake Bay.
    So with that, I will turn to my Ranking Member, Senator 
Inhofe.

STATEMENT OF HON. JAMES M. INHOFE, U.S. SENATOR FROM THE STATE 
                          OF OKLAHOMA

    Senator Inhofe. Thank you, Madam Chairman.
    I appreciate the comments made by Senator Warner. I hope 
that he does bring out a bill, the Warner-Lieberman bill or 
whatever they want to call it, because this is the 14th hearing 
that we have had on global warming. It is time that we go ahead 
and get some action. So I hope that is the case.
    I would like to give the other side of this, that due to an 
abundance of new peer-reviewed studies, analyses and data error 
discoveries in the last several months, this year has been a 
dramatic one for global warming revelations. There has been a 
scandal at the U.S. Temperature Data Network, where 
thermometers have been intentionally placed near heat-
generating equipment and hot asphalt. Further, the Antarctic 
ice has grown to record levels since satellite monitoring began 
in the 1970s. And NASA temperatures data reevaluation have made 
1934, not 1998, the hottest year on record.
    Now, most interestingly, and the Chairman mentioned the 
trip to Greenland, Greenland has cooled since the 1940s. 
According to multiple peer-reviewed studies, current 
temperatures in Greenland have not even reached the 
temperatures from the 1930s and 1940s. It is important to note 
that 80 percent of the manmade CO<INF>2</INF> came after these 
high temperatures were reached in Greenland. We have seen 
global average temperatures flatline since 1998, and the 
Southern Hemisphere--I don't think anyone disagrees--has been 
cooling in recent years.
    Many of my colleagues today will undoubtedly say that the 
science advocating manmade global warming is settled. In fact, 
just last month a comprehensive survey of peer-reviewed 
scientific literature from 2004 to 2007 revealed--and this is 
very significant--``less than half of all published scientists 
endorse global warming theory.'' This is a quote out of the 
report. The survey used the same search term as was used in the 
survey that was cited by Al Gore in his movie as proof of 
consensus, the identical search term that Al Gore used. The 
study revealed that 528 total papers on climate change, out of 
those only seven percent gave explicit endorsement of the 
consensus. The figure rose to 45 percent if one includes 
implicit endorsement over the acceptance of the consensus 
without explicit statements.
    While only six percent reject the consensus outright, the 
largest category, 48 percent, is neutral papers refusing to 
either accept or reject the hypothesis. This led the science 
publication Daily Tech to conclude in August, just last month 
in 2007, ``this is no consensus.'' Let me repeat. Just last 
month, a comprehensive survey of peer-reviewed scientific 
literature from 2004 to 2007 said less than half of all 
published scientists endorse global warming theory. This is a 
huge change from 5 years ago and 10 years ago, but science does 
improve as time goes by.
    With regard to the Bay, its sea levels have been rising for 
thousands of years. The Bay itself is a product of a rising sea 
level. The Bay is at best 10,000 years old, and recognizable to 
us in its current form only in the last 5,000 years. Further, 
according to the U.S. Geological Survey, the Bay has risen 
about 6 inches per century over the last 6,000 years. According 
to the Maryland Department of Natural Resources, the sea level 
rise is due to naturally occurring regional land subsidence. 
The land is subsiding at a rate of 1.33 millimeters per year.
    In its report on global warming, the Chesapeake Bay 
Foundation noted that much of the area is actually sinking due 
to the geological processes that began during the last ice age. 
The Bay and its sea life have adjusted to its constant rise in 
sea level and will continue to adjust, and if the pollution 
issues can be brought under control, it will continue to 
flourish.
    I think this hearing should not have been about the impact 
of global warming on the Bay, but rather propose that this 
hearing should have been on the Bay's health, the pollution 
sources, the local economy, and the water quality. In 2000, 
Virginia, Maryland, Pennsylvania and the District of Columbia 
signed the Chesapeake 2000 Agreement, whereby they committed to 
reducing loadings sufficient to remove the Chesapeake and its 
tributaries from EPA's list of impaired waters by 2010.
    In 1985, 358 million pounds of nitrogen were delivered to 
the Bay's tidal waters. By 2005, nitrogen loadings into the 
tidal waters were down to 286 million pounds. However, as noted 
in last year's Inspector General report, the average rate of 
decrease in nitrogen loadings is about 3.4 million pounds 
annually. In order to meet the 2000 Agreement's goal of 
removing the Bay from EPA's impaired water list, nutrient 
loadings must be reduced by 16 million pounds annually. 
According to the 2006 Chesapeake Bay 2006 Health and 
Restoration Assessment, the signatories have met fewer than 50 
percent of their restoration goals. We should examine those 
goals.
    I will submit the rest for the record, because what I am 
saying, Madam Chairman, is that there are problems with the Bay 
that need to be addressed, pollution problems, and I think 
perhaps we could do that, and maybe another hearing would be 
more appropriate.
    [The prepared statement of Senator Inhofe follows:]
 Statement of James M. Inhofe, U.S. Senator from the State of Oklahoma
    Today's hearing is on the impact global warming is having on the 
Chesapeake Bay. It is also this Committee's 14th hearing on global 
warming. It was my hope that we would begin having hearings and 
discussions on actual bill language so that Members can begin to 
understand the intricate details of how many of the ideas mentioned 
today would work in reality. Due to an abundance of new peer-reviewed 
studies, analyses, and data error discoveries in the last several 
months, this year has been a dramatic one for global warming 
revelations. There has been a ``scandal'' of U.S. temperature data 
network where thermometers have been erroneously placed near heat 
generating equipment and hot asphalt. Further, Antarctic ice has grown 
to record levels since satellite monitoring began in the 1970's and 
NASA temperature data re-evaluations have made 1934--not 1998--the 
hottest year on record in the United States.
    Most interesting, Greenland has cooled since the 1940's. According 
to multiple peer-reviewed studies, current temperatures in Greenland 
have not even reached the temperatures from the 1930s and 1940s. It is 
important to note that 80% of man-made CO<INF>2</INF> came after these 
high temperatures were reached in Greenland. We have seen global 
average temperatures flat line since 1998 and the Southern Hemisphere 
cool in recent years.
    Many of my colleagues today will undoubtedly say the science 
advocating man-made global warming is settled. In fact, just last 
month, a comprehensive survey of peer-reviewed scientific literature 
from 2004-2007 revealed ``Less than half of all published scientists 
endorse global warming theory.'' The survey used the same search term 
as that used in a survey cited by Al Gore in his movie as proof of the 
consensus.
    The study revealed that of 528 total papers on climate change, only 
7% gave an explicit endorsement of the consensus. The figure rose to 45 
percent if one includes implicit endorsement, or the acceptance of the 
consensus without an explicit statement. While only 6% reject the 
consensus outright, the largest category (48%) is neutral papers, 
refusing to either accept or reject the hypothesis. This lead the 
science publication Daily Tech to conclude in August 2007 ``This is no 
`consensus.' '' Let me repeat, just last month, a comprehensive survey 
of peer-reviewed scientific literature from 2004-2007 revealed ``Less 
than half of all published scientists endorse global warming theory.''
    With regard to the Bay, its sea levels have been rising for 
thousands of years. The Bay itself is the product of rising sea level. 
The Bay is at best 10,000 years old and recognizable to us in its 
current form only in the last 5,000 years. Further, according to the 
U.S. Geological Survey, the Bay has risen about 6 inches per century 
over the last 6,000 years. According to the Maryland Department of 
Natural Resources, the sea level rise is due to naturally occurring 
regional land subsidence. The land is subsiding at a rate of 1.33 
millimeters per year. In its report on global warming, the Chesapeake 
Bay Foundation noted that ``much of the area is actually sinking due to 
geological processes that began during the last ice age.'' The Bay and 
its sea life have adjusted to its constant rise in sea level and it 
will continue to adjust and if the pollution issues can be brought 
under control, it will continue to flourish.
    This hearing should not have been about the impact of global 
warming on the Bay but rather I would propose that this hearing should 
have been on the Bay's health, the pollution sources, the local economy 
and the water quality. In 2000, Virginia, Maryland, Pennsylvania and 
the District of Columbia signed the Chesapeake 2000 Agreement whereby 
they committed to reducing loadings sufficient to remove the Chesapeake 
and its tributaries from EPA's list of impaired waters by 2010.
    In 1985, 358 million pounds of nitrogen were delivered to the Bay's 
tidal waters. By 2005, nitrogen loadings into the tidal waters were 
down to 286 million pounds. However, as noted in last year's Inspector 
General report, the average rate of decrease in nitrogen loadings is 
about 3.4 million pounds annually. In order to meet the 2000 
Agreement's goal of removing the Bay from EPA's impaired waters list, 
nutrient loadings must be reduced by 16 million pounds annually. 
According to the 2006 Chesapeake Bay 2006 Health and Restoration 
Assessment, the signatories have met fewer than 50% of their 
restoration goals. We should examine why those goals have not been met, 
whether the goals were realistic, whether the resources exist to meet 
them and where best to devote limited federal dollars in the effort. 
According to the Congressional Research Service, the federal government 
spent $58 million in 2006 directly on Chesapeake Bay programs and 
projects. This does not include any funding received through the two 
state revolving loan funds or the USDA conservation programs. We should 
be discussing whether that money was well spent or should be focused 
elsewhere.
    I think today is a lost opportunity. While much of the testimony is 
focused on global warming, I remain hopeful we will be able to learn 
about local solutions to the problem of nutrient and sediment loadings.

    Senator Boxer. Thank you very much, Senator. I think 
Senator Cardin will talk about how we are doing that in the 
WRDA bill that you were so helpful on.
    Senator Cardin.

  STATEMENT OF HON. BENJAMIN L. CARDIN, U.S. SENATOR FROM THE 
                       STATE OF MARYLAND

    Senator Cardin. Well, Madam Chair, thank you very much.
    I have the deepest respect for my colleague, Senator 
Inhofe. The two of us have been working together for many, many 
years and I respect his views. I must tell you I agree that 
science does improve as time goes on, and we know a lot more 
today than we knew a decade ago. We now know a lot more about 
the dangers of global warming.
    I regret that you weren't on our trip to Greenland, because 
you would have seen first-hand the impact of the warming 
climate in Greenland, the ice loss which is dramatic and 
occurring literally as we see from year to year. It is a 
dramatic indication of the risks that we face as a world 
because of global warming.
    I do want to acknowledge that global warming is a most 
serious threat to the Chesapeake Bay, but it is not the only 
threat. The nitrogen levels are a major concern. I want to 
thank Senator Inhofe, as I did on the floor of the U.S. Senate, 
and Senator Boxer, for their extraordinary leadership to get 
the water bill passed, the first reauthorization in 7 years. It 
has a major emphasis on the Chesapeake Bay and on the issues 
that Senator Inhofe mentioned on cleaning up the Bay, including 
dealing with wastewater treatment and the traditional programs 
that the Federal Government has been a partner with our States 
and local governments and private sector, in dealing with the 
pollution problems of the Chesapeake Bay.
    There is no one answer to the Chesapeake Bay, but global 
warming is a serious problem and one that we can deal with. I 
think that is very much indicated by the distinguished group of 
witnesses that we have with us today, starting with the senior 
Senator from Maryland, Senator Mikulski, who has been a 
tireless fighter on behalf of the Chesapeake Bay, and 
understands the importance it has not only to the economy of 
our region, but what makes this region so unique, and the fact 
that this is a national model on how communities can work 
together with government to improve the quality of a very 
difficult, but important, body of water. So Senator Mikulski, I 
thank you for your leadership on these issues.
    It is also nice to have Senator Webb and Congressman 
Gilchrest with us. Senator Webb and I were elected to the U.S. 
Senate this year and he has taken on the challenge of the 
Chesapeake Bay. I thank you very much for your leadership.
    Congressman Gilchrest represents the entire Eastern Shore 
of Maryland and has been an outspoken advocate of sensible ways 
to improve our environment and maintain a way of life that is 
so unique to the people of the Eastern Shore. I thank you for 
your leadership.
    I particularly appreciate your Governors being here today--
Governor O'Malley and Governor Kaine. Both are leaders on the 
Chesapeake Bay issues. Governor O'Malley has been Governor just 
for a few months and he has already shown his dynamic 
leadership to the people of Maryland. He chairs the Chesapeake 
Executive Council. It has initiated the Regional Greenhouse Gas 
Initiative in our State, and we thank you for that. Governor 
Kaine has taken on the leadership of Virginia as an active 
partner on our Chesapeake Bay restorations.
    I also want to acknowledge the work of Senator Warner. I am 
glad that Senator Warner mentioned Senator Matthias and Senator 
Sarbanes. All have been real champions of the Chesapeake Bay. 
We will hear later from some outstanding experts. Don Boesch is 
one of the world's leading scientists on coastal systems. 
Pastor Rick Edmund, who will tell us first-hand the problems of 
Smith Island and the erosion there, and the sea level change, 
the effect that it is having. He is one of our leaders in the 
faith community. Will Baker is the longtime president of the 
Chesapeake Bay Foundation, 190,000 members that are committed 
to restoring the Chesapeake Bay.
    Just very quickly, according to Maryland Emergency 
Management, Maryland is the third most vulnerable State to 
flooding. AllState Insurance has announced that it will no 
longer underwrite new homeowners' policies in much of Maryland 
because of rising sea levels and the increasing rate of severe 
storms which scientists tell us are associated with global 
warming. There you see what has happened to our State, the 
vulnerability to flooding in Maryland.
    About one third of Blackwater Wildlife Refuge has been lost 
in the past 70 years, and Smith Island has lost 30 percent of 
its land to rising sea levels since 1850. Madam Chair, it is no 
exaggeration to say that global warming presents a grave long-
term risk to the restoration of the Chesapeake Bay.
    We salute the strong actions already being undertaken by 
the States of Maryland and Virginia, but it is time for 
national leadership on global warming. I look forward to 
hearing from our distinguished witnesses today, and this 
Committee taking forceful action on climate change. It is 
important for the Chesapeake Bay. It is important for our 
Country. It is important for the globe in which we live. I look 
forward to hearing from our witnesses.
    [The prepared statement of Senator Cardin follows:]
       Statement of Hon. Benjamin Cardin, U.S. Senator from the 
                           State of Maryland
    The Chesapeake Bay is America's largest estuary and a natural 
resource of global significance. The United States Congress has called 
it ``a national treasure.'' But today the Chesapeake Bay faces perhaps 
a serious challenge.
    Global warming presents a present and growing threat to public 
safety, to key Bay species such as blue crabs and rockfish, and to the 
fragile lands that surround the Chesapeake.
    According to the Maryland Emergency Management Agency (MEMA), 
Maryland is the third most vulnerable state to flooding.
    Allstate insurance has announced that it will not longer underwrite 
new home-owners policies in much of Maryland because of rising sea 
levels and the increasing rate of severe storms, which scientists 
associate with global warming.
    In a report being released today, the National Fish and Wildlife 
Federation warns that we are likely to lose all of the winter flounder 
and soft-shelled clams in the Bay because water temperatures will 
simply be too hot for them to survive.
    About one-third of Blackwater Wildlife Refuge has been lost in the 
past 70 years and Smith Island has lost 30% of its land to rising sea 
levels since 1850.
    It is no exaggeration to say that global warming presents a very 
grave long-term threat to the restoration of the Chesapeake Bay.
    We salute the strong actions already being undertaken by our states 
of Maryland and Virginia. But the time for national leadership on 
global warming is now. I look forward to hearing from our distinguished 
witnesses today and to this Committee taking forceful action on climate 
change in the near future.
    As the experience of the Chesapeake Bay makes clear, we can't 
afford to wait any longer.

    Senator Boxer. Thank you very much.
    I know that Senator Inhofe is going to a meeting where he 
is trying to help us get that WRDA bill----
    Senator Inhofe. At the White House. That is right.
    Senator Boxer [continuing]. Get that WRDA bill signed into 
law. So Senator, you wanted to make a comment?
    Senator Inhofe. I did want to make one comment. There is no 
one I love more than Senator Mikulski. We are very, very close. 
We actually have been together on a lot of our Thursday 
afternoon meetings. But I have to object to have the Senator 
sit at the dais, because we have never done that in the history 
of this Committee. I know this came up a couple of times when I 
was Chairman of the Committee, and I hope you understand that.
    Senator Mikulski. Madam Chair, may I respond?
    Senator Boxer. Yes.
    Senator Mikulski. Madam Chair, you will hear in my 
testimony that the subcommittee that I have the proud honor to 
Chair, Commerce, Justice and Science, funds 85 percent of the 
science that is done on global warming. I ask to sit at the 
dais in two capacities. Number one as the Senator from 
Maryland, because this is a hearing, and I would of course be 
happy to be joined by my colleague. I am delighted that our 
colleague from the House, Congressman Gilchrest is here. We do 
function as Team Maryland on the issues related to the State.
    The second reason that I wanted to sit at the dais, though, 
is that I do fund 85 percent of the science that this Committee 
relies upon, all that information that Senator Cardin has 
conveyed up there and that Senator Inhofe conveys comes from 
our committee. I might add, the committee is the Mikulski-
Shelby Committee. We really do function on a keen bipartisan 
basis.
    I will yield to the Senator's objection, but I will ask as 
a courtesy since 85 percent of what we fund and you rely on, I 
will assume my seat behind you, as I am behind you 100 percent, 
and I will function as a staff member to the Committee.
    Senator Inhofe. Let me respond. First of all, if the 
Chairman would agree, this would be a one time only event, 
since it hasn't happened before. I would have no objection. I 
would just make the exception for this meeting. Would you 
agree?
    Senator Boxer. Senator, I am not going to agree to that. I 
am the Chairman of this Committee. I have spoken with you. You 
knew this was coming. I asked if Senator Mikulski could join 
us. You said that it is not allowed. I went back to the 
Parliamentarian. There is absolutely no rule against this, and 
many committees do this. I can't tell you from the day one 
whether this Committee has ever done it, and I don't think you 
can either.
    Indeed, it is permissible. It seems to me that we may not 
agree on this issue. Lord knows, we don't. We agree on others. 
But we should have a sense of comity here. This is a colleague 
who would bend over backwards for you if you ever asked her for 
anything. I am going to ask unanimous consent that we allow 
Senator Mikulski to join us today.
    Senator Inhofe. I object. Let me reserve the right to 
object.
    What you say is partially right, but it is unprecedented in 
this Committee. There is not a time, and we have done some 
research to see if that has ever happened before. It hasn't 
happened before. We tried it when I was Chairman of the 
Committee. It was objected to. But I am willing to make the 
exception for you, Senator Mikulski, and I hope that you will 
be seated up here and will accept the invitation.
    Senator Mikulski. Madam Chair, if I might, as again a 
personal privilege. We need to focus on the issue of global 
warming and the impact on the Bay. We have two outstanding 
Governors here. I want the focus of the hearing to be on the 
Chesapeake Bay and global warming, and not on myself.
    I yield to the ruling of the Chair.
    Senator Boxer. Well, the ruling of the Chair, if I had the 
chance to rule, would be that you would be joining us. We have 
had objection, and I just might say, let's just----
    Senator Inhofe. I am trying to----
    Senator Boxer. I understand you are trying to move on, and 
I appreciate it, but I think it is important to take a moment 
here, and I will do that. This is an outrage. This is my 
friend.
    Senator Inhofe. It is an outrage to invite----
    Senator Boxer. If I might conclude, please. It is an 
outrage to object to a sincere colleague who wants to work with 
us on a bipartisan basis that is so close to her heart. I am 
offended. It doesn't diminish my wanting to work with you in 
the future. I mean, Senator Inhofe was going to go to the floor 
and object to the committee's meeting today if this happened. 
And he has to leave us and I would not do something behind his 
back, so that is why we are having----
    Senator Inhofe. And that is why I am inviting Senator 
Mikulski to sit up here on the dais and participate. We will 
make an exception if you would agree that this is an exception 
we are making for Senator Mikulski.
    Senator Cardin. Will the Senator yield?
    Senator Inhofe. I don't see a problem with that.
    Senator Cardin. Would the Senator yield for a moment?
    Senator Inhofe. Yes.
    Senator Cardin. I appreciate your concern that we stick to 
the rules of the House, but we have a problem in getting 
Senators to attend hearings. It seems to me that it is helpful 
if we could have the benefit of another Senator in questioning 
the really distinguished panel that we have here. I would just 
urge you--I understand that you have the right to object and I 
understand your concern. I agree with Senator Mikulski, today's 
hearing is so important, just so important, the subject that we 
are dealing with. It is not about one Senator. It is about the 
issue of the Chesapeake Bay and the relationship of global 
warming and the relationship to the other issues that you 
raised. I just think it would be so helpful for this Committee 
to have the expertise of Senator Mikulski.
    Senator Inhofe. And I agree, Senator Cardin. I agree with 
everything you just said. So why don't you sit up here and we 
will make that exception for today. I would be delighted to do 
it.
    Senator Boxer. Okay, we will make the exception today, and 
I am not stating that this will be the only time I will ask for 
that, but please join us.
    Senator Inhofe. Thank you.
    Senator Mikulski. Thank you very much, Madam Chair.
    Senator Inhofe. Thank you, Senator Mikulski.
    Senator Boxer. Thank you, Senator.
    Senator Mikulski. I also thank you, then, for the extension 
of that courtesy.
    Senator Boxer. All right.
    Now, I think we are ready to get started now.
    Senator Mikulski. Who kicks it off?
    Senator Boxer. Senator Mikulski, with that tremendous 
introduction, we welcome you. All of us do.
    [Laughter.]
    Senator Boxer. We urge you to begin.

STATEMENT OF HON. BARBARA MIKULSKI, U.S. SENATOR FROM THE STATE 
                          OF MARYLAND

    Senator Mikulski. It is more than the ice caps that face a 
meltdown, Madam Chair.
    [Laughter.]
    Senator Mikulski. First of all, I want to thank you for 
holding this hearing as one of your hearings on the impact of 
global warming on our Country and on the world. I want to thank 
the members of the EPW Committee, and certainly my colleague, 
Senator Cardin, and a special comment to Senator Warner, who 
has been a long-time champion. He is a defender of the United 
States of America, and also of this planet itself. He has done 
it as a warfighter and he now continues to do it in protecting 
the Chesapeake Bay and being concerned about these 
environmental issues.
    As you can see, we are here at this table on a bipartisan 
basis. We are so pleased that you are focusing on the Bay, 
because too often the thoughts about global warming are about 
polar bears in Antarctica, and it seems very removed from the 
everyday life of what American citizens face.
    What we are so excited about that you are focusing on is 
regional impact, the impact of global warming will have a 
stunning affect on how we live in our own Country, and could 
even create an international series of security crises.
    Madam Chair, you visited our State. You know that the Bay 
is not only a great estuary, but it is part of the soul and 
culture and economy of our great State of Maryland and 
Delaware. What we know is that if anything happens to the Bay, 
Maryland as we know it will come to an end. You will hear from 
our distinguished Governor and Governor Kaine. You will hear 
from people who have worked on the Bay as scientists and 
watermen that will be able to tell you about it. Because if the 
Bay goes, so will Maryland and so will Virginia, so will our 
way of life, so will our economy.
    There will be no inner harbor. There will be no 
agriculture. Good-bye to crabs. Good-bye to oysters, watermen, 
farmers. So it is the little people with dirt under their 
fingernails. It is the people who are inventing dot.com ideas 
in our digital harbor. All of that will be wiped out if the sea 
levels and temperatures rise.
    Now, we believe that whatever decisions that the Committee 
makes should be made with sound science. As you know, I stand 
for ungagged, unfettered science to tell us what we need to do. 
In our outstanding trip to Greenland, as you know, it was the 
triumph of the geek. They told us what we needed to know 
scientifically.
    Madam Chair, I won't repeat everything I stated earlier, 
but our committee, Commerce, Justice and Science, Senator 
Shelby and I fund 85 percent of all of the climate change 
science, including for NASA, NOAA and the National Science 
Foundation. Remember, our own advisor for our Greenland trip 
told us he could do his work because of the National Science 
Foundation. You remember our European friend said we were the 
indispensable Nation on climate change research because of what 
NASA does.
    I won't go into this Committee here about what we do, but 
we have a coordinated effort in our subcommittee, working on a 
bipartisan basis with Senator Shelby to continue taking a look 
at what is happening and what we can do with best practices 
that are affordable, from satellite research to working with 
people on the ground.
    You will hear from my colleagues about other things that we 
have done to protect the Bay, from everything from trying to 
deal with water and sewer runoff, to research on oysters and 
crabs, and the EPA Bay Program. But all solutions are local, 
and I want to very much today bring to the table someone who I 
believe is an outstanding leader on the Chesapeake Bay and the 
environmental issues.
    I want to introduce Governor Martin O'Malley, who has been 
a great partner in saving the Bay. Governor O'Malley is a true 
innovator, taking what he did as Mayor of Baltimore with his 
CitiStat program, in other words, back to data. We want to be 
data-driven, science-driven, policy-driven that links outcomes 
with cost. He created something called BayStat, which is going 
to establish an accountability process to measure and evaluate 
restoration efforts up and down the Bay.
    He created the Maryland Commission on Climate Change, and 
he is going to tell you about it. He is not only a leader in 
our State, but in this Country. I am pleased to introduce him 
and following will be a wonderful panel of people from watermen 
to scientists to advocates on the Bay.
    I thank you for holding this hearing. I thank you for 
defending the Bay, and I thank you for defending me.
    [Laughter.]
    [The prepared statement of Senator Mikulski follows:]
       Statement of Hon. Barbara Mikulski, U.S. Senator from the 
                           State of Maryland
    Thank you Chairwoman Boxer, for holding this hearing today on the 
impact of global warming on the Chesapeake Bay. Thank you also to the 
members of the EPW Committee, including Senator Ben Cardin, my great 
partner in the Senate and a champion for the Bay, and Senator John 
Warner, who I've worked with for many years on the Bay and other issues 
important to Maryland and Virginia.
    I'm excited to be here today because global warming is not just 
about polar bears--it's about the future of the planet itself It is an 
inconvenient truth. We need to look at this problem locally to see the 
real consequences.
    The coastal senators are already seeing and feeling this problem. 
Our sea levels are rising, our wetlands are disappearing and our 
islands are underwater. We're looking at the possibility that our 
agriculture will be wiped out and there won't be a Baltimore Harbor.
    In Maryland, the Bay Is our economy, our culture, our soul. Being a 
waterman is not just a job; it's a way of life. At the same time, we 
know that Maryland has a turbo economy and we need wise practices to 
balance the demands on our environment and our economy.
    It is my proud job, as the Chairwoman of the Commerce Justice 
Science (CJS) Appropriations Subcommittee, to fund 85 percent of 
climate change science. And I am happy to work with you, the 
authorizers, to make sure we have sound science that is ungagged, 
unbought and unbossed--to let science speak for itself.
    We are here today to discuss how we should fix this problem. I sat 
down with my Environmental Advisory Board and asked them, `What is the 
real impact of global warming on the Bay? What have we done to fix it? 
What more can we do?' They gave me valuable information and I greatly 
appreciate all their help. Based on their feedback, we decided to hold 
this hearing to open a dialogue between government officials, 
scientists and local Bay residents so we can discuss problems currently 
facing the Bay and what our next steps should be.
    Through three presidents, I've been fighting to restore the health 
of the Bay. Every year, I fight for $20 million for the Chesapeake Bay 
Program, bringing together federal, state and local government, and 
community groups to create solutions for Bay clean up to restore water 
quality, habitats and fisheries. I've been helping scientists and 
researchers find the best ways to restore oysters and crabs in the Bay, 
fighting for almost $13 million for oyster reseeding since 2001 and 
more than $20 million to build new oyster reefs since 1995. This is 
important because oysters help filter pollutants out of the Bay and 
restoring oysters also helps maintain jobs and opportunities for our 
waterman. Crabs are also a vital part of the Bay's ecosystem and 
support jobs in a struggling region of my state, so I've been helping 
scientists find new methods of breeding and releasing crabs, providing 
nearly $12 million since 2001.
    Our local communities who can't afford to improve water quality 
also need help. That's why I've been fighting for increased funding for 
water and sewer infrastructure for Maryland, which received more than 
$21 million in 2006.
    I am Chairwoman of the Commerce Justice and Science (CJS) 
Appropriations Subcommittee. My CJS bill informs policymakers' 
decisions on what to do about global warming. In fact, 85 percent of 
climate change science is funded in CJS with almost $1.6 billion per 
year. Without the science that is funded in the CJS bill, policymakers 
on the Environment and Public Works Committee would not have the 
important benefit of this sound science to base regulatory and policy 
decisions.
    The CJS bill funds NASA's [National Aeronautics and Space 
Administration] earth science programs at $1.1 billion. This supports 
the important research missions that study chemicals and aerosols in 
the atmosphere, the earth's energy budget and links between oceans and 
climate. NOAA's [National Oceanic and Atmospheric Administration] 
weather and satellite programs, which provide short and long term 
observations and predictions of our weather and climate, are funded at 
$300 million per year. NSF's [National Science Foundation] research is 
funded at $200 million per year, and supports competitive, peer-
reviewed, basic `ground truth' research by university scientists.
    I stand ready to work with the authorizers and I am happy you're 
having this hearing today. There may be international agreements and 
national bills, but this is ultimately a local issue. That is why its 
so important to hear from the state and local officials. I am proud to 
introduce Governor Martin O'Malley, who has been a great partner with 
me in saving the Bay. Governor O'Malley is a true innovator, taking 
what he did when he was mayor of Baltimore--City Stat, a program he 
pioneered to make government more efficient--and creating Bay Stat, 
which establishes a process of accountability for measuring and 
evaluating efforts to restore the Bay. He also created the Maryland 
Commission on Climate Change, which will perform an assessment of 
climate change impacts, calculate Maryland's carbon footprint and 
develop a strategy to reduce greenhouse gases. Governor O'Malley is a 
leader not just in our state of Maryland, but in this country. He will 
tell the Committee about his efforts to save the Bay and how we can all 
work together.
    I thank the Chairwoman for this opportunity to open this hearing 
and introduce Governor O'Malley. I look forward to hearing all of the 
testimony from the distinguished panelists and coming up with real 
solutions to these problems. We need to make an action plan on how to 
make the Bay healthier and how state and federal officials can work 
together with our partners in the community. The Chesapeake Bay is a 
national treasure and Maryland's greatest natural resource, but the Bay 
is in trouble and we need to do everything we can to save it. I will 
always fight to protect the Bay and the jobs and livelihoods that 
depend on it. Thank you again for this opportunity, now I turn the 
microphone over to the Governor of Maryland.

    Senator Boxer. Senator, would you do us the honor of 
joining us, and please take your seat next to Senator Cardin. I 
would really appreciate it.
    Senator Webb, we welcome you. We are so happy. This new 
class, between all of you, including this wonderful new member 
sitting right here, you have just added immeasurably to the 
Senate and we welcome you to this issue and this battle.

      STATEMENT OF HON. JAMES WEBB, U.S. SENATOR FROM THE 
                    COMMONWEALTH OF VIRGINIA

    Senator Webb. Thank you very much, Chairman Boxer, and 
Senator Cardin. Let me join in also defending Senator Mikulski 
here. I think what Senator Cardin said is absolutely true to 
the process. There are times when we have four committee 
hearings scheduled at the same time up here. When you have a 
sitting Senator with the seniority and the knowledge and the 
tenacity of Senator Mikulski wanting to come up and participate 
on an issue, we all should be happy about that.
    My purpose in coming today really is to give a brief 
introduction to my good friend, Governor Kaine. Before I do 
that, though, I would like to thank you for holding this 
hearing and for all of your leadership on these issues. The 
Chesapeake Bay is a cherished resource not only for the 
residents of Virginia and Maryland, but for the Nation as a 
whole. It is a national treasure, and your recognition of that 
fact is sincerely appreciated.
    Members of the Bay Congressional delegation have a history 
of working together and with committees of jurisdiction on 
efforts to protect the Bay. As such, I would also like to take 
this opportunity to thank you for your Committee's work on the 
recently passed water resources bill, which contains several 
provisions for improving the Bay.
    As I said, my real purpose is to introduce our 70th 
Governor of Virginia and my good friend, Tim Kaine. Years ago 
when I was a plebe at the Naval Academy, they made us memorize 
a page about how people were supposed to live their lives. I 
was thinking about Tim Kaine and this phrase this morning when 
I was figuring out what I would come to say about him.
    Just two brief passages from that long page. Tim Kaine is 
someone whose conduct proceeds from goodwill and an acute sense 
of propriety, and whose self control is equal to all 
emergencies. He is someone who speaks with frankness, but also 
with sincerity and sympathy, whose deed follows his word, which 
is what you come to learn in government is so vital to the 
workings of government; who thinks of the rights and feelings 
of others; an individual with whom honor is sacred and virtue 
safe.
    He also has provided leadership, following on the 
leadership of his predecessor, Governor Mark Warner, that has 
caused the Commonwealth to invest hundreds of millions of 
dollar in improving the water quality of the Chesapeake Bay. 
These are significant levels of investment, not only by the 
State, but also by local governments and communities in the Bay 
watershed.
    Climate change is also an important topic, and the 
Commonwealth and your Committee have been taking steps to 
address it. This spring, Governor Kaine issued an executive 
order that requires State agencies to reduce the amount of 
energy they consume, to use green building practices, and also 
encourages procurement of more fuel-efficient vehicles for the 
State fleet.
    Most recently, Governor Kaine released a comprehensive 
energy plan for Virginia. The plan is widely praised for its 
broad approach to address energy production and consumption, 
and calls for dramatic improvements in increasing energy 
efficiency and conservation. It also calls for reductions to 
greenhouse gases to 2000 levels by the year 2025.
    Finally, Governor Kaine has made a serious commitment to 
protecting the natural resources of the Commonwealth for future 
generations. He has staked out an ambitious goal of preserving 
400,000 acres of land during his time in office. Only a year 
and a half later, he has much to be proud of. Through his 
leadership and tenacity, when he is not fishing or taking out 
his canoe, Governor Kaine is known to pitch land conservation 
easements to unsuspecting landowners. Virginia has already 
preserved 164,000 acres. This figure is nearly double the 
previous year's total.
    The benefits of his efforts to conserve land will not only 
benefit the Chesapeake Bay, but will also improve air and water 
quality. These goals will, in turn, have a positive affect on 
the public health and preserve the Virginia countryside for 
sportsmen, anglers, farmers and tourists alike in the years to 
come.
    I thank the Committee for their attention on this topic, 
and I thank you for inviting our Governor to speak to you about 
Virginia's successes.
    Senator Boxer. Senator Webb, thank you.
    Congressman Gilchrest, welcome to our Committee. Sorry we 
had to do a little bit of unusual argument.

STATEMENT OF HON. WAYNE T. GILCHREST, U.S. REPRESENTATIVE FROM 
                     THE STATE OF MARYLAND

    Mr. Gilchrest. We don't have those arguments on the House 
side.
    Senator Boxer. I know. I am sure you are just in shock.
    [Laughter.]
    Mr. Gilchrest. I was stunned.
    [Laughter.]
    Senator Cardin. I do long for the Rules Committee 
sometimes, now that we are in the majority. It would make life 
a little bit easier.
    Mr. Gilchrest. Thank you, Ben.
    I do want to say that we in Maryland, especially on the 
Eastern Shore, which is sometimes referred to as the 51st State 
or DelMarVa, but we often refer to the gentlelady from 
Baltimore as ``Schwarzkopf in earrings,'' which we say very 
affectionately.
    [Laughter.]
    Mr. Gilchrest. We all were witnesses here today to show the 
good faith and the tenacity and the intellect of Senator 
Mikulski. I am proud to have served with you for so many years 
and will continue to do so.
    Senator Webb and I share some common history in Vietnam, as 
old Marines. I bring that up for two reasons. One, we just 
exchanged some war stories briefly before we testified. But the 
other thing we basically concluded was that we were in Vietnam 
very often fighting by ourselves with just a few other Marines 
in a very hostile environment for days or sometimes weeks at a 
time. We had to be competent. We had to figure things out.
    So we got into that frame of reference of understanding 
that if we were to have integrity with our fellow soldiers, we 
needed to know how to do things, do them right, gain the 
information that was important at the time, and be competent.
    So that, as Senator Webb has said what he learned in the 
Naval Academy, and what I learned lo those many years ago, was 
that when you look at an issue, you look at that issue through 
the eyes of someone who is basing their judgment on the 
philosophy of integrity.
    So what I would like to do today is to give you some of my 
views on global warming and the Chesapeake Bay, not through the 
political process, not through some distorted ideological point 
of view, but from an objective analysis of someone who has seen 
these things happen. I want to make this place a heck of a lot 
better than we have received it, so that our children and 
grandchildren and the posterity of America will be proud of 
this generation.
    I also want to thank Governor O'Malley and Governor Kaine 
for coming here today to say a few words. We know that the 
environment in the Chesapeake Bay is in trouble for a myriad of 
reasons, whether it is over-development, chemical contaminants, 
reduced groundwater capacity for a lot of different reasons, a 
depletion of the fisheries, especially menhaden and oysters, 
the significant most important aspect of restoring the 
Chesapeake Bay because of their filtering of the water. 
Menhaden are vegetarians. They don't eat other fish. They eat 
the algae that causes depletion of oxygen.
    But let's take a look at global warming and the Chesapeake 
Bay. Before 1900, we know that there has been subsidence, but 
we also know that there has been sea level rise, certainly for 
the last 10,000 years. The sea level rose in Chesapeake Bay 
three feet every 1,000 years. In the last 100 years, it has 
risen a foot and a half. Something is going on. We used to have 
500 more islands in the Chesapeake Bay.
    Most of them are gone. You won't see them on any maps or 
charts. Poplar Island, for example, used to be 1,500 acres. It 
got down to less than 5 acres until we started this restoration 
process. Holland Island had 350 residents, 5 miles long, a mile 
and a half wide. Now, it is down to 100 acres. Where did 
Holland Island go? Barron Island was 582 acres. Today, it is 
120 acres. There are countless numbers of natural observations 
that anybody can take that you know sea level is rising. 
Blackwater Refuge loses 120 acres of grassland a year. That is 
due to increasing sea level rise.
    What will a warmer temperature do? Warmer temperatures 
deplete the oxygen, stress marine life, fewer bay grasses, more 
acidic water, and significant ecological change. That is what 
warmer temperatures will do.
    How about stream flow? It will be much more variable. We 
will have longer dry periods, increased storm intensity, and 
increased discharge of nutrients and sediments. That is what 
global warming is doing.
    What is its impact on people? Less water during dry spells 
and on the Eastern Shore, for example, in most coastal areas in 
Maryland, there is no fresh water. It is all groundwater. Less 
recharge to groundwater, as a result of these variable dry 
periods. Coastal homeowners are way more vulnerable to storm 
and coastal flooding. The aquifer system that much of our 
population depends on may not be able to meet future demand. 
Declining groundwater levels are already evident and problems 
around the Country.
    Now, our district, the State of Maryland especially, has 
done significant work to try to ameliorate or resolve these 
issues through green buildings, through better smart growth for 
our homes, for understanding the nature of sea level rise, 
understanding the nature of groundwater problems, understanding 
the nature of a whole host of human activity that is not 
compatible with nature's design. So we are moving in that 
direction.
    What needs to happen, though, Maryland can't do it alone. I 
will conclude with this. As a national policy, and we hope that 
the House and the Senate can work together in this national 
policy, like Senator Warner said earlier, to reduce greenhouse 
gases by 80 percent below present levels, or maybe even more, 
by the year 2050; by a national policy, perhaps cap and trade, 
dealing with a reduction of greenhouse gases.
    Madam Chairman and other members, especially my good friend 
Ben and Ms. Mikulski, thank you so much for the opportunity to 
testify this morning.
    [The prepared statement of Mr. Gilchrest follows:]
    Statement of Hon. Wayne T. Gilchrest, U.S. Representative from 
                         the State of Maryland
    Thank you, Madam Chair, Ranking Member Inhofe, and distinguished 
Committee Members for this opportunity to testify before the U.S. 
Senate Committee on Environment and Public Works on the nexus of two 
policy issues that are of paramount importance to me and to my 
district--Maryland's 1st Congressional District. We hold the Chesapeake 
Bay and our rural and coastal communities in great esteem. For more 
than 20 years, local policy leaders and citizen groups have worked 
against great odds to restore the Chesapeake Bay in a national model of 
scientific achievement, collaborative effort, and passion. We are now 
grappling with new challenges, including greater projected growth, the 
management of biefuel production and its impacts on water quality, and 
climate change. Affecting every driver of the Bay's overall health, 
climate change is an additional challenge to an already stressed 
ecosystem.
    Consisting of the entire Delmarva Peninsula within Maryland and 
portions of western counties that surround the Chesapeake Bay, 
Maryland's 1st Congressional District relies heavily on the health of 
the Bay as its economic engine--for abundant seafood, recreation, 
transportation of commercial goods, tourism, and a growing real estate 
market. Much of my district is geographically divided from the rest of 
the nation by the Bay, so the Bay and coastal waters are of even 
greater importance to the people living and working in the beautiful, 
bountiful area known as Maryland's Eastern Shore.
    My district includes the largest share of Chesapeake Bay shoreline 
in the Chesapeake Bay watershed, and my constituents will directly 
experience the impacts of climate change, including coastal flooding, 
shoreline erosion, and infrastructure damage from severe coastal 
storms. The Delmarva Peninsula, upon which much of my district rests, 
is basically a sand bar formed by the confluence of the Susquehanna 
River delta and the Atlantic Ocean. As a geological feature of water 
flow, and with its greatest elevation at 100 feet above sea level, the 
Peninsula is extremely vulnerable to severe weather, flooding, and sea 
level rise.
    As vulnerable as it is to climate change impacts, the Chesapeake 
Bay and its 64,000 square mile watershed are in a uniquely powerful 
position, geographically, functionally, and culturally to contribute to 
reducing and sequestering greenhouse gas emissions. With the highest 
land to water ratio of any estuary in the world, the watershed and its 
commitment to restoring the Bay through best management practices, can 
greatly contribute to the national and even global effort to reduce 
greenhouse gases. For instance, when we are stuck in traffic in the 
Washington Metropolitan Area, we are spending just a little bit less 
time on that than our friends in the New York Metropolitan Area, 
because of patterns of land use and development. The Urban Land 
Institute reported recently on the contribution of sprawl to greenhouse 
gas emissions from vehicles. Better informed and coordinated land use 
Planning, new state commitments to control vehicle emissions, and green 
buildings can solve this problem. We can plan ahead--the Institute 
predicts that two-thirds of the residences and office buildings needed 
by 2050 have yet to be built.
    The Chesapeake Bay's restoration goals, like planting forest 
buffers and preserving open space, could help sequester carbon. State 
and local government and citizen action to increase energy efficiency 
in buildings and transportation are also helping the cause Counties in 
my district, like Worcester County along the Atlantic Coast, are not 
only striving to become energy independent but are also actually 
planning new communities so that fewer residents and less 
infrastructure are vulnerable to flooding. As these local actions are 
taken to both restore the Chesapeake Bay and address and adapt 
communities to climate change, the core of the climate change problem 
is the need for a national policy to significantly reduce greenhouse 
gas emissions.
    I come before the Committee today, not only as Maryland's 1st 
Congressional District Representative, but also the co-chair and co-
founder of the Congressional Climate Change Caucus, to urge you to work 
closely with your colleagues in the House to craft and pass legislation 
dining this Congress that will meaningfully reduce greenhouse gas 
emissions to 60 percent to 80 percent below current levels by 2050. The 
survival of communities in our watershed and the Chesapeake Bay 
ecosystem depends on it.
    This legislation should have broad-based support from environmental 
and business stakeholders alike. It should not only reduce greenhouse 
gases, but also help the U.S. economy to grow and to keep the U.S. at 
the lead of international development of new energy technologies. I 
cannot stress enough that the policy we ultimately create and pass must 
be acceptable to utility ratepayers and consumers--it must not 
significantly reduce their quality of life.
    Therefore I urge the Committee, in crafting its legislation, to 
focus on the first ten to twenty years of the policy's implementation. 
We must get it right in this time frame because this is when consumers 
will judge their tolerance for it. It is also during this time that we 
must invest the capitol and take the necessary risks to develop new 
energy technology and delivery systems in order to achieve our climate 
change goals. If the investment we make during this time is not 
sufficient nor targeted enough, new technology may be insufficient to 
achieve the downward trajectory of emissions we need over the next 40 
years.
    I believe a `tipping point' will occur in this policy debate, after 
which both the impacts of global warming will be irreversible, even 
over generations, and our economic opportunity to address the problem 
will be unrecoverable. I believe this tipping point may occur sooner 
rather than later. However, the opportunity for climate change policy 
to generate a stronger U.S. energy economy and a better global 
environment during those years is tremendous.
    Madam Chair, I want to congratulate you and express my profound 
appreciation for your leadership on climate change. Your persistent 
work on this issue has helped bring Congress to its own `tipping 
point'--the point past which Members can coalesce around a solid piece 
of legislation that will reduce greenhouse gas emissions and grow the 
U.S. economy.
    The people dedicated to the Chesapeake Bay are enthusiastic, well-
informed, and eager to restore the functioning ecosystem of the Bay, 
including humans as a productive part of the landscape. They have kept 
the Bay's status in equilibrium, in spite of the millions of people who 
have moved to this lovely place since the early 1980s. I admire their 
fierce determination and hope you will join me in supporting Chesapeake 
Bay restoration--as far as we can take it--2010 and beyond.
    Thank you again, Madam Chair, and I look forward to continuing our 
work together.

    Senator Boxer. Congressman, I just want to thank you so 
very much. It is music to my ears to hear your testimony, and 
all of the witnesses.
    Now it is with great honor I ask Senator Mikulski to please 
join us next to Senator Cardin.
    I ask the next panel, two most distinguished Governors, 
Hon. Tim Kaine, Hon. Martin O'Malley, respectively Governors of 
Virginia and Maryland, to join us. We are very, very pleased 
that you have done so.
    Are we going to change the--he needs to get by, please. 
Thank you. One moment.
    Governors, you can decide who would like to go first, 
because whatever you decide is fine.

      STATEMENT OF HON. TIMOTHY M. KAINE, GOVERNOR OF THE 
                    COMMONWEALTH OF VIRGINIA

    Governor Kaine. Thank you, Madam Chair, and to members of 
the Committee, it is a real treat to be with you today on an 
important topic.
    I especially am happy to be here with my senior Senator, 
Senator Warner. I also appreciate being here with Governor 
O'Malley because Maryland and the other States--Pennsylvania, 
the District--have shown great leadership and we are happy to 
talk about this critical issue.
    I have been Governor for 20 months. In the 20 months that I 
have been Governor, we have been able to find $700 million to 
invest in Chesapeake Bay cleanup, primarily through helping 
municipalities upgrade sewage treatment. This is by a factor of 
10 more than we have done in any previous period of years, but 
we don't want to see that work that we are starting to do in 
earnest be jeopardized by what we are seeing in the area of 
climate change. That is why I am so happy to be here.
    The testimony that I filed, the written testimony, 
summarizes the effects of climate change that we would see in 
Virginia to the Chesapeake Bay that would cause us grave, grave 
concern. First, as has been commented upon already, there are a 
number of dead zones in the Bay that grow. Those dead zones 
grow with pollution and runoff into the Bay. The work that we 
are doing in all States to improve sewage treatment practices 
will help, but as weather events cause more severe storms, that 
will create additional polluted runoff into the Bay and the 
chances are significant that that runoff caused by climate 
change will dramatically increase the prevalence of dead zones.
    As sea levels rise, and there has already been good science 
about the rising sea levels and predictions that there would be 
some significant additional rise by 2030. You also see salt 
water intruding further inland. That salt water intruding 
further inland in Virginia has a dramatic potential effect upon 
species, both plant and animal species, as the ecosystem 
changes with salt water intrusion.
    We have a significant problem in Virginia and Maryland 
along the Bay with shoreline erosion over the years, caused by 
rising sea levels, development, et cetera. Climate change in 
pushing sea levels further will hasten that erosion and 
sediment is one of the pollutants that can cause significant 
problems in the Chesapeake Bay.
    We are seeing a loss of wetlands. I am interested in the 
testimony from the folks from Smith Island today. Tangier 
Island in the Bay has seen significant loss of wetlands as a 
result of rising sea levels. Because of the way the Bay has 
often been fortified to protect from storms, once these 
wetlands go, there is really no way easy to replicate them. And 
so wetlands and their effect on storm control, their effect on 
biodiversity are critical to the health of the Bay. Rising sea 
levels jeopardize them.
    Agriculture and forestry is the number one industry in 
Virginia. It is the largest industry. Obviously, climate change 
that affects temperatures, that affects rainfall has a dramatic 
effect on these industries, which are very prevalent in the 
Chesapeake Bay watershed. We see temperature change having a 
dramatic effect on corn yields, on the cost and challenge of 
raising livestock. Temperature change effects pests and 
diseases in forests that can jeopardize forests and it can also 
spread to agriculture. So these climate change effects, 
particularly on temperatures, pose a threat to the number one 
industry in Virginia, ag and forestry.
    Finally, the effect on people. The Hampton Roads area of 
Virginia is our second most populated region. It is 1.7 million 
people. It is thought to be in the analysis that has been done, 
the second most vulnerable population, urban population, to the 
effects of sea rises, next to New Orleans. It is not just 1.7 
million people. Hampton Roads is also the center of naval power 
for our Nation. Military installations in all branches in 
Hampton Roads are jeopardized in the area.
    The storm vulnerability of that region is already something 
that is critical. Making decisions about evacuating populations 
in the event of storms is already a very, very difficult thing. 
As climate change affects storm frequency and the magnitude of 
storms, that becomes a significant additional problem.
    In addition, in the Hampton Roads area we have significant 
uses of groundwater and the salt water intrusion effect that I 
mentioned earlier threatens the groundwater relied upon by a 
huge percentage of Virginia's population.
    So the effects of climate change are huge--agriculture and 
forestry, industry, tourism, biodiversity, effects upon people. 
And the Chesapeake Bay is a treasure that all Virginians 
cherish, and we don't want to see the Bay harmed either by 
pollution that we can control or manmade climate change that we 
can affect.
    Virginia is taking action on climate change. I issued 
Executive Order 48 shortly into my time as Governor to 
dramatically push State agencies to reduce energy usage and 
take steps so that we can begin to address some of the causes 
of climate change and greenhouse gas emissions. Virginia has 
joined along with other States the Climate Registry, so that we 
all can establish standard protocols for measuring the effects 
of different industry sectors on climate change. Measurement 
and data has to be the beginning point for deciding what are 
the right practices for curbing those effects.
    Finally, recently we enacted a statewide energy plan for 
all sectors--consumer, commercial and governmental--to reduce 
per capita consumption of energy, to reduce greenhouse gas 
emissions, and to establish a Commission on Climate Change.
    I feel good about what we have done in Virginia, but I have 
to say I think what we do is a poor substitute for what the 
Federal Government should do, because climate change knows no 
boundaries, certainly not State boundaries and not national 
boundaries either. Well-meaning Governors and legislators are 
tackling this all over the Country, and yet we will do our very 
best in our own jurisdictions, but necessarily if it is a State 
by State effort, there will be gaps. There will be overlaps. 
There will be redundancies. And there will not be the kind of 
comprehensive approach that this subject needs.
    I am extremely pleased with the effort that this Committee 
is making, and Senator Warner with your comment about the bill 
you are working on with Senator Lieberman to bring forward a 
comprehensive and aggressive national policy on climate change.
    If I could close just with a quick story. In Virginia right 
now, we are in the midst of Jamestown mania. It is the 400th 
anniversary of the founding of English-speaking civilization in 
this hemisphere on Jamestown Island in May 1607. For years, the 
original fort at Jamestown Island was thought to be lost. It 
was thought to be lost because it had washed into the James 
River right next to Jamestown Island.
    An enterprising archaeologist in the early 1990s named Bill 
Kelso examined the island, and he thought that the conventional 
wisdom was wrong, and that the fort was still there, and began 
an excavation that has produced evidence that he was correct. 
The original Jamestown Island fort and palisades and graves and 
evidence of our earliest settlers of democracy and founders of 
this Nation is now available, and is now available for all to 
see. We have shown it off to the world, and it is 30 yards from 
the James River today.
    It would be amazing, after having thought it lost for 
centuries, to have found it and reclaimed it, only to have it 
jeopardized by climate change that we have the capacity to 
affect. And so I encourage the great efforts of this Committee 
and look forward to being an ally for you as you go forward 
toward addressing reasonable and aggressive national policy.
    Thank you.
    [The prepared statement of Governor Kaine follows:]
         Statement of Hon. Timothy M. Kaine, Governor from the 
                        Commonwealth of Virginia
    Chairman Boxer and members of the Committee, thank you for inviting 
me to be here today. The Chesapeake Bay is one of our Commonwealth's 
most important natural assets, and it has contributed immeasurably to 
our cultural heritage.
    As you know, the Bay is already a stressed system, and the federal 
government, the Commonwealth of Virginia, the District of Columbia, the 
State of Maryland and the Commonwealth of Pennsylvania have all made 
significant investments in restoring the Chesapeake Bay.
    In my first year in office, I signed into law a $200 million cash 
investment in sewage treatment plant upgrades in the Chesapeake Bay 
watershed. In my second year in office, I signed into law provisions 
for $250 million worth of bonds to support sewage treatment plant 
improvements. And just a couple of months ago, an additional round of 
bonds was issued totaling more than $240 million to assist Virginia 
localities in the Bay watershed who seek to install advanced 
technologies to their sewage treatment plants. I believe this nearly 
$700 million total investment in less than two years speaks volumes--
Virginia is very serious about improving the health of Chesapeake Bay.
    I am very much concerned that climate change could jeopardize the 
progress we're making in restoring the Bay. For example, scientists 
agree that additional temperature changes in the atmosphere and oceans 
will increase the frequency of extreme weather events that will 
exacerbate polluted run-off into the Chesapeake Bay, causing the dead-
zones in the Bay to grow. This additional pollution, combined with 
warmer surface water temperatures, will increase environmental stress 
and disease for key species, such as oysters and striped bass, as well 
as the loss of important aquatic plants, such as eelgrass. We should 
also be concerned about effects on the Bay's commercial and 
recreational fisheries, threatened and endangered species, and breeding 
ground and migration for waterfowl.
    If climate change goes unchecked, the damage will not be limited to 
the Chesapeake Bay itself. As sea level rises, salt water will intrude 
further upstream into current freshwater systems--altering the 
distributional ranges of key animal and plant species throughout the 
entire watershed.
    Sea level rise and storms will also affect the Bay's physical 
characteristics, likely resulting in increased shoreline erosion. The 
Bay and rivers already suffer from the effects of sediment pollution--
increased shoreline erosion will only make it worse. Rising sea levels 
would inundate coastal marshes and other important fish and waterfowl 
habitats and make coastal property more vulnerable to storms. In fact, 
some estimates show that up to 80% of Virginia's tidal wetlands could 
be lost by the end of the century. And because many of our shorelines 
are armored for erosion control, tidal wetlands will have no place to 
migrate landward in the face of sea level rise. Our wetlands will 
become fragmented, lose species diversity, and will no longer be able 
to serve their ecological function.
    Climate change will also affect the Bay watershed's forests, where 
prospects for insect and pest outbreaks will increased, which also pose 
a threat to agriculture. As temperatures go up, there will also be 
reductions in crop yields. For example, corn yields begin to suffer as 
temperature exceeds 90 F, and corn crop damage can be severe at 100 
F. Increased frequency of both droughts and severe rainstorms can also 
destabilize annual crop yields. Because livestock are temperature 
sensitive, there are likely to be increased labor and maintenance costs 
to the farmer.
    Now, let me talk about impacts on the places where we live and work 
in the Chesapeake Bay Watershed. The Virginia Institute of Marine 
Science estimates that sea level will rise between 4 and 12 inches by 
2030. The Hampton Roads region of Virginia is the largest population 
center that is at the greatest risk from sea level rise outside of New 
Orleans. I mentioned frequent and severe coastal storms and flooding as 
an effect of climate change. The effects of these severe storms will be 
multiplied by rising sea levels, increasing risk to life and property. 
We also have to be concerned about salt water intrusion into 
groundwater supplies.
    To be sure, we can adapt to a few of the impacts of climate change, 
but others will be devastating. It's difficult to predict how the 
impacts will affect one another, or what the endpoints of these impacts 
will be. We need additional research at a watershed level so that we 
can better prepare for the changes that are coming and take prudent 
steps to reverse the trends in greenhouse gas emissions we are now 
seeing.
    Madame Chair, I state none of these facts to be alarming. I state 
them to show what is at stake if we don't face the challenges of 
climate change head on. I wish I could say that these impacts are only 
speculative, but they aren't. In Virginia, where we rely so heavily on 
the health of our natural resources for their economic, social, and 
historical value, we simply can't afford to postpone action any longer.
    That's why my Administration is taking action. In April, I issued 
Executive Order 48, which requires state agencies to reduce the annual 
cost of non-renewable energy purchases by at least 20 percent of fiscal 
year 2006 expenditures by fiscal year 2010. And, in May, I announced 
that Virginia was joining the Climate Registry, which provides a forum 
for states to work together develop a common accounting system to track 
greenhouse gas emissions.
    I also recently released a comprehensive Energy Plan for Virginia, 
which covers all aspects of energy production and consumption and calls 
for the state to dramatically increase its efforts in energy efficiency 
and conservation. The Plan identifies four overall goals, including 
reduction of greenhouse gas emissions by 30 percent by 2025, bringing 
emissions back to 2000 levels. Soon, I will announce the appointment of 
a Commission on Climate Change to prepare a Climate Change Action Plan 
to implement these recommendations. The Commission also will gather 
information on the expected effects of climate change on the state and 
identify actions that Virginia needs to take to prepare for the 
consequences of climate change that cannot be avoided. The Energy Plan 
also recommends that Virginia impose mandatory reporting requirements 
on emitters of greenhouse gases, and I will work with the legislature 
to implement this recommendation.
    While these are important steps that we are taking at the state 
level, action on climate change must occur at the federal level. Many 
states are developing climate action strategies, but that does not 
forestall the need for congress to take action. Both the causes of, and 
solutions to, climate change transcend state and local boundaries.
    Virginia stands ready to participate in the development of 
legislation that will reduce emissions of greenhouse gases nationwide. 
I support legislation that includes a cap-and-trade program for 
emissions of all greenhouse gases, imposes economy-wide controls, 
rather than singling out a particular sector, and accounts for state 
efforts to standardize methodologies to record and measure green house 
gas emissions through the Climate Registry.
    I know that there are many ideas being discussed in your committee 
right now, and I thank Senator Warner for being a leader in this 
effort. My message to you is that each day that legislative action is 
delayed will have negative consequences for the Chesapeake Bay. I urge 
you to pass legislation that addresses climate change in a 
comprehensive way, as quickly as possible.
    Once again, thank you for the invitation to be here today. I am 
happy to answer any questions that you may have.

    Senator Boxer. Governor, thank you so much. I thought your 
ending was very appropriate because there was recently an 
article that said a lot of our treasures will be gone if we 
don't act.
    Hon. Martin O'Malley, welcome, sir, Governor.

  STATEMENT OF HON. MARTIN O'MALLEY, GOVERNOR OF THE STATE OF 
                            MARYLAND

    Governor O'Malley. Madam Chair, thank you very much. Thank 
you very much, Madam Chair, Senator Warner, Senator Cardin, 
Senator Mikulski. It is a distinct honor and a privilege to be 
here with you today discussing this probably most critical of 
all moral challenges that face us as a people. It is also a 
great honor to be able to serve with someone of Governor 
Kaine's commitment and passion for the protection of our 
natural environment, and the tremendous asset and treasure that 
is the Chesapeake Bay.
    That was a wonderful story about the settlers of Jamestown 
and our rediscovery of the fact that the place that they 
inhabited the first year is still there. It is within our 
grasp. There is so much history up and down the banks of the 
Chesapeake Bay, and I think one of the common traits that all 
of the settlers at Jamestown had, as did all of the people who 
settled in Maryland and on the Chesapeake Bay, is something 
that we still have, and that is a future preference, a 
preference for a better, safer and healthier future.
    Certainly, as we look at this issue of climate change and 
rising sea levels, that is really going to put that great 
American in Maryland and Virginia idea to the test. Do we have 
the ability and the will and the courage to do what needs to be 
done in order to honor not only the inheritance and the hard 
work that we have received from others, but also to keep faith 
with posterity.
    I wanted to, rather than recapping so many of the threats, 
I wanted to cut right to some of the things that we are doing 
as a State. Governor Kaine certainly, and Senator Mikulski and 
others outlined the threat of rising sea levels, the islands 
that are no longer visible; thousands and thousands of miles of 
coastline, and insurance companies no longer willing to write 
insurance for those risks.
    I wanted to talk to you about the idea that we have found 
is helpful as we come together with human will and human action 
to apply to this problem. And that is a shared vision of 
sustainability, sustainability of the land we use, the water we 
use, the air, because of the energy we consume, the air that we 
use. In Maryland, as Senator Mikulski mentioned, we have 
implemented a new program called BayStat, where we pulled the 
Department of Agriculture at the State, and the Department of 
Environment, and scientific minds and academics and 
practitioners around the table every 2 to 3 weeks, looking at a 
common map of our interactions, of the synergies, and the 
things that we do together to implement those things which we 
know will make a difference towards meeting the goals we have 
for a cleaner and healthier bay.
    But when it comes to the air we consume, which is 
absolutely affected by the energy we consume, in Maryland we 
are implementing an ambitious, but achievable vision that we 
produced in collaboration with other neighboring States, to 
reduce greenhouse gas emissions. Together, we established the 
Regional Greenhouse Gas Initiative, a working partnership 
between 11 States to reduce greenhouse gas emissions from the 
power plant sector. Together, we fought for and we passed the 
California clean car standards, which will require cleaner, 
more fuel-efficient cars in our State by 2011. Together, we 
created the Commission on Climate Change this year, charging 
their professional membership to prepare Maryland's plan of 
action. Together, we set a goal to reduce our per capita 
electricity consumption by 15 percent by 2015.
    Together, we are diversifying our energy portfolio with 
clean renewables like solar, wind, biodiesel, and biomass. We 
have started by adopting one of the most aggressive laws in the 
Nation requiring two percent of Maryland's electricity, or 
approximately 1,500 megawatts, to come from solar by 2022.
    With the help of Senator Mikulski and Senator Cardin, we 
are going to continue to lead, and we intend to have the first 
long-range plan to address the coastal changes caused by 
climate change.
    Why do we do this? For two very important reasons: No. 1, 
is necessity; and No. 2, is what I began with, that future 
preference, that obligation that we have to come together 
across manmade borders because of the nature of this challenge 
which recognizes no borders. It calls upon all of us to come 
together for ourselves and for our posterity.
    Other States are also stepping up to the plate. Currently, 
26 States have taken concrete action on climate change. Over 20 
States have set substantial greenhouse gas reduction targets. 
Using State efforts as a model, there are many programs that 
can radically reduce greenhouse gas emissions at a reasonable 
cost.
    But as Governor Kaine said, we cannot go it alone. We need 
the partnership of our Federal Government. There is a long, 
proud history of Federal leadership on environmental and 
conservation issues, from the days of Theodore Roosevelt in the 
very first national parks, to the Clean Air Act. We need our 
Federal Government. Together, we can develop national programs 
that tackle greenhouse gas emissions. We can transform our 
Nation from a carbon-based economy to a green, sustainable 
economy.
    The time to act is past. The time to catch up is now. And 
we greatly appreciate the leadership of this Committee and our 
Congress in helping us protect the most important asset that we 
inherited from our parents, and that is the health of our 
natural environment in this great Country.
    Thank you very much.
    [The prepared statement of Governor O'Malley follows:]
 Statement of Hon. Martin O'Malley, Governor from the State of Maryland
    Madame Chair, Ranking Member Inhofe, and distinguished Members of 
the Committee, it is my distinct honor and privilege to testify before 
you today about a global issue that has become a very real local issue 
today for the citizens of the great State of Maryland. I would also 
like to give special thanks to Senators Barbara Mikulski and Ben 
Cardin, from my home state, for their extraordinary leadership and help 
in bringing about this opportunity.
    In Maryland, we have over 4,000 miles of coastline--4,000 miles--
this is more coastline than the State of California. Maryland is in a 
very precarious position when it comes to the impacts of climate 
change. Our region is ranked third in the nation terms of our 
vulnerability to sea level rise. We are third, behind only Louisiana 
and South. In Maryland, climate change and sea level rise are at our 
doorstep.
    While we are fortunate enough to hug the Chesapeake Bay, a fragile 
estuary, it also means for us that the impacts of climate change have 
already been detected. Historic tide-gauge records show that sea levels 
have risen one-foot within Maryland's coastal waters over the last 
century. Due, in part to naturally occurring regional land subsidence, 
the Chesapeake
    Bay region is currently experiencing sea level rise at a rate 
nearly double the world-wide average.
    There is now near universal scientific consensus that the world 
climate is changing. Scientists estimate that temperature will rise 
between 1.98-11.52 F and that our sea level will rise as much as 7 to 
23 inches over the next century. If left unchecked, these estimates 
will translate into devastating impacts for Maryland's citizens, its 
property, its bountiful natural resources, and the investments of its 
taxpayers.
    Thirteen charted islands and large expanses of tidal wetlands 
within the Chesapeake Bay have already disappeared. Each year, the 
State loses approximately 580 acres of land to shore erosion.
    Current scientific research indicates that the rate of sea level 
rise is starting to accelerate in Maryland waters. The result of such a 
rise will be a dramatic intensification of the impacts from coastal 
flood events; increased shore erosion; the intrusion of salt-water into 
our freshwater aquifers--any of which are used for potable water 
supply; and submergence of tidal wetlands, low-lying lands and even the 
Chesapeake's last inhabited island community, Smith Island.
    In Maryland, we do not have time to wait. Nor would I suggest, does 
the country have time to wait. Climate change is perhaps one of the 
most daunting challenges facing Maryland. The time is upon us to take 
action to begin shaping our own future in the face of this threat. 
Decisions we make today will influence Maryland's health and vitality 
long into the future.
    We now know with certainty that human activities--including coastal 
development, the burning of fossil fuels and increasing greenhouse gas 
emissions--are contributing to both the causes and consequences of 
climate change. In Maryland, as a State, we are implementing aggressive 
initiatives to reduce greenhouse gas emissions:
    <bullet> We are a full fledged member of the Regional Greenhouse 
Gas Initiative--a voluntary collaboration of 11 states to reduce 
greenhouse gas emissions from the power plant sector.
    <bullet> We have adopted the California Clean Cars standards which 
will require cleaner and more fuel efficient cars in our state by 2011.
    We have established a Commission on Climate Change and have charged 
this Commission to recommend Greenhouse Gas Reduction Goals and to 
prepare Maryland's Plan of Action.
    <bullet> We established a goal to reduce our per capita electricity 
consumption by 15 percent by 2015.
    <bullet> We are diversifying our energy portfolio with clean 
renewables like solar, wind and bio-diesel and bio-mass, and have 
recently adopted one of the most aggressive laws in the nation to 
require two percent of Maryland's electricity, or approximately 1,500 
megawatts of power, to come from solar energy by 2022.
    Maryland will continue to be a leader. We intend to be the first 
state in the nation to develop a long range strategy to plan for and 
adapt to the changes we will face along our coast caused by climate 
change. Many have asked why a small state like Maryland would take 
these actions. The answer is, first, because we have an immediate 
problem. Second, Honorable members of the Committee, it is the right 
thing to do. We know that the best way to address this issue is with 
global action. The next best--is acting country-by-country, as over 160 
of our fellow nations have done. The next best option is to take action 
state by state.
    Maryland will continue to be a leader. With the help of Senators 
Mikulski and Cardin, we will continue to do what is right for our 
state. Third best, however, is simply not good enough. We need our 
federal government to act. State-by-state reductions simply don't make 
sense for this global problem and the time is now for federal action on 
climate change issues.
    We have a long history with environmental challenges in this 
country. Many challenges are local and are appropriately dealt with at 
the state level. But on national issues, we seem to go one of two ways. 
The federal government enacts laws, develop standards, and the states 
follow and implement. Or, when the federal government fails to lead, 
states have no choice but to step up and act This appears to be one of 
those occasions.
    Currently, 26 states have initiated actions related to climate 
change. Over 20 states have set substantial greenhouse gas reduction 
targets. Using the state efforts as a model, there are many programs 
that can radically reduce greenhouse gas emissions at a reasonable 
cost. The time has come to develop national programs that effectively 
reduce greenhouse gas emissions from fossil fuel burning power plants, 
from our automobiles, and a multitude of other sources.
    We must transition from a carbon-based economy to a green, 
sustainable economy--an economy that does not prolifically emit 
greenhouse gases into the atmosphere as a byproduct of progress. 
Economic progress at the cost of environmental sustainability is not 
progress at all.
    Furthermore, we must proactively plan for the consequences of 
climate change by amending coastal zone management plans, integrating 
the consequences of climate change into federal programs for flood and 
shoreline management. Federal agencies should be coordinating to ensure 
that we adapt to climate change as a nation.
    When given a choice between progress and regression, the people of 
Maryland always choose progress. We have an unshakeable belief in what 
Carroll Quigley, a historian at Georgetown, called ``future 
preference''--the idea that ``tomorrow can be better than today and 
that each of us has a personal and moral responsibility to make it 
so.'' Why is sustainability so important? Because, as the old Native 
American proverb goes, ``we do not inherit the Earth from our 
ancestors; we borrow it from our children.''
    Why we are so concerned about energy efficiency and placing an 
emphasis on ``green?'' Because, in the words of Maryland's Own. 
columnist Thomas Friedman: ``the people who will be harmed the most by 
the climate-energy crisis haven't been born yet.''
    Public service is about making decisions, many for which the 
consequences will be felt long after we're gone, many for which we may 
not be around to enjoy the benefits. In the short time we have in these 
jobs, jobs, and on this earth for that matter, let's resolve to put 
aside the impulse for instant gratification . . . and instead, embrace 
a compact with the grandchildren who are yet to be born.
    In the finest American tradition, let's prefer their future over 
our present . . . forsaking patchwork quick-fixes for enduring 
solutions. Let's do for them what the Greatest Generation and our 
forefathers did unflinchingly for us--relinquish the comforts of today 
in the name of a better tomorrow.
    Climate change is one of the most pressing challenges facing our 
generation today--we must, and we can, collectively find a way 
ultimately to address the problem to achieve sustainability, as a State 
and as a Nation.
    Thank you very much for your time in considering my testimony 
today.

    Senator Boxer. Thank you so much, Governors. We will each 
have five minutes for questions, if you don't mind. Can you 
stay a little bit longer? OK.
    I wanted to pick up, Governor Kaine, when you talked about 
the fact that you had military assets along the coast and 
coastal areas, because I find it so interesting that Senator 
Warner, teaming up with Senator Lieberman, is really in the 
lead in this entire Senate now. One might say, well, this is 
unusual; here he is, an expert on military matters, and here he 
is taking the lead. But there is a marriage between the two 
here.
    I mean, we have received warnings from our own intelligence 
people and our military people that if we don't act on global 
warming, it will be the major cause of wars in the future, the 
major cause of refugee dislocations, famine, drought, which 
cause wars.
    So in many ways, you are bringing up the fact that the 
assets that are along the coast brought that to my mind, that 
this marrying up between the environment and our national 
security is so interesting and that Senator Warner is here at 
this time. It is to me a very moving point.
    I had one question for both of you, and that is this. In 
order to effectively address global warming, we are being told 
by our business people very clearly that they need to have 
clear market signals, that what we do here is real. So that 
when we set our goals, they are real, and there are not big 
loopholes where people can drive off and say, ``All right, we 
don't have to do anything about carbon anymore or greenhouse 
gases.''
    So are you hearing similar things in your States? Because 
in my State, which, like you, California has taken a major lead 
on this, and our Governor, Governor Schwarzenegger, working 
with our Attorney General Jerry Brown and the legislature, has 
been just a model in terms of how they have acted here.
    So do you hear similar points being made, that we need to 
act with clarity so that the investments in new technologies 
will in fact come to fruition? If either one of you wishes to 
respond.
    Governor Kaine. Madam Chair, those are signals I am hearing 
from my private sector. And on a couple of sort of related 
points, first, the clarity of the signal for an investment 
climate is key. The good news is investments across the range 
of alternative energy sources and conservation that weren't 
particularly powerful 5 years ago suddenly are hot. So there 
are some good market signals out there already to promote this.
    The other issue that I am hearing related from my private 
sector folks is the approach that needs to be taken on climate 
change should be across all industries. Don't just focus on one 
or two industries. For example, in Virginia we know one of the 
huge challenges we have is a lot of the challenges are from 
transportation, vehicles, transportation modes that need to be 
upgraded. So we shouldn't just focus on power plants and then 
sort of let transportation off the hook. It needs to be 
something that is truly across all industry sectors. That is 
also what I hear from our private sector folks. It needs to be 
comprehensive and not single folks out.
    Senator Boxer. Thank you.
    Governor O'Malley.
    Governor O'Malley. We have been working cooperatively with 
our power industry in our efforts to join REGI and our own cap 
and trade. We hope to have our first auction in the summer of 
2008. While we have been working cooperatively with them, I 
have to say that I have yet to talk with a person from the 
power industry that doesn't believe that a national program 
would be far preferable, instead of a patchwork of 
hopscotching, one State does, one State doesn't.
    The industry itself wants predictability. They want 
sustainability, clear market signals, as you said, Madam Chair. 
They also want a national program.
    Senator Boxer. Thank you, sir.
    Senator Warner.
    Senator Warner. Madam Chairman, I think I would like to 
yield my time to our distinguished colleague from Maryland, my 
good friend, Senator Mikulski. Oh, no, I insist. I have that 
right as Ranking that you go now.
    [Laughter.]
    Senator Warner. Now, I stop to think. We are seated here 
with these two great Governors of our States. One hundred years 
ago, they used to have wars in Chesapeake Bay between the 
oystermen and the crabmen and the rockfish. And here we are 
sitting peacefully talking about a common endeavor. It is very 
refreshing.
    Senator Mikulski, keep a watchful eye to prevent those wars 
reoccurring.
    [Laughter.]
    Senator Warner. Senator, I yield to you.
    Senator Boxer. Senator, please go ahead.
    Senator Mikulski. Well, thank you very much, Senator 
Warner. I know you had to step out at the beginning of the 
hearing, but what I said was that you have really been a 
champion and a real warrior. You have protected this Nation, 
both by putting yourself directly in the line of fire as a 
warrior against those who had a predatory intent towards the 
United States of America. And now, along with that, you are 
really making sure that part of your incredible legacy is that 
you are protecting the very planet and the very bay that you 
love.
    We want to really work with you on your environmental 
legislation, but for this Senator it has been indeed a great 
pleasure to work with you on the issues related to Maryland and 
to Virginia. Having said that, I accept your gracious 
invitation to ask a few questions.
    I think we are all clear listening to our two very dynamic 
Governors that patchwork doesn't work. Now, one question will 
be not only what you will need from the Federal Government in 
terms of standards, et cetera, but you each are going to have--
Governor O'Malley already does and Governor Kaine you will--
these Commissions on Climate Change. I know with the knowledge 
economy that we both have, as well as the practicality of 
agriculture, the watermen economy, et cetera, could you share 
with us what we can expect from the Governors to provide 
guidance to the Federal Government on what we need to do? We 
need to help you have a national program based on sound science 
that you can work with funding great laboratories like the 
Virginia Institute and our own University of Maryland 
Laboratory work.
    But what could we expect from these commissions that would 
give us guidance?
    Governor Kaine. Well, as was pointed out, Governor O'Malley 
has created a commission. I just have announced the creation of 
one, so we are putting one together. The good news, Senator, is 
that we have a deep talent pool of scientists and advocates who 
are very, very engaged in this. We know already that sort of as 
a State policy we would support a national cap and trade 
program. I believe that without saying what the commission's 
recommendations would be, there is strong support for that in 
Virginia and I suspect would come out of a commission in that 
sense.
    In addition, we do have good research institutes. The 
Virginia Institute of Marine Science, and Virginia Tech does 
significant research on carbon capture and storage in the 
southwestern part of the State. We have a number of other 
research universities that do significant work in this area. 
They will be part of the commission.
    So I think one of the things that we can do as Governors 
and with these commissions is forward the research that is 
being done. It is just a matter of harvesting what is there 
already in terms of strategies. I think we will have some very 
good recommendations that we can get to you from the talent 
pool that we have in Virginia.
    Governor O'Malley. I suspect that the recommendations from 
Maryland's Climate Change Commission are probably going to 
break down in about four different parts. There will probably 
be recommendations on how we prime, encourage, move more 
quickly towards diversified portfolios in terms of the energy 
we use. Energy-efficient buildings--we have all become 
accustomed to understanding how much power plants and cars 
emit, but there is tremendous opportunities to reduce our 
carbon footprint, and I suspect they will be making 
recommendations on energy efficiency in buildings.
    Thirdly, the cap and trade, which we already mentioned, I 
would have to believe that they will come out with 
recommendations for a national program on that score. And 
finally, transportation--the way we get to and from. Another 
important part that I think Maryland is particularly sensitive 
to, maybe in advance of some other States and certainly parts 
of Tidewater Virginia experiences this as well, and that is the 
connection between land use and global warming. In other words, 
our population has increased by about 30 percent since the 
1970s, but the land we consumed has increased by about 100 
percent. With that comes a tremendous amount of impervious 
surface, a lot more lane miles traveled, and everything else 
that goes with that.
    So I suspect that Maryland's Climate Change Commission will 
also have recommendations on what we can do and where the 
connection between land use and climate change is becoming more 
and more apparent.
    Senator Mikulski. Thank you. I note that my time is up. I 
would hope that one of the things that we could get, 
particularly from Maryland and Virginia, would be 
recommendations related to energy, and especially 
transportation. Both of our States have terrible transportation 
issues. I know Virginia has grappled with it from a reliable 
revenue stream to do this, but when we look at everything from 
the mixing bowl to our turbo car door, we all know that 
transportation is the number one issue with our constituents.
    But also then how can we turn this lemon into a new 
lemonade stand? Meaning, what can we do to look at our energy 
policy as well as our transportation policy that, number one, 
deals with global warming, helps solve transportation problems, 
and create markets for new types of vehicles, not only 
passenger vehicles, but as Governors you know, how about the 
cost of school buses? How about the cost of your own 
transportation fleets? To actually make the Federal Government 
a partner with you, that is you go to buy mass transit 
vehicles, how we can have incentives to go to green vehicles 
that would help the so-called market cues.
    So we look forward to working with you. I am glad that we 
have put aside the oyster wars and I am ready for an oyster 
festival. So thank you very much.
    Senator Boxer. Thank you, Senator.
    Senator Warner has told me that he would like Senator 
Cardin to go next. So our amazing colleague is again deferring, 
so Senator Cardin, the floor is yours.
    Senator Cardin. I add my thanks to Senator Warner. Senator 
Warner, as I mentioned when you had left, has been one of the 
real champions. The beginning of the Federal Government's 
involvement in the Chesapeake Bay was the result of the 
leadership of two great U.S. Senators, Senator Warner and 
Senator Matthias. They took that on, and Senator Sarbanes 
joined them, and we have the involvement today as a legacy of 
Senator Warner, but he is going to do something else before he 
retires.
    He won't retire before he leaves the Senate, and that is he 
is taking on the leadership on global warming. We thank him for 
that because he is going to I think give the type of sage 
advice that gives us the best chance of getting a bill enacted. 
We thank you for your continued leadership, and I thank you for 
your courtesy and for your help as a member of the U.S. Senate.
    I agree that a piecemeal approach won't work on these 
issues, so we do need the Federal Government involvement. But I 
do think we can learn from the States. That is what federalism 
is about. So I really congratulate the leadership of both of 
our Governors here because you are giving us workable models 
that we can now use as national policy.
    Governor O'Malley, I know that your leadership in dealing 
with conservation and renewable energy sources has been just 
dramatic, and we thank you for that. This week, we held a 
hearing in this Committee on the economic advantage of green 
policies. We had testimony from Marylanders on solar energy, 
and our State is one of the leading sources now of solar energy 
development. My question to you is, have you evaluated the 
impact of your policies on the economy of Maryland and the 
reaction you are getting from the business community as you 
look towards ways of getting less electricity use, energy use 
in our State, and looking at developing a wider portfolio of 
energy supplies in Maryland?
    Governor O'Malley. Well, certainly our hope, Senator, is 
that as a Nation that has a very strong knowledge-based 
economy, as a people who have always been innovating and 
creating new jobs every generation, it is certainly our hope 
that as we develop new sources of energy, as we apply our minds 
and the diversity of minds that we have in our State to this 
challenge that there is a whole wealth of jobs that can be 
created by throwing ourselves into green building technologies, 
renewables, and energy efficiency.
    We have really been engaged in days and days of 
conversations with stakeholders as to how we throw ourselves 
into energy efficiency. However we go about doing it, it is 
unavoidable that it will require a lot of skilled and well 
trained people who will have to work here in Maryland in order 
to create whether it is a smart grid, whether it is smart 
meters in homes, the creation of energy-efficient appliances 
and the like.
    So I think this could be a great new wave for our State and 
for our Country, the mixing both of high-minded, innovative, 
cutting edge technology, but also the sort of hands-on skilled 
jobs that put food on a family's table and bring about the 
security and prosperity that is the mark of any progress.
    Senator Cardin. Thank you.
    Governor Kaine, I also want to join the Chairman in just 
appreciating the way that you brought in national security to 
this debate. I hadn't thought about Hampton Roads and realized 
it was the second most vulnerable city or area to flooding, and 
the huge population center that is there. But it is of critical 
importance to our national defense.
    The additional risk we are putting on national defense, 
where we could do something about it, with extreme weather and 
the dangers. I very much appreciate your bringing that up, 
because that point has not been brought out in our discussions 
on global warming. I think it is an extremely important point 
and one that we should follow up on, Madam Chair, as part of 
our work.
    I also appreciate your testimony as to the quality of life, 
so many factors involved with the Chesapeake Bay and how it 
really makes Virginia a unique place to live and work.
    Madam Chair, I just want to bring to the committee's 
attention the report that was released today by the National 
Wildlife Federation, the Chesapeake Bay and Global Warming. It 
points out some of the points that we have already talked 
about, that global warming threatens an already beleaguered 
Chesapeake Bay. We don't deny it. We have problems in the Bay. 
But global warming is making it more challenging.
    It also talks about another part, and Congressman Gilchrest 
mentioned this, gone fishing or fishing gone. This report says 
that the Chesapeake is becoming too warm for winter flounder. 
We are liable to lose it altogether. And soft clams we are 
liable to lose altogether because the winter is just too warm. 
If it is appropriate, I would like to see this as part of our 
record.
    Senator Boxer. Without objection.
    [The referenced document follows on page 88.]
    Senator Cardin. Again, I thank our Governors for being 
here.
    Senator Boxer. Senator Warner.
    Senator Warner. Thank you, Madam Chairman.
    I would like to follow on one of Senator Cardin's themes, 
and that is the impact on the economy. Under the strong 
leadership of our Chair here, we had a hearing yesterday that 
was quite interesting. We are all quite familiar with the term 
``blue collar,'' the people who get out there and sweat and 
work and make our economy what it is today in large measure, 
under the direction and framework of executives on top.
    But we have a new term coming up. It is called ``green 
collar.'' I thought we had a convincing body of fact given to 
the Committee yesterday about how the collective efforts of the 
several States, together with the Federal Government, towards 
the climate change remedies are creating an entire new class of 
citizens who proudly work in what we call green collar jobs, 
namely erecting the wind power stands and dealing with all of 
the other aspects of the initiatives that each of you have 
taken in your States.
    I wonder if you would lead off, Governor Kaine, followed by 
Governor O'Malley. Are you beginning to categorize these jobs 
and relate that to the citizens of our great State? Because I 
have always said from day one in my efforts on this subject, 
there is going to be added costs at the gas pump when you go 
and fill up your car. There is going to be an added cost when 
the homemakers have to pay that monthly heating bill. A lot of 
these costs of the industrial and the manufacturing and the 
transportation levels are being fed right back to the consumer.
    So I think it is helpful to try and show the balance, the 
creation of a new category of jobs.
    Governor Kaine. Senator Warner, Virginia is the number one 
State in the Nation in the percentage of our workforce that 
work in technology jobs. We have seen in the last 3 or 4 years 
a definite anecdotal increase in the number of technology jobs 
in alternative energy and energy sectors. I just think of a 
very large Virginia company right across the river, AES, that 
does energy around the Nation and around the world. They are 
one of the largest producers of wind power in America right 
now. They produce alternative energy at facilities all around 
the United States and the world at this time.
    So we are seeing that green collar sector of the economy. I 
had not heard that phrase, but we are seeing that grow. It 
often clusters around the research institutions. We have a 
Coastal Energy Research Consortium at Old Dominion University 
with a lot of private sector involvement, including many 
contractors that work on the military installations in Hampton 
Roads. We have similar energy research going on, primarily on 
the coal side, clean coal down at Virginia Tech.
    So we do see these technology jobs grow in this area. I 
will also say this, and this is some good news. The traditional 
blue collar industries are not our opponents in this in 
Virginia. They have some questions. They have some challenges. 
They participated in a year-long effort to put together this 
energy plan we just released, but the overwhelming number of 
the recommendations we made were with the environmental 
community and the manufacturers association on board.
    Ag and forestry is the biggest industry in Virginia. Global 
climate change dramatically affects the largest industry in 
Virginia, ag and forestry. Tourism is one of the largest five 
industries in Virginia. If we do not do something about this, 
the traditional industries that have been the bulwark of the 
economy up to this point are seriously jeopardized.
    So both the old economy industries and these new green 
collar opportunities have folks aligned with the notion that 
this is an important task that we should tackle.
    Senator Warner. Good.
    Governor O'Malley.
    Governor O'Malley. We have not gotten to a point, Senator, 
where we are actually very good at categorizing these things, 
but we see them developing and happening around us. I think 
they have been in proportion to the clarity of this clear 
market signal. For example, we adopted one of the larger solar 
requirements in our portfolio and BP Solar in Frederick around 
that same time announced that they were going to double the 
size of their plant and their employment out there in 
Frederick.
    It is actually very exciting when you think about the new 
jobs that can be created, and just how much we have to do to 
align our workforce development, the sort of career technology 
training that we should be doing along with algebra two in our 
high schools and creating those pathways in our community 
colleges. Community colleges are probably going to beat 
everybody to the punch on this because they are more nimble and 
get out in front of these things.
    We have a brave new world in front of us and look forward 
to aligning those, you know, capturing the opportunities that 
will come along with the some of the discomfort and additional 
cost.
    Senator Warner. Good.
    Perhaps the Chair could ask our staff to provide these two 
distinguished witnesses with a little synopsis of the testimony 
that we had yesterday, and some copies of it, because I think 
it would be a great help.
    Senator Boxer. Will do.
    Senator Warner. Both of these gentleman are quite busy in 
their respective full-time jobs, so I think I will yield the 
floor and let them return to their respective States, unless 
you want to talk a little bit about the football standing 
between Maryland and UVA.
    [Laughter.]
    Senator Warner. How is that going, Governor Kaine?
    Governor Kaine. We will see.
    Governor O'Malley. We will get to the oyster wars.
    [Laughter.]
    Senator Boxer. Governors, I thank you so much. I just want 
to particularly thank Senator Warner for his graciousness. I 
want to just say that the Governors we are hearing from, 
Senator Warner and other Senators, are from both parties. 
Today, we happen to have two Democrats, but I have heard from, 
of course, Governor Schwarzenegger, who has provided terrific 
leadership on this, and also Governor Crist of Florida, who is 
continually writing to us. And there are other Governors from 
both parties. I don't want to start naming all of them.
    But I think it just shows that the States are ahead of us 
here. We have a lot of catching up to do, and I think the two 
of you have made a very powerful case and tied it to the Bay, 
which is so important because we can see it, feel it, and touch 
it. And so we thank you very, very much. Any ideas you have 
will be welcomed in the future. Thank you.
    Governor Kaine. Thanks, Madam Chair.
    Senator Boxer. And now we would invite up our third and 
final panel, while the Governors are leaving.
    William Baker is President of the Chesapeake Bay 
Foundation; Dr. Christopher Pyke, Member, Chesapeake Bay 
Program's Scientific and Technical Advisory Committee, and 
Fellow, Virginia Institute of Marine Science's Center of 
Coastal Resources Management; Dr. Donald F. Boesch, President, 
University of Maryland Center for Environmental Science; Dennis 
Avery, Senior Fellow, Hudson Institute, Director, Center for 
Global Food Issues; Dr. David W. Schnare, Esquire, Senior 
Fellow for Energy and the Environment, Thomas Jefferson 
Institute for Public Policy; and Pastor Richard Edmund, United 
Methodist Churches of Smith Island.
    Gentlemen, we welcome you. We are very honored to have all 
of you here. We will go from Mr. Baker all the way this way, 
and we will try to keep it five minutes. I know we have a lot 
of questions.
    Mr. Baker, welcome, the Chesapeake Bay Foundation. We 
welcome you.

   STATEMENT OF WILLIAM C. BAKER, PRESIDENT, CHESAPEAKE BAY 
                           FOUNDATION

    Mr. Baker. Senator Boxer, members of the Committee, Senator 
Mikulski, thank you for your leadership over these many years. 
My name is Will Baker. I am President of the Chesapeake Bay 
Foundation. On behalf of our 194,000 members, we thank you for 
the opportunity to testify.
    Senator Warner, special thanks to you for your years of 
support for programs to help Chesapeake Bay and especially for 
your generous support of that 30-year-anniversary tour with 
Senator Matthias--our great mutual friend and a founder of the 
Chesapeake Bay Foundation. I truly appreciate all that you have 
done over these many years.
    Many thanks as well to Senator Mikulski and Senator Cardin, 
Senator Webb, who was here previously, and Congressman 
Gilchrest, and our two esteemed Governors, Governor Kaine and 
Governor O'Malley. We are so lucky to have you fighting for, as 
we heard, not against each other, fighting for the Chesapeake 
Bay.
    Sadly, the Chesapeake Bay is in deep trouble. By any 
measure, it is only functioning at about 30 percent of its 
historic potential. Eighty percent of the Bay and its tidal 
tributaries are on EPA's dirty waters list. Think of it. A 
national treasure so rich in history and so valuable to our 
regional economy in such trouble.
    Pollution is at the root of the problems. But now, global 
climate change is making matters worse. As the waters warm, 
they hold less dissolved oxygen, dangerously less dissolved 
oxygen. These waters are called ``dead zones'' and they plague 
the Bay. While the phenomenon is happening worldwide, it is 
worse in the shallow, slow-flushing coastal areas like the 
Chesapeake. Sadly, these waters are some of the most productive 
on earth. We are damaging the very nurseries that produce the 
fish and shellfish that we value so highly, like the Chesapeake 
Bay blue crab, to name just one.
    Warmer water itself adversely affects the fish and 
shellfish. Striped bass, for instance, cannot tolerate water 
that is 76 degrees or warmer, so as surface waters warm, they 
dive deeper to try and find cooler waters, only to be blocked 
by the deep water dissolved oxygen-starved dead zones. They are 
being squeezed from the top and the bottom and stressed, and 
the result is greater susceptibility to disease.
    Another real threat is to eelgrass. I know this is 
especially important to Senator Warner because it is the 
predominant Virginia species of underwater grasses. At 80 
degrees, it simply dies, and we are seeing 80 degrees in the 
southern Bay all too often. No underwater grasses, no crabs, no 
fish, no shellfish.
    Unfortunately, some Bay species appear to benefit from 
warmer water. I say ``unfortunately'' because those species are 
the nuisance algae, some of which are toxic. One especially 
noxious species of algae was plaguing the Norfolk and Hampton 
Roads area for much of the summer. One last impact: sea level 
rise combined with an increase in storm intensity will mean 
more floods, more erosion, more polluted runoff, more damaged 
wetlands. None of this will be good for water quality or human 
health or recreation.
    There is some good news, however, and this time it really 
is good news. A primary strategy to reduce the nitrogen that is 
so polluting the Chesapeake Bay is to help farmers install 
conservation practices on their land. The reason I bring it up 
at this hearing is because these practices, if implemented, 
will sequester a minimum of 5 million metric tons of carbon, 
the equivalent of taking over 750,000 Hummers, each driving 
12,000 miles a year, off the road. Exceptional, exceptional 
result.
    So here is the win-win-win: help farmers stay on the land; 
reduce nitrogen and carbon; increase dissolved oxygen, a 
tremendous benefit for the environment.
    In closing, let me thank you and urge support for a cap and 
trade bill such as that which Senators Warner and Lieberman are 
developing. And let me urge support for a specific provision of 
that bill, which I understand will be in the legislation, that 
which will help provide funding for the great waters of the 
United States of which the Chesapeake Bay is certainly one. A 
national treasure, the birthplace of our great Nation, will 
thank you, and I thank you.
    [The prepared statement of Mr. Baker follows:]
  Statement of William C. Baker, President, Chesapeake Bay Foundation
    Chairwoman Boxer, Senator Inhofe, Senator Warner, Senator Cardin 
and other distinguished members of the Environmental and Public Works 
Committee, I am William C. Baker, President of the Chesapeake Bay 
Foundation. Thank you for inviting me, on behalf of CBF's board, staff, 
and 190,000 members, to participate in today's hearing.
    I want to particularly acknowledge Senator John Warner for the work 
that he has done to improve the health of the Chesapeake Bay during the 
nearly thirty years that he has represented the people of the 
Commonwealth of Virginia. Even though the Bay still has many 
challenges, it is much better off than it would have been without 
Senator Warner's strong interest and effective assistance during all 
those years. Although he has announced his retirement at the end of 
this Congress, this hearing and the development of the Lieberman/Warner 
legislation are indications that he's a long way from being done. 
Senator Warner, thank you.
    Moreover, although none of them is retiring--in any sense of the 
word--I also want to acknowledge the tremendous work done that Senator 
Mikulski, Senator Cardin and Congressman Gilchrest are doing here in 
Congress on behalf of the Bay. All three are doing everything they can 
to restore the health of the Bay, and I know they will continue to do 
so for many years to come.
    For more than 40 years, the Chesapeake Bay Foundation has been 
working to protect and restore the Chesapeake Bay. The Chesapeake Bay 
is America's largest estuary, and its 64,000 square mile watershed--
from Cooperstown, New York to Cape Henry, Virginia and westward to the 
Allegheny Mountains--is a large part of the Mid-Atlantic states. More 
than 17 million people live in the Chesapeake Bay watershed, a number 
that is increasing by roughly 150,000 each year.
    If you follow the Chesapeake Bay Foundation's annual State of the 
Bay report, you know that the lack of progress being made to improve 
water quality and protect the living resources of the Chesapeake Bay 
continues to cause very serious concern. The numeric score that our 
scientists calculated last year to represent the overall health of the 
Chesapeake Bay--29 on a scale of 100--is only one point higher than it 
was in 1999. This means that the Bay is ecologically functioning at 
between one-fourth and one-third of its historic capacity, and is not 
improving nearly as fast as we would like. The most systemic problem 
continues to be an overload of nitrogen and phosphorus pollution 
creating a lack of dissolved oxygen in many parts of the Bay and its 
tributaries. Every summer, the mainstem of the Bay and several of its 
tributaries are plagued by dead zones, where not enough dissolved 
oxygen exists to sustain many forms of aquatic life. The volume of 
water affected by these dead zones varies by year, but on average about 
80% of the Bay and its tidal rivers have insufficient levels of oxygen.
    The fact is that today's Chesapeake Bay ecological web is a pale 
reflection of what it was not so very long ago. Chesapeake Bay oysters, 
the great natural filter of the Bay's water, are currently less than 4% 
of their historic levels. The Bay's flagship species--the blue crab--is 
in such jeopardy that entire watermen communities are disappearing, and 
the great crab processing companies now survive on foreign imports. The 
underwater grasses so essential to life in the Bay are subject to 
massive die-offs related to increased water temperature, and the Bay's 
wetlands, critical to thousands of species in its web of life, are 
being destroyed yard by inexorable yard.
    We have become complacent about the constant, slow deterioration of 
one of the world's great natural resources. The degree of stress on the 
system from pollution flowing out of our cities and farms is enormous, 
and the system certainly does not need more stress. Yet additional 
stress is exactly what the Chesapeake Bay ecosystem is already getting 
from rising water temperatures and sea level rise. When CBF embarked on 
its mission to ``Save the Bay'' four decades ago, we had no idea that 
carbon dioxide and other greenhouse gases would be a huge threat to the 
people and other living resources that depend on the Bay for their 
existence. We understand now, however, that fossil fuels burning in 
Indianapolis or in India, as well as a host of other greenhouse gas 
producing activities, will negatively affect the people and creatures 
of the Chesapeake Bay just as toxics and other well-known pollutants 
do. The policy choices you and your counterparts in other nations make 
will determine how severe those negative effects will be and how long 
they may last.
    I will just touch briefly on what scientists believe will be the 
effects on the Chesapeake Bay unless action is taken to dramatically 
reduce emissions and sequester additional carbon. I know that my 
colleagues on this panel from the scientific community will fill in the 
details.
                             warmer waters
    Ocean temperatures are rising, and the water temperatures in the 
Chesapeake Bay are as well. Warmer water has less capacity to hold 
dissolved oxygen, and dissolved oxygen is critical for most life in the 
Bay, its rivers, and its streams. Thus, higher temperatures may 
exacerbate the Bay's dead zones, potentially expanding both the size 
and the duration of oxygen-deprived areas in the Bay.
    In one of nature's characteristic cycles, oxygen-deprived dead 
zones in the Chesapeake Bay and its tributaries can actually contribute 
to additional greenhouse gas generation. Globally, estuaries emit 
approximately one third of the world's oceans' net emissions of nitrous 
oxide, a very potent greenhouse gas. In the few places where it has 
been studied, nitrogen pollutant loads to estuaries have been shown to 
contribute to increased nitrous oxide emissions. Similarly, estuarine 
production of methane, another greenhouse gas, also increases under 
low-oxygen conditions due to bacterial activity, so the Bay, in its 
overloaded and degraded state, is actually contributing to climate 
change.
    Changes in water temperature can also affect the distribution and 
health of aquatic species in the Chesapeake. For instance, adult 
striped bass, also known as rockfish, try to avoid water warmer than 
about 76 degrees Fahrenheit by finding refuge in the cooler 
temperatures of deeper water. During the summer, however, rockfish face 
what scientists call ``temperature-dissolved oxygen squeeze,'' when 
dissolved oxygen concentrations in these waters drop past the point 
where adult rockfish can survive. With predictions of higher water 
temperatures and expanded dead zones, rockfish will be increasingly 
squeezed, forced to live in uncomfortably warm water in order to 
``breathe.'' Such stress can affect the health of fish by changing 
their feeding habits or making them more susceptible to disease.
    Scientists still have much to learn about the effects of increased 
carbon dioxide and warmer water temperatures on the various types of 
algae found in the Bay, but it seems clear that some species, like the 
harmful algae Cochlodinium that plagued the Hampton Roads/Norfolk area 
last month, may prosper under the various climate change scenarios.
                            storm intensity
    Although climate change models are as yet inconclusive about 
whether more precipitation will fall in the Chesapeake Bay watershed, 
or exactly what seasonal variations in precipitation may look like, 
most models agree that storms will become more intense. Storm intensity 
has an important impact on the Bay region in terms of property damage 
as well as on Bay's ecological health. Increased scouring and runoff 
from more intense rain events, regardless of season, will carry 
significantly higher loads of nitrogen, phosphorus, and sediment to 
tributaries, and thus to the Bay. Since it is this trio of pollutants 
that is primarily causing the continued decline in the Bay's water 
quality, additional heavy loads of them during more intense storms in 
the Mid-Atlantic states can be expected to appreciably compound the 
Bay's water quality challenges.
                      sea level rise and flooding
    With more than 11,000 miles of coastline, much of the Chesapeake 
Bay area, including some large population centers, lies very close to 
water level. Worldwide, the Intergovernmental Panel on Climate Change 
predicts that sea level will rise between 8 inches and 2 feet by the 
end of this century. Many scientists consider those estimates to be 
conservative, evidence is mounting that ice caps and glaciers are 
melting at accelerated rates. If the trend continues, apparent sea 
level rise could be as high as several feet in the region by the end of 
the century.
    Although sea level rise will affect many parts of the world, the 
Bay region may suffer even more. Why? Because, even as waters rise, 
much of the area is actually sinking due to geological processes that 
began during the last ice age. This combination of processes has 
resulted in approximately one foot of net sea level rise in the 
Chesapeake Bay over the past 100 years--a rate nearly twice that of the 
global historic average. As a result we are losing Tangier Island, 
Smith Island, and many other low-lying lands around the Bay. Thousands 
of acres of environmentally-critical tidal wetlands are now unable to 
trap sediments fast enough to keep pace with rising water levels.
    In the future, the combination of several feet of global sea level 
rise, flat topography, and subsiding land mass could make the people 
who live here in the Mid-Atlantic region particularly vulnerable. 
Demographic modeling correlated to projected sea level rise suggests 
that hundreds of thousands of people in low-lying coastal or river 
valley areas, including in several cities, could fall victim to serious 
floods, and these storms are likely to cause the most damage to 
socially vulnerable populations within the region. For example, a 2005 
report by the Center for Integrated Regional Assessment defines areas 
within Hampton Roads that have high ``numbers of children and elderly, 
and with a high number of mobile homes'' as vulnerable. By a wide 
margin, these at-risk communities are the most likely to face severe 
flood and storm damage. Additionally, these storms--which are also 
predicted to increase in intensity--will not only increase demands on 
emergency services and rescue facilities in these areas, but literally 
flood those facilities as well. Essentially, those with the fewest 
resources to recover from a catastrophic storm will be among those 
hardest hit.
    Clearly, the enormous challenge of reducing the effects of excess 
carbon dioxide and other greenhouse gas emissions requires a 
multiplicity of actions at every level of society to reverse our 
current destructive course.
    One important way to improve water quality in the Bay and help to 
reduce the effect of greenhouse gas emissions is to maximize the use of 
common agricultural conservation practices to prevent nitrogen and 
phosphorus from running to the Bay while at the same time sequestering 
carbon. The Chesapeake Bay watershed states have already defined 
agricultural conservation as a key tool to achieve the pollution 
reductions necessary to remove the Chesapeake Bay and its tributaries 
from the Clean Water Act's 303(d) list. As part of the Chesapeake 2000 
Agreement--a pledge to cut the amount of nitrogen, phosphorus, and 
sediment pollution discharged into the Bay and its rivers--
Pennsylvania, Maryland, Virginia, Delaware, West Virginia, New York and 
the District of Columbia have each developed river-specific ``tributary 
strategies'' to achieve targeted pollution reduction goals. Region-wide 
implementation of these plans' agricultural components would reduce the 
excess nitrogen entering the Bay by nearly 65 million pounds annually--
approximately 60 percent of the reduction needed to restore the Bay and 
its tributaries.
    A recent Chesapeake Bay Foundation report entitled ``Climate Change 
and the Chesapeake Bay: Challenges, Impacts, and the Multiple Benefits 
of Agricultural Conservation Work'', drawing on a study conducted at 
the Yale School of Forestry and Environmental Studies, made the case 
that more widespread use of common agricultural practices such as 
planting winter cover crops, establishing riparian buffers, and 
practicing rotational grazing and no-till farming can help to sequester 
carbon while at the same time moderating the effects of adding 
greenhouse gases to the atmosphere. The Yale study estimated that 
approximately 4.8 million metric tons of carbon dioxide would be 
sequestered annually--the equivalent of mitigating the carbon dioxide 
emissions from residential electricity use across the state of 
Delaware. On a state-by-state basis, the greatest carbon sequestration 
benefits would be accrued in Virginia--approximately 2.3 of the 4.8 
million metric tons. This large share is due to the prevalence of 
forest buffers and restoration programs in the Commonwealth's tributary 
strategies. In Pennsylvania and Maryland, carbon benefits would come 
from a broader combination of conservation practices.
    I am aware that farm bill reauthorization is not within the 
Environment and Public Works Committee's jurisdiction. However, within 
the next few weeks, each of you will have an opportunity to influence 
the language of the farm bill on the Senate floor, providing you with a 
powerful opportunity to enhance the mitigation of greenhouse gas 
emissions as you work toward more comprehensive solutions. Providing 
additional technical and financial assistance to farmers to increase 
the use of common conservation practices such as cover crops and 
buffers is a win-win strategy for the Chesapeake Bay, as well as for 
the global atmosphere. In fact, enhancing carbon sequestration on 
America's agricultural lands should be given more prominence as an 
objective of federal farm policy nationwide.
    As I near the end of my statement, I want to focus particular 
attention on one element of the cap-and-trade bill that Senators 
Lieberman and Warner are developing. According to discussion papers I 
have seen, the Lieberman/Warner bill will allocate 24% of the proposed 
National Emission Allowance Account to the Climate Change Credit 
Corporation, rising to 52% over time. These allocations will be 
auctioned and the proceeds will be used for various purposes, including 
10% to help mitigate the impacts of climate change on terrestrial 
wildlife and aquatic wildlife in the nation's great waters.
    Certainly there are many potentially important uses for the funds 
produced by the climate change credit auction, but I want to encourage 
you to make sure that a significant share of the proceeds goes to 
projects that will help us to protect and restore the great multitude 
of plants and animals that we are destroying through our 
thoughtlessness--or worse. We are causing great harm to the natural 
world through the actions that we take in the service of our prosperous 
lifestyles. It is only appropriate that we do our best to compensate. 
And, as I have outlined today, the Chesapeake Bay ecosystem, already on 
the brink, will be harmed even more by global climate change. It is 
critical that some of the proceeds from the credit auction go to the 
nation's great waters, including the Chesapeake Bay, to address the 
impacts we are discussing here today.
    In conclusion, I want to simply reiterate that the Chesapeake Bay, 
an ecosystem in serious trouble, will be subject to very significant 
additional stresses in the coming years from the effects of global 
climate change. There is much we do not yet know, and a great deal of 
what will happen to the Chesapeake Bay depends on the actions that you 
and other policymakers choose to take, but the outlines are very clear. 
I urge you to work hard over the next few weeks for a 2007 farm bill 
authorization that allows farmers more ability to address the Bay's 
nitrogen and phosphorus problem while at the same time sequestering 
carbon. As has already been recognized by the House of Representatives, 
the Chesapeake Bay watershed is a perfect national pilot area to 
simultaneously address water quality and carbon sequestration. Above 
all, I urge to you quickly consider and pass an aggressive cap-and-
trade bill that will begin to force dramatic emissions reductions and 
provide a source of funds to help address the changes that we are 
already seeing in the Chesapeake Bay ecosystem.
    Thank you once more for the opportunity to be here today. I am 
happy to answer any questions that you might have.
                                 ______
                                 
  Responses by William C. Baker to Additional Questions from Senator 
                                 Cardin
    Question 1. In the report on Climate change that CBF released 
earlier this year, you make the point that the actions we take to 
reduce the emissions will also have a positive, immediate impact on the 
Chesapeake Bay. Would you please take a moment to explain to the 
Committee the relationship between nitrogen and oxide pollution, global 
warming and current Bay restoration efforts?
    Response. As you note, one of the purposes of our report on climate 
change was to highlight that many of the actions needed to reduce 
nitrogen pollution and restore water quality in the Chesapeake Bay will 
also lead to reductions in greenhouse gas emissions (and vice versa). 1 
will give three examples of these dual benefits.
    First, watershed-wide about one-third of the nitrogen pollution to 
the Chesapeake comes from the air, much of it in the from of nitrogen 
oxides (NOx), a group of compounds formed from the combustion of fossil 
fuels. Nitrous oxide--one of the ``family'' of nitrogen oxides--is a 
very potent greenhouse gas. In addition, as we know, the combustion of 
fossil fuels accounts for the majority of the carbon dioxide that is 
emitted in the U.S. Consequently, actions that reduce our combustion of 
fossil fuels (e.g. energy conservation and efficiency, renewable 
energy, fuel efficient cars) will have multiple benefits, including: 
(1) a reduction in nitrogen (NOx) pollution to the Bay, and (2) a 
reduction in the emissions of the greenhouse gases nitrous oxide and 
carbon dioxide, to the atmosphere.
    Second, a major source of nitrous oxide is agricultural fertilizer 
use One of the strategies to reduce nitrogen pollution to the Bay is 
the adoption of enhanced nutrient management practices by Chesapeake 
Bay farmers. This measure will result in less fertilizer use which, in 
turn, will lead to reduced emissions of nitrous oxide into the 
atmosphere and less runoff of nitrogen fertilizer into the Bay.
    Lastly, in its current degraded state, the Bay itself is a source 
of greenhouse gases. Under oxygen-deprived conditions, greenhouse gases 
such as nitrous oxide and methane are formed in the Bay sediments and 
eventually released into the atmosphere. If we reduce nitrogen 
pollution to the Bay and decrease the size of the Bay's dead zones, we 
will reduce the amount of these gases that are produced.

    Question 2. Sequestering carbon will have to he part of the 
solution to curbing greenhouse gas emissions. Can you please tell the 
Committee about some of the dual benefits we might see through 
conservation programs in the Farm Bill?
    Response. Implementation of agricultural conservation practices, 
while often overlooked in policy discussions about reducing greenhouse 
gases, promises to be doubly beneficial for climate change and water 
quality In the Bay region and beyond.
    Carbon sequestration refers to the net removal of carbon dioxide 
from the atmosphere into long-term or permanent terrestrial `pools': 
living (trees or grasses; roots and microbes in the soil), stored in 
products with long lives such as lumber, or contained as soil carbon. 
An enormous amount of carbon is stored in the soil and detritus on the 
soil--the remnants of plants and trees. Agricultural practices can help 
increase these carbon pools. For example, planting streamside buffers 
results in carbon sequestered in trees or grasses as well as increasing 
the amount of carbon in soil. Traditional fanning techniques, such as 
plowing, reduce soil carbon levels by allowing carbon dioxide to be 
released into the air, but conservation tillage, where traditional 
plowing and hoeing are replaced with either no, or shallow, tillage 
exposes less soil to the air, leading to the retention and increase of 
soil carbon. Furthermore, these practices can be implemented now, while 
long-term strategies to mitigate greenhouse gases are developed and 
implemented.
    The chart below highlights the greenhouse gas benefits of some 
agricultural practices that are supported by Farm Bill conservation 
programs.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 ______
                                 
  Responses by William C. Baker to Additional Questions from Senator 
                                 Inhofe
    Question. As you know, while progress has been made restoring the 
Bay, the signatories of the 2000 Agreement are no where near completing 
most of the goals they outlined for the Bay. Were the goals and the 
timeframe realistic? In your view, what is the biggest obstacle you are 
running into?
    Response. The Chesapeake 2000 Agreement (signed in June of 2000 by 
the States of Virginia, Maryland, and Pennsylvania, the federal 
government, the District of Columbia, and the Chesapeake Bay 
Commission) set numerous goals and objectives to be achieved by the 
year 2010. The overarching goal is to achieve clean water. This is 
defined as removing the Bay and tributary rivers from the Federal Clean 
Water Act's Impaired Waters List. Ironically, this simply represents 
compliance with the Federal Clean Water Act of 1972.
    While difficult to believe, very little progress has been made 
toward achieving this goal in spite of a clear knowledge of both the 
strategy and tactics to meet it. Scientists are consistent in their 
belief that the Bay states must achieve a 110 million pound annual 
reduction of nitrogen flowing into the system against a baseline of 
year 2000 loadings to meet the goal of dean water and a balanced 
system, resulting in a delisting from the Impaired Waters List.
    This goal was and is absolutely achievable, but not without 
following sound science and putting into place those practices which 
are proven to be effective. Bottom line, the science, the technology, 
and even the public support for carrying out this work are available. 
What has been missing is the political will to get the job done as 
promised in the Chesapeake 2000 Agreement.

    Senator Boxer. Thank you, sir. It was most eloquent.
    Senator Warner. Madam Chairman?
    Senator Boxer. Yes, please?
    Senator Warner. I can assure our colleague that that 
provision is in the bill now, but why don't you look at it. If 
it needs a little strengthening, let me know.
    Mr. Baker. Thank you, sir.
    Senator Boxer. That is a very good offer I would not turn 
down.
    [Laughter.]
    Senator Boxer. Dr. Christopher Pyke, Member, Chesapeake Bay 
Program's Scientific and Technical Advisory Committee; Fellow, 
Virginia Institute of Marine Sciences's Center of Coastal 
Resources Management. Welcome.

   STATEMENT OF CHRISTOPHER R. PYKE, MEMBER, CHESAPEAKE BAY 
PROGRAM'S SCIENTIFIC AND TECHNICAL ADVISORY COMMITTEE; FELLOW, 
   VIRGINIA INSTITUTE OF MARINE SCIENCE'S CENTER OF COASTAL 
                      RESOURCES MANAGEMENT

    Mr. Pyke. Thank you, Chairman Boxer, and members of the 
Committee, thank you for your invitation to discuss the impacts 
of climate change on the Chesapeake Bay.
    In December 2006, the Chesapeake Bay Program asked the 
staff, the Scientific and Technical Advisory Committee, to 
review research activities, identify critical knowledge gaps, 
and make recommendations for next steps in addressing climate 
change. I am leading STAC's response to this, in collaboration 
with Dr. Ray Najjar from Penn State University and a team of 
coauthors.
    We conclude that climate change is more than a future 
threat to the Chesapeake Bay. The Bay Program partners are 
making long-term, capital-intensive decisions that are expected 
to yield results for decades into the future. Changes in sea 
level, temperature, precipitation and other aspects of climate 
are likely to alter the cost and efficacy of these activities.
    Consequently, climate change is an immediate concern for 
efforts to protect and restore water quality and living 
resources. Researchers have used historic observations to 
identify a variety of physical changes in the Bay, including 
trends in sea level, temperature and precipitation. Modeling 
studies suggest these trends are likely to continue and 
potentially accelerate.
    While projections of sea level and temperature are 
relatively well constrained, the greatest uncertainty is 
associated with precipitation. It is important to develop a 
better understanding of potential changes in regional 
precipitation, particularly the implications of potentially 
unprecedented combinations of temperature and precipitation.
    Environmental monitoring is an essential component of the 
Bay Program and climate change adds to the already critical 
need for monitoring and creates new challenges. Bay Program 
monitoring systems should be designed to detect trends and 
allow managers to differentiate between changes driven by 
climate and those associated with other sources of degradation 
or restoration action.
    Climate change also creates new challenges for Chesapeake 
Bay restoration strategies, including two of the most 
important, including bay-wide water quality regulation and 
activities to restore living resources. Calculations used to 
develop water quality regulation are based on carefully 
selected historical meteorological observations. However, 
observations and modeling results make it increasingly clear 
that historic time series are unlikely to be representative of 
future conditions. Consequently, it is essential to develop and 
implement new methods for establishing water quality 
regulations that explicitly incorporate climate change.
    Similar considerations apply to efforts to protect and 
restore living resources. The Bay Program partners should 
assess the vulnerability of living resource restoration efforts 
such as eelgrass and SAV to climate change and require projects 
to take steps to promote success under changing conditions.
    The serious implications of climate change for the Bay 
Program lead directly to consideration of potential measures to 
adapt to changing conditions. This is an emerging area of 
research that has received relatively little attention from the 
scientific community. Effective adaptation requires linking 
resource management and monitoring to facilitate changes in 
practice over time. The Bay Program partners should take action 
to adapt their management practices to rising sea levels, 
increasing temperatures, and changing precipitation patterns.
    Stepping back, we can identify two general actions that can 
help the Bay Program partners and other stakeholders address 
these challenges. First, recognize that climate change is a 
component of a wide range of decisions associated with water 
quality regulation, living resource restoration, and other 
issues. The Bay Program partners can and should immediately 
require all major resource management decisions to include an 
assessment with three components. First, identify climatic 
assumptions. Second, evaluate the potential for climate change 
to undermine or alter these assumptions. And explicitly 
consider alternative management options that are more likely to 
be resilient and adaptive.
    The second action is to take a leadership role in 
addressing climate change across the watershed. The Bay Program 
partners can and should develop a bay-wide climate action plan 
that complements State level climate action plans with a 
specific emphasis on impact and adaptation opportunities 
relevant to the protection and restoration of the Bay.
    In conclusion, it is important to recognize that climate 
change is an immediate concern for the Bay Program. 
Fortunately, there are practical steps the Bay Program partners 
and other stakeholders can take to understand and prepare for 
changing conditions.
    [The prepared statement of Mr. Pyke follows:]
  Statement of Christopher R. Pyke, Member, Scientific and Technical 
 Advisory Committee of the Chesapeake Bay Program; Fellow, Center for 
  Coastal Resources Management, Virginia Institute of Marine Science; 
       Director of Climate Change Services, CTG Energetics, Inc.
                              introduction
    Chairman Boxer, ranking member Inhofe and members of the Committee: 
thank you for your invitation to address the Committee on the important 
issue of the impacts of global warming on the Chesapeake Bay. I am 
Christopher R. Pyke, and I currently serve as a member of the 
Scientific and Technical Advisory Committee for the U.S. Environmental 
Protection Agency's (EPA) Chesapeake Bay Program (Bay Program). I am 
also a fellow with the Virginia Institute of Marine Science's Center 
for Coastal Resources Management, and the Director of Climate Change 
Services for CTG Energetics, Inc., a green building and sustainable 
design consultancy. Previously, I served as a physical scientist with 
the U.S. EPA's Global Change Research Program, and as a co-chair of the 
U.S. Climate Change Science Program's Human Contributions and Responses 
Interagency Working Group. I maintain a long-term interest in the 
implications of climate change for water quality and aquatic 
ecosystems, and I am actively engaged in a wide range of issues linking 
land use decisions with climate mitigation, impacts, and adaptation. A 
brief biography summarizing my professional experience is an attachment 
to this testimony.
    In response to Chairman Boxer's letter of invitation, my testimony 
provides my views on the impact of global warming on the Chesapeake Bay 
with particular emphasis on findings from a report I am coordinating on 
behalf of the Bay Program's Scientific and Technical Advisory Committee 
(STAC). Although my remarks draw extensively on findings in this 
forthcoming report, my comments reflect only my own professional 
opinion and they are not necessarily those of the STAC or any other 
organization.
                                summary
    Climate change is more than a future threat to the Chesapeake Bay. 
The Bay Program partners are making long-term, capital-intensive 
decisions that are expected to yield results for decades into the 
future. Changes in sea level, temperature, precipitation, and other 
aspects of climate are likely to alter the cost and efficacy of many of 
these activities. In this context, climate change is an immediate 
concern for efforts to protect and restore water quality and living 
resources. The Bay Program partners can and should take immediate 
action to assess the implications of changing climatic conditions for 
their activities and ensure that restoration strategies will be 
effective under future conditions.
    This outcome can be promoted by immediate action to:
    1. Identify and address climatic assumptions associated with 
important management and policy decisions (e.g., water quality 
regulation).
    2. Evaluate the sensitivity of water quality protection, living 
resource restoration, and monitoring strategies to climate change and 
promote the development and implementation of practices that are 
resilient and adaptive to changing conditions.
    3. Develop a comprehensive, Bay-wide Climate Change Action Plan 
that will serve as a roadmap to prioritize research and management 
activities and guide the implementation of adaptive responses.
               introduction to stac climate change study
    The Chesapeake Bay Program's Scientific and Technical Advisory 
Committee (STAC) provides guidance to the Bay Program on measures to 
restore and protect the Chesapeake Bay. STAC accomplishes its mission 
through technical reports and papers, discussion groups, reviews of Bay 
Program activities, technical conferences and workshops, and service by 
STAC members on Bay Program subcommittees and workgroups. STAC reports 
annually to the Bay Program Executive Council and quarterly to the 
Implementation Committee. STAC is composed of 38 members drawn from 
federal and state agencies, universities, research institutions, and 
private industry.
    In December 2006, the Chesapeake Bay Program requested that the 
STAC evaluate current understanding about the implications of climate 
change for the Chesapeake Bay, specifically the restoration of water 
quality and living resources. STAC was asked to review recent and on-
going research activities, identify critical knowledge gaps, and make 
recommendations for next steps in addressing climate change.
    STAC's response to this request is being led by Ray Najjar from 
Pennsylvania State University and myself with assistance from a team of 
co-authors including Mary Beth Adams, Denise Breitburg, Carl Hershner, 
Robert Howarth, Michael Kemp, Margaret Mulholland, David Secor, Kevin 
Sellner, and Robert Wood.
    The forthcoming report will include three sections:
    1. A review of scientific research and literature
    2. An assessment of gaps in understanding and research priorities
    3. Recommendations for next steps
    A draft version of the report is currently under internal review by 
the STAC, and it is scheduled for public release at the end of October 
2007. The following comments focus on the second two sections of the 
report. My testimony draws primarily on this study; however, any 
specific conclusions or interpretations reflect only my professional 
opinions.
             gaps in understanding and research priorities
    The STAC review identified four research themes in recent climate 
change-related research associated with the Chesapeake Bay:
    1. Physical drivers of change
    2. Environmental monitoring
    3. Impacts on restoration strategies
    4. Adaptive responses to climate change
Physical drivers of change
    Climate variability and climate change create challenges for the 
restoration of water quality and living resources in the Chesapeake 
Bay. Understanding of spatial and temporal dynamics associated with 
physical drivers is essential to effective responses to these 
challenges. Researchers have identified a variety of physical changes 
through analysis of historic observations, including trends in sea 
level, temperature, and precipitation patterns. Modeling studies 
suggest that historic trends are likely to continue and potentially 
accelerate across a wide range of socio-economic scenarios. Projections 
for sea level and temperature are relatively well constrained. While 
the greatest uncertainty is associated with one of the most important 
variables required to understand Chesapeake Bay ecosystems: 
precipitation. Spatial and temporal changes in precipitation patterns 
can have far-reaching implications for the Bay ecosystems through 
impacts on watershed hydrology and biogeochemical processes, 
particularly under warmer temperature regimes. It is essential to 
develop a better understanding of potential changes in regional 
precipitation and the implications of potentially unprecedented 
combinations of temperature and precipitation.
Environmental monitoring
    Environmental monitoring is an essential component of the 
Chesapeake Bay Program. Computer models and simulations are used to 
develop environmental policy and regulation. However, the ultimate 
success (or failure) of these measures is based on real world 
conditions. Climate change adds to the already critical need for 
monitoring and creates new challenges. Chesapeake Bay monitoring 
systems must be designed to detect long-term trends and allow managers 
to differentiate changes driven by climate from those associated with 
other sources of degradation (e.g., land use) or restoration action. 
This information is necessary to evaluate the efficacy of management 
actions and accurately attribute the causes of improvement or 
degradation in ecosystem health and water quality. It is essential that 
the Bay Program evaluate the consequences of climate change for its 
existing monitoring systems and ensure that sampling designs provide 
adequate statistical power to detect trends and differentiate sources 
of improvement or degradation.
Impacts on restoration strategies
    Understanding of physical drivers of change and consideration for 
the effectiveness of environmental monitoring help create the 
foundation of information needed to consider one of the most critical 
questions: What are the implications of climate change for the Bay 
Program's strategies to restore water quality and living resources?
    Three of the most important strategies include:
    <bullet> Bay-wide water quality regulation.
    <bullet> State tributary strategies designed to achieve the goals 
of the Chesapeake 2000 agreement.
    <bullet> Activities to protect and restore living resources, such 
as submerged aquatic vegetation and oysters.
    These strategies are central to the success of the Bay Program, and 
climate change is likely to jeopardize the validity of key assumptions 
used in current approaches to developing and implementing these 
strategies.
    For example, calculations used to estimate TMDLs are based on a 
carefully selected subset of historic meteorological observations. 
However, observations and modeling results make it increasingly clear 
that these historic time series are unlikely to be representative of 
future conditions. It is essential to develop methods for calculating 
TMDLs that explicitly incorporate information about changing climatic 
conditions.
    State partners have developed implementation plans called tributary 
strategies. These documents describe the combination of approaches 
needed to restore Bay water quality. The performance of individual 
management practices is central to the design of tributary strategies, 
and our understanding about performance is based on observations under 
historic climatic conditions. For example, the ability of stormwater 
detention ponds to capture sediment and remove nutrients varies as a 
function of precipitation volume and intensity. It is increasingly 
likely that detention pond designs based on historic precipitation 
requirements may not meet performance goals under future conditions. 
Many widely-used water quality Best Management Practices are likely to 
exhibit similar sensitivities. It is important for the Bay Program 
partners to assess the consequences of climate change for the 
effectiveness of management practices.
    Similar considerations also apply to efforts to address living 
resources. Restoration efforts rely on understanding of historic 
relationships between climatic conditions and ecological processes. 
However, changes in climate are likely to jeopardize these 
relationships. For example, planting of submerged aquatic vegetation 
(SAV) is a major emphasis of the Bay Program; however, SAV is known to 
be highly sensitive to peak summer temperatures and flow regimes. 
Climate change is likely to alter both of these variables and alter the 
likelihood of restoration success. Fortunately, it is possible to 
identify these climatic assumptions and take action to develop more 
sustainable restoration plans. For example, experience with coral reef 
ecosystems suggests that it is possible to identify resilient sites 
where local conditions offset regional climatic stresses and increase 
the likelihood of restoration success. This suggests that restoration 
activities in the Bay may benefit from efforts to identify resilient 
restoration locations at local and regional scales. The Bay Program 
partners should assess the vulnerability of living resource restoration 
efforts to climate change and require projects to take specific steps 
to increase the likelihood of success under changing conditions.
Adaptive responses
    The serious implications of climate change for the Bay Program lead 
directly to consideration of potential measures to adapt to changing 
conditions. This is an emerging area of research that has received 
relatively limited attention from the scientific community.
    It is possible to distinguish between resilient and adaptive 
responses to climate change impacts. Resilient responses help increase 
capacity of systems to respond to disturbance and accommodate changing 
conditions. Resilient responses strive to identify opportunities to 
make decisions more robust to a range of future conditions. Adaptive 
responses attempt to actively incorporate observations and model 
projections to anticipate and respond to changing conditions. The goal 
is to adjust management practices to increase the likelihood of success 
under future conditions. Unfortunately, adaptive approaches are often 
constrained by current practices locked by convention or regulation to 
historic conditions. For example, standard ``design storms'' are often 
used to develop stormwater management systems. Observations and 
modeling results clearly suggest that these design storms are unlikely 
to be representative of future conditions. Consequently, systems based 
on these specifications may fail under future conditions. Adaptation 
requires identifying these climatic assumptions and taking action to 
anticipate the consequences of changing conditions. This includes 
creating dynamic linkages between management and monitoring to provide 
feedback and facilitate changes in practice over time. The Bay Program 
partners can and should take action to increase the resilience of their 
activities to uncertain precipitation regimes and begin to adapt their 
management practices to rising temperatures and sea levels.
                               next steps
    Climate change is more than a future threat to the Chesapeake Bay. 
The Bay Program partners are making long-term, capital-intensive 
decisions expected to yield results for decades into the future. In 
this context, climate change is an immediate concern to the restoration 
of water quality and living resources. The Bay Program partners can and 
should take immediate action to assess the implications of changing 
climatic conditions for their activities and ensure that restoration 
strategies will be effective under future conditions.
Identifying climatic assumptions and sensitivities
    The Bay Program partners can and should take immediate action to 
address these issues through its existing authorities, 
responsibilities, and resources. The first, and perhaps most important, 
step is to explicitly recognize that climate change is a component of a 
wide-range of critical decisions associated with TMDLs, tributary 
strategies, living resource restoration, and many others. The Bay 
Program partners can and should immediately require all major resource 
management decisions to include an assessment that (1) identifies 
climatic assumptions, (2) evaluates the potential for climatic change 
to undermine or alter these assumptions, and (3) explicitly considers 
alternative management options that are more resilient and adaptive.
Climate Change Action Plan
    An assessment of climatic assumptions and sensitivities provides 
immediate opportunities for improvement to internal Bay Program 
decision making processes. This is necessary but not sufficient to 
address the scope of the problem. It is equally important for the Bay 
Program to take a leadership role in addressing climate change across 
the watershed. One mechanism for achieving this is the development of a 
broad-based, Bay-wide Climate Change Action Plan. This Plan would build 
on and complement state-level Climate Action Plans with a specific 
emphasis on impacts and adaptation opportunities relevant to the 
protection and restoration of the Chesapeake Bay. The preparation of 
the plan should begin with the foundation of information provided by 
the scientific community and quickly broaden to engage the full 
spectrum of Bay Program partners at Federal, state, and local levels. 
The plan should include a detailed roadmap for research and management 
action to help the Bay Program achieve its mission under changing 
climatic conditions. The Bay Program partners should take immediate 
action to promote and support the development of a Climate Change 
Action Plan.
Research coordination and leadership
    Improvements to internal decision making and regional coordination 
are essential components for the Bay Program. A third component 
involves enhancing the flow of scientific and technical information 
from the research community to decision makers and managers. Current 
understanding of the implications of climate change for the Chesapeake 
Bay is sufficient to raise alarm. For example, there are many reasons 
to suspect that water quality regulations are highly sensitive to 
assumptions about climatic conditions. However, the research community 
cannot yet provide definite recommendations for how to address these 
concerns.
    The current body of knowledge reflects a history where research 
efforts have generally been broad in scope and, with notable 
exceptions, lacking in depth and duration. This pattern results from 
several decades of sporadic funding opportunities, the lack of 
institutional commitments, and the absence of widely-recognized 
research priorities. For example, there is no single research group or 
institution dedicated to climate change research and applications in 
the Chesapeake Bay.
    This situation contrasts with a number of regions with strong, 
long-standing relationships between climate science, public policy, and 
ecosystem restoration. For example, the Climate Impacts Group (CIG) at 
the University of Washington is an award-winning interdisciplinary 
research group that works to understand natural climate variability and 
global change to increase the resilience of the Pacific Northwest to 
fluctuations in climate. The CIG has contributed demonstrably to a 
foundation of knowledge that supports some of the progressive public 
policy in the nation with regard to climate change (e.g., King County, 
Washington's 2007 Climate Plan). The Chesapeake Bay would benefit 
directly from a similar organization. The Bay Program partners should 
take the lead in establishing an entity that links climate science, 
policy, and management throughout the watershed as quickly as possible.
                                 ______
                                 
       Responses by Christopher R. Pyke to Additional Questions 
                          from Senator Cardin
    Question. What do you think the essential elements of a science 
program for the Chesapeake Bay relative to climate change should be?
    Response. As I outlined in my testimony, climate change is a cross-
cutting challenge to the mission of the EPA's Chesapeake Bay Program 
and the health of the Chesapeake Bay ecosystem. One of the key messages 
from my testimony is that climate change needs to be considered as part 
of many important management decisions. The critical issue is that 
climate change is not a new issue that ``stands apart'' from existing 
concerns. It is a new challenge applicable to many existing 
responsibilities. Consequently, I strongly believe that a science 
program for the Chesapeake Bay should be designed and implemented to 
provide support for decision makers and managers trying to understand 
and respond to changing climatic conditions. In other words, a science 
program for the Chesapeake Bay should be dedicated to the provision of 
effective decision support.
    This should be accomplished through a responsive, collaborative, 
solutions-oriented applied research program that is guided by the needs 
of stakeholders, particularly the EPA's Chesapeake Bay partnership. 
This science program would constitute a climate extension service for 
the Chesapeake Bay. The success of this kind of activity would be based 
on successful programs for issues such as soil conservation and 
wildlife management. In these cases. Federal agencies have a long and 
successful track record of implementing programs that provide direct 
benefits to key constituencies and positive return-on-invest for 
society as a whole. These programs are often highly decentralized, 
often embedding extension scientists within universities with a mandate 
to facilitate technology transfer. A similar approach could be devised 
for the Chesapeake Bay. Ideally, an extension service should strive to 
create a self-sustaining market for climate change services between 
private parties. In other words, decision makers would recognize the 
need to consider climate change in their decision making and hire firms 
to help with technical analyses. The government can help by providing 
the foundation of applied research and development needed to establish 
these markets and, when necessary, rules that protect society's 
interests by requiring consideration for climate change in decision 
making (see McGinty 1997 or Babbit 2001).
                               references
    Babbit, B. 2001. Evaluating climate change impacts in management 
planning. Secretarial Order No. 322, Department of the Interior, 
January 19, 2001.
    McGinty, K.A. 1997. Guidance regarding consideration of global 
climatic change in environmental documents prepared pursuant to the 
National Environmental Policy Act. Draft memorandum to Heads of Federal 
Agencies from the Chairman of the Council on Environmental Quality, 9 
pages.

    Senator Boxer. Thank you, sir.
    Dr. Boesch, is that the right way to say it? All right. Dr. 
Donald Boesch, President, University of Maryland Center for 
Environmental Science. We welcome you.

    STATEMENT OF DONALD F. BOESCH, PRESIDENT, UNIVERSITY OF 
           MARYLAND CENTER FOR ENVIRONMENTAL SCIENCE

    Mr. Boesch. Chairman Boxer and members of the Committee, I 
am very pleased to appear before you today to talk about what 
we know about the impacts of climate change and global warming, 
and what we expect to be happening in the Bay in the future.
    It is especially a rare honor for me today because I have 
the privilege of being here with not only my Congressman, but 
my two Senators and my Governor all at the same time. It is a 
rare, rare occurrence, as you might understand.
    Global climate change is not something in the Chesapeake 
Bay's future. It is here today. The Bay is warming. Evidence is 
growing that this is the case. We have two long-term records 
from the Virginia Institute of Marine Science down in Virginia, 
and our Chesapeake Biological Lab, that we have now put 
together. They consistently show about a 2 F increase in the 
average temperature of the Bay since about 1960. This follows 
and is consistent with the patterns we have been seeing in 
terms of air temperature over much of the Bay watershed, so 
this is consistent both in observation and argument.
    The projections that we can make in the future, of course, 
in terms of temperature in the Bay must be based upon the kinds 
of models that we use to project future climate, which predict 
air temperature changes. If we use those to understand what the 
impact on the Bay water may be, we could anticipate over this 
next century an additional 5 to 9 F increase in average 
temperature in the Bay.
    This comes, of course, all through the year with warmer 
summers, as well as warmer winters. As was pointed out, this 
has substantial effects on the organisms that live in the Bay, 
influencing things like eelgrass that Mr. Baker mentioned, a 
very important habitat in the Bay. This plant is near the 
southern end of its range, and is in serious jeopardy as a 
result of warming. But also the timing of things that occur in 
the Bay, the natural cycles in which the food supply for the 
young striped bass or crabs will be changed and thrown out of 
kilter, sometimes with unpredictable consequences.
    Of course, the other concern we have heard much about from 
our Governors is the issue of sea level rise. The Bay has much 
low-lying territory. It has 8,000 miles of shoreline, and we 
have very extensive areas on the Eastern Shore that are very 
susceptible. Senator Inhofe mentioned in the opening the fact 
that the sea level has been rising a long time in the 
Chesapeake Bay. In fact, that is the case. It rose very 
dramatically, of course, after the last glacial period of some 
300 feet, and flooded the Bay thereby creating the Bay that we 
now appreciate.
    But it has been relatively stable for about 6,000 years. 
Obviously, since the founding of Jamestown Europeans have been 
occupants for only a small part of that period. Indeed, that 
period of time has seen the development of civilization not 
only here, but in other parts of the world. So as we see these 
changes that take place, they will affect not only our natural 
resources, but also our historical resources, as was pointed 
out by Governor Kaine.
    Let's take what we know about the observed rates of sea 
level rise and the best estimates we have from the models that 
are used, for example, in the IPCC assessment. One must 
understand the fact that this region is slowly sinking about 
one-half foot per century, somewhat more in Hampton Roads, 
somewhat less in Washington. And then when we add to that the 
model projections, we could well see a 2- to 4-foot increase of 
sea level this century over much of the Chesapeake Bay region.
    Now, 2 to 4 feet, what does that mean? First of all, sea 
level rise will probably be at least twice what we have seen in 
the last century, which was about 1-foot relative to the land. 
And it could be as much as four times. While this is not the 
20-foot inundation that you see in some popular animations, but 
remember this. Sea level is not going to stabilize in the year 
2100. Sea level will not simply rise and then plateau. In fact, 
because of the lags in the world climate system, it will 
continue to rise in future centuries. So we have to then plan 
for a future in which we could see major portions of our 
historical Bay cities.
    As was pointed out by both Dr. Pyke and Mr. Baker, we are 
already dealing with major challenges in the Bay, and we now 
have to factor climate change into it. What we need to do, and 
I think you have heard Governor O'Malley and Governor Kaine now 
suggest, is to integrate what we are doing to restore the Bay 
with this new threat of climate change. We must find solutions 
to address climate change also to improve the way we are 
addressing the Bay's problems and vice versa.
    In addition, as Dr. Pyke indicated, we really need much 
more attention from Federal agencies that fund the science and 
the research that we do to help predict regional scale impacts. 
A recent study by the National Research Council emphasized that 
although we have done great as a Nation in leading the world in 
understanding the climate system on a global scale, we have not 
emphasized the regional scale. We now need this information to 
help us plan our future.
    So thanks very much for this opportunity.
    [The prepared statement of Mr. Boesch follows:]
 Statement of Donald F. Boesch, Professor and President, University of 
        Maryland Center for Environmental Science, Cambridge, MD
    Chairman Boxer and members of the Committee, I am Donald F. Boesch 
and am pleased to appear before you today to address what is known 
about the impacts of global warming on the Chesapeake Bay, what future 
effects are likely, and what can be done to address the consequences to 
this magnificent ecosystem, its living resources and the people who 
live in the Bay region. This is a special honor for me because 
Maryland's two senators and our Governor are all here today.
    By way of background, I am a marine ecologist who has conducted 
research along our Atlantic and Gulf coasts and in Australia and the 
East China Sea. Over 25 years of my career have been spent studying the 
Chesapeake Bay or directing scientists who do. Although not a climate 
scientist, I have been engaged in several assessments of the possible 
consequences of climate change on coastal environments and try to keep 
closely abreast of the emerging climate change literature. Most 
notably, I served as co-chair of the Coastal Areas and Marine Resources 
Sector Team for the U.S. National Assessment of Climate Variability and 
Change\1\ and as co-editor of the report Chesapeake Futures: Choices 
for the 21st Century.\2\ And, currently I am serving as chair of the 
Scientific and Technical Working Group of the Maryland Commission on 
Climate Change.
---------------------------------------------------------------------------
    \1\ Boesch, D.F., J.C. Field, and D. Scavia. 2000. The Potential 
Consequences of Climate Variability and Change on Coastal Areas and 
Marine Resources. NOAA Coastal Ocean Program Decision Analysis Series 
Number #21, National Oceanic and Atmospheric Administration, Silver 
Spring, MD.
    \2\ Boesch, D.F. and J. Greer. 2003. Chesapeake Futures: Choices 
for the 21st Century. Chesapeake Research Consortium, Edgewater, MD.
---------------------------------------------------------------------------
                             a warming bay
    Global climate change is not just something in the Chesapeake Bay's 
future. Evidence is building that it has already resulted in changes in 
the Bay environment over the last several decades. Based on long-term 
records from the piers at the Chesapeake's two historic marine 
laboratories--extending back to 1938 at my Center's Chesapeake 
Biological Laboratory on Solomons Island, Maryland, and to 1948 at the 
Virginia Institute of Marine Science at Gloucester Point--it is clear 
that the Bay has been warming. While annual Bay water temperatures have 
varied in relation to large-scale climate cycles, such as the North 
Atlantic Oscillation, there has been a superimposed warming trend of 
about 1 C or nearly 2 F since the 1960s. This is, by the way, 
consistent with the observed increases in air temperature over much of 
the Bay region during that same time period.
    Because of the close connection of air temperature--the monthly 
averages rather than the daily extremes--and the temperature of Bay 
waters, the General Circulation Models used to project future climate 
conditions as a function of increasing greenhouse gases provide some 
insight into further changes in temperature in the Bay. Depending on 
the emission scenarios, these models suggest a 3 to 5 C (5 to 9 F) 
increase in annual mean temperature by the end of this is century.\3\ 
These increases in air temperature may be modulated somewhat as water 
temperatures respond, but even if we act today to dramatically reduce 
greenhouse gas emissions around the world, the Chesapeake Bay is still 
very likely to experience significant additional warming.
---------------------------------------------------------------------------
    \3\ Pyke, C., R. Najjar, M.B. Adams, D. Breitburg, C. Hershner, M. 
Kemp, R. Howarth, M. Mulholland, K. Sellner, and R. Wood. 2007. Climate 
Change Research and the Chesapeake Bay. Draft. Chesapeake Bay Program 
Scientific and Technical Advisory Committee, Annapolis, MD.
---------------------------------------------------------------------------
    The much warmer waters during the summer and much milder 
temperatures during the winter would have substantial consequences for 
the organisms that live in the Bay and how this ecosystem works. 
Species that are already stressed by high summer temperatures, such as 
the eelgrass that provides important habitats in the lower Bay, may be 
greatly reduced or eliminated. Milder winter temperatures are likely to 
open the back door to invaders from warm temperate areas around the 
world who hitchhike into the Bay in ships' ballast waters. With earlier 
spring warming the critical timing of spawning of species such as 
striped bass and blue crabs will adjust, potentially out of phase with 
other processes, such as food production, that are critical to the 
success of their young.\4\
---------------------------------------------------------------------------
    \4\ Wood, R.J., D.F. Boesch, and V.S. Kennedy. 2002. Future 
consequences of climate change for the Chesapeake Bay ecosystem and its 
fisheries. American Fisheries Society Symposium 32:171-184.
    Glick, R., A. Staudt, and D. Inkley. 2007. The Chesapeake Bay and 
Global Warming: A Paradise Lost for Hunters, Anglers and Outdoor 
Enthusiasts? National Wildlife Federation, Reston, VA.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mean annual water temperature at the Chesapeake Biological 
Laboratory (mid-bay) and the Virginia Institute of Marine Science 
(lower-bay).\5\
---------------------------------------------------------------------------
    \5\ Austin, H.M. 2002. Decadal oscillations and regime shifts, a 
characterization of the Chesapeake Bay marine climate. American 
Fisheries Society Symposium, 32:155-170.
    Secor, D.H. and R.L. Wingate. In review. A 69 year record of 
warming in the Chesapeake Bay. Fisheries.
---------------------------------------------------------------------------
                               inundation
    The Chesapeake Bay region is one of the areas of the country most 
sensitive to the effects of sea-level rise because of its 8,000 miles 
of shoreline and extensive, low lying areas, particularly on the 
Eastern Shore.\6\ Sea level has been rising in the Bay for a long time, 
initially as a result of the melting of glaciers at the end of the last 
ice age. In fact the Bay itself is a series of drowned river valleys, 
inundated by the rise in the ocean levels of over 300 feet 7,000 to 
12,000 years ago. Sea level has been rather stable in recent centuries, 
however, rising only slowly as a result of the sinking of the land--a 
slow subsidence of the Earth's crust that had bulged upward under the 
weight of glaciers to the north. Still this has been enough to cause 
the abandonment and, in some cases, disappearance of several islands 
that had human habitation in the 19th and early 20th centuries.
---------------------------------------------------------------------------
    \6\ Titus, J.G. and C. Richman. 2001. Maps of lands vulnerable to 
sea level rise: Modeled elevations along the U.S. Atlantic and Gulf 
coasts. Climate Research 18:205-228.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    During the 20th century the Bay level rose a little over one foot 
relative to the land over most areas of the Bay. Accurate tide gauge 
records at six locations in the Bay showed this relative sea-level rise 
to range from 2.7 mm per year in Washington, DC to 4.5 mm per year in 
Hampton Roads, Virginia,\7\ with the difference apparently related to 
differences in subsidence rates. With the rise in the surface of the 
ocean during the 20th century averaging 1.7 mm per year,\8\ subsidence 
rates vary from 1.0 to 2.9 mm per year and, because this is a slow 
geological process, are expected to remain constant for the foreseeable 
future. Satellite altimeter measurements suggest that globally the 
level of the ocean was rising faster, as much as 3.1 mm per year, 
during the period 1993 to 2003 than earlier in the century<SUP>8</SUP>; 
although this effect is not yet clearly evident in the Chesapeake Bay 
tide gauge representation of relative sea level because of variation 
due to winds and other factors.
---------------------------------------------------------------------------
    \7\ Zervas, C. 2001. Sea Level Variations of the United States, 
1854-1999. NOAA Technical Report NOS CO-OPS 36. National Oceanic and 
Atmospheric Administration, Silver Spring, MD.
    \8\ Solomon, S., D. Qin, and M. Manning. 2007. Contribution of 
Working Group I to the Fourth Assessment Report. Intergovernmental 
Panel on Climate Change, Geneva.
---------------------------------------------------------------------------
    The Intergovernmental Panel on Climate Change projected average 
global rise in sea level through the 21st century for different 
greenhouse gas emission scenarios.<SUP>8</SUP> If one adds to their 
rates the average regional subsidence rates for the Chesapeake Bay of 
1.8 mm per year, the projections equate to relative sea level rises by 
the 2090-2100 time period of 0.37 to 0.57 meter (1.2 to 1.8 feet) with 
aggressive reduction of greenhouse gas emissions and 0.44 to 0.73 meter 
(1.4 to 2.5 feet) if emissions continue to grow. However, there are 
several reasons to believe that these estimates might be too low. 
First, as mentioned earlier, satellite evidence indicates that the rise 
of the global ocean level during 1993-2003 was already much faster than 
the low emissions estimate. Secondly, the IPCC projections excluded 
acceleration of the melting of polar ice sheets and evidence is 
mounting that the melting of the Greenland ice sheet has accelerated. 
Recently published empirical projections suggest an increase in ocean 
levels of between 0.5 and 1.3 m,\9\ which with regional subsidence 
would equate to 0.69 to 1.38 meters (2.1 to 4.8 feet) by century's end.
---------------------------------------------------------------------------
    \9\ Rahmstorf, S. 2007. A semi-empirical approach to projecting 
future sea-level rise. Science 315:368-370.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    While there remains uncertainty, not only as related to behavior of 
the climate, but also of the level of accumulated greenhouse gases, it 
appears likely that relative sea level in the Chesapeake Bay will rise 
twice as much during this century than it did in the previous century 
and could rise three or more times as much. This rise would probably be 
measured in several feet, rather than the catastrophic sea level rise 
of 20 feet or more associated with the complete melting of Greenland as 
depicted in some popular animations. Still, it is important to keep in 
mind that sea level would not simply reach a plateau in 2100 but will 
continue to rise under almost any emission assumption. Furthermore, a 
rise in Bay water level of just a foot or two will place into jeopardy 
extensive intertidal wetlands, many of which are already showing 
deterioration due to inundation,\10\ and additional low lying islands. 
Sea level rise will have profound, but poorly understood effects on the 
Bay itself. For example, the deepening of the Bay will allow saline 
ocean water to extend farther up the estuary. Already, this effect 
seems to be evident in the slight increase in salinity when one factors 
out the effects of freshwater inflow variations and hydrodynamic models 
project shifts in salinity significant enough to allow oyster diseases 
to penetrate deeper into the estuary.\11\
---------------------------------------------------------------------------
    \10\ Larson, C., I. Clark, G. Gunterspergen, D. Cahoon, V. Caruso, 
C. Hupp, and T. Yanosky. 2004. The Blackwater NWR Inundation Model. 
Rising Sea Level on a Low-lying Coast: Land Use Planning for Wetlands. 
U.S. Geological Survey Open File Report 04-1302 http://pubs.usgs.gov/
of/2004/1302/index.html
    \11\ Hilton, T.W., R.G. Najjar, L. Zhong, and M. Li. In review. Is 
there a signal of sea-level rise in Chesapeake Bay salinity? Journal of 
Geophysical Research.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    But the effects will be felt in the built environment as well, as 
roads, utilities, sewerage and drainage systems are threatened with 
inundation and erosion of developed shorelines and saltwater intrusion 
into aquifers progress, not only on the Eastern Shore and the imperiled 
communities on Smith and Tangier Islands, but also in part of the 
cities of Hampton Roads, Baltimore, Annapolis, Alexandria and the 
Nation's Capital itself.
    These effects will be experienced not just through the slow 
encroachment of mean sea level but during the extremes, when storm 
surges build on top of the inexorably slowly rising Bay. For example, 
in 2003 Hurricane Isabel resulted in storm surges up to 9 feet, 
typically exceeding the maximum recorded levels of a 1933 hurricane, 
which had a very similar trajectory and intensity, by about one 
foot.\12\ This is the approximate increase in relative sea level over 
that 70 year interlude. Add to this the potential for increased 
frequency and intensity of tropical cyclones as result of warmer ocean 
waters and there emerges the considerable likelihood of significantly 
increased vulnerability of the Chesapeake Bay's coastal communities and 
environments as a result of global climate change.
---------------------------------------------------------------------------
    \12\Boicourt, W.C. 2003. Physical response of Chesapeake Bay to 
hurricanes moving to the wrong side: Refining the forecasts. In K.G. 
Sellner and N. Fisher (eds.), Hurricane Isabel in Perspective. 
Chesapeake Research Consortium, Edgewater, MD.
---------------------------------------------------------------------------
                      what happens on land matters
    As a large, but shallow estuary with limited exchange with the 
ocean, the Chesapeake Bay is particularly affected by what drains into 
it from its 64,000 square mile watershed. Greatly increased inputs of 
sediments and nitrogen and phosphorus nutrients as a result of land 
uses, agricultural inputs and atmospheric fallout are the root cause of 
the deterioration of the Bay during the latter half of the 20th 
century. And, reducing those nutrient and sediment inputs are the main 
focus of the Chesapeake Bay restoration program.
    Climate change could affect the runoff of nutrients and sediments 
in a number of ways that interact, making prediction of future 
conditions somewhat difficult. The wild card is how climate change will 
affect precipitation and ultimately river runoff. Model projections for 
precipitation in the Mid-Atlantic region do not have the same level of 
consistency as those for temperature. However, there is considerable 
agreement for increased precipitation during the winter and spring.\13\ 
This would likely mean the flushing out of more nutrients through river 
flow to the Bay during the critical January-May time period, 
exacerbating water quality problems in the Bay, particularly summertime 
oxygen depletion of the deep waters of the Bay or the so-called ``dead 
zone.'' \14\ On the other hand, models have less agreement in summer 
precipitation, with most predicting little or no overall increase but 
with most rain delivered during intense events that punctuate dry 
spells. Keeping in mind that warmer temperatures mean more evaporation 
and plant transpiration this would suggest significantly less river 
discharge during the summer, which could further allow the salt-water 
intrusion into the Bay discussed in the context of sea-level rise. 
Compounding these physical phenomena are the human responses, 
particularly in agriculture, to changing energy costs, temperature, 
soil moisture and water availability. These, as well as the still 
needed pollution abatement practices, will affect the inputs of 
nutrients in the first place.
---------------------------------------------------------------------------
    \13\ Hayhoe, K., C.P. Wake, T.G. Huntington, L. Luo, M.D. Schwartz, 
J. Sheffield, E. Wood, B. Anderson, J. Bradbury, A. DeGaetano, T.J. 
Troy, and D. Wolfe. 2007. Past and future changes in climate and 
hydrological indicators in the US Northeast. Climate Dynamics 28:381-
407.
    \14\ Bachelet, D., D.F. Boesch, K.L. Ebi, G.A. Meehl, and R.R. 
Twilley. 2007. Regional Impacts of Climate Change in the United States: 
Four Case Studies. Pew Center for Global Climate Change, Alexandria, 
VA.
---------------------------------------------------------------------------
                        restoring the chesapeake
    Substantial public investments have been made and individual 
actions taken to restore the Chesapeake Bay. Almost $3.7 billion has 
been spent on that effort between 1995 and 2004\15\ and it has been 
estimated that an additional $15 billion will be required to achieve 
the water quality objectives of the Chesapeake 2000 Agreement.\16\ 
While some of the changes in the regional climate that are anticipated 
over the remaining century might actually result in improvements in 
environmental quality, the tally sheet of reasonable expectations is 
heavily tilted toward the detrimental in terms of ecosystem recovery. 
For example, higher winter-spring runoff will require even more efforts 
to control non-point source pollution in order to receive the same 
water quality goal for the Bay. The loss of tidal wetlands will reduce 
their natural cleansing capabilities, and so on.
---------------------------------------------------------------------------
    \15\ Government Accountability Office. 2006. Chesapeake Bay 
Program: Improved Strategies Needed to Better Guide Restoration 
Efforts. GAO-06-614T. Government Accountability Office, Washington, DC.
    \16\ Chesapeake Bay Watershed Blue Ribbon Finance Panel. 2004. 
Saving a National Treasure: Financing the Cleanup of the Chesapeake 
Bay. Chesapeake Bay Program, Annapolis, MD.
---------------------------------------------------------------------------
    There are two corollary implications for Bay restoration. First, 
the impacts of climate change must be factored into restoration goals 
and actions. No longer should this be put off as too hypothetical, too 
political or too daunting. Second, mitigating the causes of climate 
change to avoid dangerous extreme changes should become part of the Bay 
restoration agenda.
                        seeking common solutions
    Integrating climate change mitigation and adaptation with 
Chesapeake Bay restoration requires the search for common solutions. If 
considered with an open mind, there are opportunities and savings 
rather than additional costs to be realized. Governor Martin O'Malley 
has created the Maryland Commission on Climate Change to recommend a 
Plan of Action for mitigating and adapting to climate change.\17\ The 
Commission has discovered that as practical strategies to reduce the 
emissions of greenhouse gases are developed in other states there are 
significant net economic benefits, although initial investments are 
usually required to achieve them. Energy conservation and emphasizing 
transportation options that get many of the single-occupancy vehicles 
off the roads favor smart growth and reduce impacts to the Bay. At the 
same time, we need to mitigate if not avoid apparent solutions to the 
fossil fuel dependence that result in additional degradation of the 
Bay. In that vein, the rapid increase in growing corn, which has high 
fertilizer requirements and concomitant nutrient losses, to produce 
ethanol is particularly troublesome,\18\ particularly when, on careful 
inspection, this seems to produce few if any net reductions in 
greenhouse gas emissions.
---------------------------------------------------------------------------
    \17\ For information on the activities of the Maryland Commission 
on Climate Change see http://www.mde.state.md.us/air/mccc/
    \18\ Chesapeake Bay Commission. 2007. Biofuels and the Bay: Getting 
It Right To Benefit Farms, Forests and the Chesapeake Bay. Chesapeake 
Bay Commission, Annapolis, MD.
---------------------------------------------------------------------------
                       sound scientific guidance
    To accomplish this integrated approach to Bay restoration and 
climate change mitigation and adaptation will require innovative and 
rigorous science to understand both the synergistic as well as the 
antagonistic interconnections. While the Chesapeake Bay has a robust 
scientific community actively engaged in supporting Bay restoration, 
there is a critical need to build capacity in research, monitoring and 
assessment related to the consequences of regional climate change. This 
is largely because the federal science agencies have not invested much 
in this area. In a recently released review of the U.S. Climate Change 
Science Program, the National Research Council\19\ concluded that:
---------------------------------------------------------------------------
    \19\ National Research Council. 2007. Evaluating Progress of the 
U.S. Climate ChangeScience Program: Methods and Preliminary Results. 
National Academies Press, Washington, DC.
---------------------------------------------------------------------------
    <bullet> Discovery science and understanding of the climate system 
are proceeding well, but use of that knowledge to support decision 
making and to manage risks and opportunities of climate change is 
proceeding slowly.
    <bullet> Progress in understanding and predicting climate change 
has improved more at global, continental, and ocean basin scales than 
at regional and local scales.
    <bullet> Our understanding of the impact of climate changes on 
human well-being and vulnerabilities is much less developed than our 
understanding of the natural climate system.
    The Chesapeake Bay Program's Scientific and Technical Advisory 
Committee<SUP>3</SUP> has prepared a review and agenda to support the 
practical understanding of regional climate change that could serve as 
a blueprint for the needed federal investments. However, we are not in 
this predicament alone--other regions of the country face similarly 
daunting challenges in assessing and responding to their climate 
future.
    As I mentioned at the beginning, over seven years ago I contributed 
to the U.S. National Assessment of Climate Variability and Change, 
performed under Congressional mandate. Unfortunately, we have lost much 
the intervening time--a critical period of time when one considers the 
pace of climate change and the immediacy of decisions that will be 
required--when informed regional assessments and response strategies 
could have been developed. I urge Congress to make up for this lost 
time by authorizing and supporting the regional studies of regional 
climate dynamics and ecosystem and social responses that are needed to 
manage our future wisely.
                                 ______
                                 
         Responses by Donald F. Boesch to Additional Questions 
                          from Senator Cardin
    Question 1. What do you think the essential elements of a science 
program for the Chesapeake Bay relative to climate change should be?
    Response. As summarized during the hearing by Dr. Christopher Pyke, 
the Scientific and Technical Advisory Committee of the Chesapeake Bay 
Program is near completion of a report Climate Change Research and the 
Chesapeake Bay that discusses the status of research in four research 
themes: physical drivers of change, environmental monitoring, impacts 
on restoration strategies, and adaptive strategies. The STAC report 
notes that, in particular, there is a low level of attention to the 
impacts on restoration strategies and to adaptive strategies. I would 
agree that a Chesapeake Bay science program relative to climate change 
should have an essential guiding focus on how climate change will 
affect our efforts to restore the Bay and on informing the policies and 
actions for adapting to the inevitable change we will experience in the 
21st century. Given that, there are several questions that seem to me 
to be critically important at the start:
    (a) How will likely changes in precipitation and evapotranspiration 
interact with projected land use changes to affect the flow of fresh 
water, nutrients and sediments into the Chesapeake estuary?
    (b) How will likely sea-level rise and the resulting deepening of 
the Bay affect circulation, the distribution of salinity, groundwater 
intrusion, stratification, hypoxia, and sedimentation?
    (c) How will tidal wetlands and shorelines respond to likely 
acceleration in sea-level rise and what are the most effective measures 
that can be taken to avoid or minimize negative impacts to natural 
environments and human infrastructure?
    (d) How will likely increases in temperature and its seasonal 
timing affect ecologically and economically organisms, potential 
invasive species and key biogeochemical processes in the Bay?
    (e) To what degree will increased CO<INF>2</INF> concentrations in 
the atmosphere result in acidification of Bay waters and what will be 
the ecological consequences of such changes?

    Question 2. Can you take a moment to explain how you would see an 
`adaptive management' program working the Chesapeake region as we deal 
with the evolving effects of global warming?
    Response. More effective application of adaptive management is 
required for Chesapeake Bay restoration in order to cross-compare model 
projections on which restoration measures are based with real-world, 
observed outcomes. This would allow more rigorous evaluation of the 
effectiveness of restoration efforts, appropriate redirection and 
redesign, and ultimately much greater efficiencies. This is essentially 
the point made in the Government Accountability Office's 2005 report 
Chesapeake Bay Program: Improved Strategies are Needed to Better 
Access, Report, and Manage Restoration Progress. (GAO 06-96). Adaptive 
management is also useful when changes in environmental and 
socioeconomic conditions occur and, thus, will be applicable in our 
efforts to adapt to climate change. For example, as we prepare for 
likely sea-level rise and river discharges over the planning horizon 
for Chesapeake Bay restoration, it is prudent to forecast how these 
changing conditions are likely to affect the attainment of restoration 
goals and either adjust the goals or measures (e.g. nutrient loading 
reductions) need to achieve them. Monitoring feeds into this iterative 
process not only realistic assessment of goal attainment but also 
information about the changing environment.
    What adaptive management cannot do is manage global warming. That 
is, we cannot monitor sea level, for example, until we observe a 
substantial acceleration in its rise and then decide to reduce 
greenhouse gas emissions. The residence times of greenhouse gases in 
the atmosphere are too long and the responses in Earth's climate 
systems are too slow for that. Rather, our mitigation strategies must 
be anticipatory, precautionary and robust.

    Question 3. In your experience around the nation, especially in 
Louisiana and other coastal areas, are they facing the same challenges? 
Are actions we are discussing important just to the Chesapeake, or are 
they equally applicable around the country?
    Response. Coastal regions are among the most sensitive areas of the 
world to climate change as they are directly affected by sea-level rise 
but also are impacted by changes in the frequency and intensity of 
cyclones and other storms, temperature, and freshwater inflows. No 
coastal regions on Earth are immune to these effects and some effects, 
such as in coastal regions of the Arctic that are rapidly eroding due 
increased wave attack as sea-ice cover is reduced, are already quite 
dramatic. Coastal regions will vary to some degree in their 
susceptibility to climate change--compare steep, rocky shorelines to 
the low-relief coastal environments of Maryland's Eastern Shore of 
Louisiana, for example. And, coastal ecosystems may be more or less 
vulnerable to other climate related changes--river flow or temperature, 
for example. Actions taken to mitigate the increase in greenhouse gases 
in the atmosphere and thus reduce global warming are of consequence to 
all coastal regions of the country. However, the steps taken to adapt 
to inevitable changes will vary considerably depending on the important 
dynamics, drivers, and vulnerabilities of the region. One might think, 
for example, that a region like coastal Louisiana with its high rates 
of land subsidence, already degraded wetlands, and exposure to 
hurricanes may have few adaptation options. But, that region has the 
substantial capacity of Mississippi River sediments that could be 
managed to offset relative sea-level rise that other regions do not.

    Question 4. Can you explain to the Committee the relationship you 
see between the global scientific efforts to understand and deal with 
global warming and the more regional understanding that is needed for 
areas like the Chesapeake? What is a reasonable scale, both 
geographically and in time, for us to understand and respond to climate 
change?
    Response. Global climate change is being effected by processes in 
the atmosphere and the ocean that are global in scale, thus scientists 
have worked to develop global models of geophysical processes that help 
explain the changes that have been observed and project the changes 
that we are likely to experience based on current understanding. These 
models are the basis of the climate change projections made by the 
Intergovernmental Panel on Climate Change (IPCC) and conclusions about 
the reduction in emissions needed to stabilize greenhouse gas 
concentrations and thus the degree of climate change. These models are 
necessarily of global scope and thus, for practical reasons, do not 
resolve much detail at the scale of the Chesapeake Bay, its watershed, 
or the Mid-Atlantic region, for that matter, and consequently only 
fairly coarse regional projections are provided in the IPCC report. 
Furthermore, these models are unable to incorporate climatic dynamics 
that might operate on such region, as opposed to global scales. 
Furthermore, additional scientific efforts are required to interpret 
the consequences of the climate changes on regional ecosystems, 
resources and socioeconomic conditions.
    As the National Research Council (NRC) recently pointed out in its 
report Evaluating Progress of the U.S. Climate Change Science Program: 
Methods and Preliminary Results, the U.S. Climate Change Science 
Program (CCSP) has done a very good job at keeping the U.S. at the 
leading edge of discovery science and understanding of the Earth's 
climate system at global, continental and ocean basin scales, but has 
been much less effective in predicting climate change at regional and 
local scales. Furthermore, the NRC found that the CCSP has lagged in 
advancing the use of that knowledge to support decision making and to 
manage risks and opportunities of climate change. This is beyond 
regretable because the congressionally mandated U.S. National 
Assessment completed in 2001 (Climate Change Impacts in the United 
States: The Potential Consequences of Climate Variability and Change) 
included very useful regional assessments that provide a solid basis 
for the science needed to improve regional understanding. In my 
opinion, the delay by the Federal government over the last six years in 
accepting the reality of global climate change resulted in avoiding the 
kinds of scientific investments needed to deal with the consequences of 
climate change in places where we live. I strongly support the NRC's 
recommendations that such investments are now urgently needed.
    The space and time scales that must be addressed for understanding 
and response are in an important sense nested. Improving understanding 
at the regional scale, say on the scale of the Chesapeake Bay and its 
watershed, is a weak link at this time. However, this understanding 
will depend on continued development of our skill in making projections 
on a global scale. Furthermore, understanding and response will also be 
required on a very local scale, for example judging how sea-level rise 
and storm surges will affect vulnerability in downtown Baltimore. In 
the same vein, we need to develop the understanding to make more 
confident projections over this century, the principal time scale that 
the IPCC and U.S. National Assessment addressed, but we also need to 
understand the longer term changes that will occur as a result of 
actions during this period (e.g. sea level will continue to rise over 
hundreds of years as a result of the amount of 21st century warming 
that occurs). And, at the same time we will need to better understand 
whether anomalies that we see in one or a few years--this year's 
drought in the southeast or the 2005 hurricane season--are 
manifestations of climate change or just natural variability.

    Senator Boxer. Thank you, Doctor.
    At this point, before we hear from Dr. Avery and the rest 
of the panelists, I am going to hand the gavel over to Senator 
Cardin because I have an urgent meeting. I am hoping to get 
back, but if I don't get back, just understand that you have an 
ally in this California Senator, and I am sure in the other 
California Senator as well. We share a common set of values 
based around our water resources, and we face similar 
challenges. You know that.
    I just wanted to ask unanimous consent to place in the 
record an article that talks about what is happening in 
Greenland. Senator Inhofe and I have this go-around every time 
we have one of these hearings. And so I just wanted to make 
sure in the record goes this article, which points out that 
over the past 20 years the air temperature in southeast 
Greenland has risen by 3 C. That is 6 F.
    As we all know, because the three of us went, you could 
actually see the ice move if you stay in one place. Every hour 
you just see the ice move and these magnificent icebergs 
floating in the Atlantic. It is one of the most awesome sights 
that I have ever seen. I think I speak for all of us. Knowing 
that the average age of this ice is 9,000 years, and it is 
going to disappear in 1 year from the time it breaks off into 
the Atlantic.
    So it is quite an awesome sight, and I recommend that 
anybody interested in the subject make that trip. It is very 
much worthwhile. So we will place that in the record, without 
objection.
    [The referenced document follows on page 107.]
    Senator Boxer. Again, I want to say to Senator Mikulski, 
you have added immeasurably to our discussion today, and we are 
partners in this whole fight against global warming. I am just 
so honored that you spent your time with us, given all of the 
requirements on your time.
    Senator Cardin, the gavel is yours.
    Senator Cardin [Presiding]. Senator Boxer, we thank you for 
making this hearing possible. We think it is very important for 
our Country to understand the practical effects of global 
warming to the Chesapeake Bay region. You have given us the 
opportunity to have this hearing. Senator Mikulski and Senator 
Warner and I all thank you for making that possible.
    Senator Mikulski. Senator Boxer, I, too, want to echo my 
support because by focusing on the Chesapeake Bay, we want to 
bring home the impact of global warming on our own people. 
Number one, that it has real consequences to people, as you are 
going to hear about a waterman's family, and particularly to 
our economy and to our national security, as Senator Warner has 
indicated.
    So we thank you and I thank you for your courtesy in having 
me. We hope to see our science bill in Commerce, Justice, 
Science on the floor as part of the October group, and we look 
forward to your participation to show how important what we do 
is. Thank you.
    Senator Boxer. You can count on my support.
    Senator Cardin. Thank you.
    We will now hear from Dennis Avery. He is Senior Fellow, 
Hudson Institute; Director, Center for Global Food Issues.

STATEMENT OF DENNIS T. AVERY, SENIOR FELLOW, HUDSON INSTITUTE; 
            DIRECTOR, CENTER FOR GLOBAL FOOD ISSUES

    Mr. Avery. Thank you, Senator. I am also the coauthor of a 
new book entitled ``Unstoppable Global Warming: Every 1,500 
Years.'' The book is about the 1,500 year climate cycle that 
was discovered in 1984 in the Greenland ice cap ice cores by 
two gentleman named Dansgaard and Oeschger.
    Over the last 11,000 years of the planet's history, the 
1,500 cycle has dominated our temperatures. The Vostok ice core 
in the Antarctic indicates nearly 600 of these cycles in the 
last million years. Each one raised the temperatures in the Bay 
region by one to 3 C above the mean for centuries at a time, 
and then dropped the Bay region temperatures 1 to 3 degrees 
below the mean for centuries more. The flora and the fauna 
quietly adapted.
    We may not like the stress. We may not like the change, but 
it has been with us. By the way, Dansgaard and Oeschger shared 
the Tyler Prize, the environmental Nobel, in 1996, but today 
nobody wants to discuss the cycle they found, almost no one.
    Thankfully, Senator Mikulski's people have sponsored Tom 
Cronin of the U.S. Geological Survey, who studied the magnesium 
and calcium ratios in the Bay sediments. He found temperature 
shifts of 2 to 4 C associated with the Little Ice Age, the 
Medieval Warming, the Dark Ages, the Roman Warming, and 
presumably would have found them in previous years if the Bay 
had been alive that long.
    Deborah Willard, also of the USGS, found a 1,429 year cycle 
in the abundance of the Bay's pine trees, associated with 
winter temperature declines of as much as 2 C. She also found 
very long drought periods near the Bay during both the Roman 
Warming and the Medieval Warming. Again, we may not like these 
changes, but whatever we do on energy policy is unlikely to 
trump the sun.
    The temperatures of the modern warming are well within the 
parameters of past natural warming cycles. Our temperatures 
have increased about .7 degrees since 1850. About five tenths 
of that occurred before 1940, and thus much before much human-
emitted CO<INF>2</INF>. Our net warming since 1940 is two-
tenths of a degree Celsius, and we have had no warming at all 
since 1998.
    A warming of .1 degrees over 65 years is not much, 
especially while the atmosphere has been becoming increasingly 
saturated with atmospheric CO<INF>2</INF>. The only place we 
see radical warming is in the unverified computer models whose 
early predictions have already proven inaccurate. Nor will sea 
levels rise much. Higher temperatures evaporate more ocean 
water, but they also drop more snow to become more ice on 
Greenland and the Antarctic.
    Neils Reeh of the University of Denmark reports a broad 
consensus among sea level experts that another degree of 
warming, which would more than double the warming we have had 
in the last 150 years, would melt enough Greenland ice to raise 
sea levels three tenths to seven tenths of a millimeter per 
year. At the same time, it would add enough Antarctic ice to 
subtract two tenths to seven tenths of a millimeter of sea 
level per year, leaving us with very little sea level change. 
The 6 inches per century that we have had in the last 400 or 
500 years may be a good guess for the future. We have seen no 
acceleration since 1850.
    No wild species has been found anywhere in the world to 
have gone extinct because of the higher temperatures. Instead, 
the tree and plant species, the birds, butterflies, crickets 
and mammals have been expanding their interlocking ranges, 
creating more biodiversity per acre than the planet has seen 
for 500 years. The birds, fish, and mammals of the Chesapeake 
Region have quietly adapted to the temperature and rainfall 
changes associated with the cycle. Again, they may not be the 
changes we would prefer, but I seriously question our ability 
to stop them.
    Fossil pollen shows nine complete reorganizations of North 
America's trees and plants during the past 14,000 years. That 
is a cycle of 1,650 years. The number of pine trees varies with 
the cold. The distribution of the fish species changes with the 
cold. The one thing I can see that we might impact at this 
moment is the distribution of corn plants on the Eastern Shore 
and Western Shore of the Chesapeake Bay. The biofuels program 
is greatly intensifying corn production and may be intensifying 
pollution problems in the Bay as a result. That is one thing 
that we could rein in, even though we can't control the sun.
    Thank you very much.
    [The prepared statement of Mr. Avery follows:]
 Statement of Dennis T. Avery, Hudson Institute, Director, Center for 
                           Global Food Issues
    Thank you for the opportunity to present this testimony on a vital 
public issue.
              no human impact on chesapeake temperatures?
    The first point I must make is that we cannot document any 
significant current impact from man-made warming on the Chesapeake Bay. 
Nor are we likely to do so in the future. A number of recent studies 
have found incontrovertible evidence of a long, moderate natural global 
climate cycle--which has periodically raised the temperatures of the 
Chesapeake to higher levels than today, and for extended periods. Quite 
simply, the Bay has been through higher temperatures before, and will 
be again. The flora and fauna have also been through these warmer 
periods, and adapted. That is fortunate, because the natural climate 
cycle is apparently driven by the sun, and the warmings are 
unstoppable.
    Previous Bay warmings include the Medieval Warming (950-1300), the 
Roman Warming (200 BC-600 AD), and at least two earlier Holocene 
Warmings since the last Ice Age 12,000 years ago, that were regarded by 
paleontologists as warmer than today by several degrees C.\1\
---------------------------------------------------------------------------
    \1\ Nasif Nahle, (2007) ``Warmer than current periods in the 
Holocene epoch,'' Biology Cabinet, biocab.org/Holocene.html.,.
---------------------------------------------------------------------------
    These natural warmings, and the coolings interspersed with them, 
are called Dansgaard-Oeschger cycles. The cycles are named after their 
discoverers, Willi Dansgaard of Denmark and Hans Oeschger of 
Switzerland, who found them when they brought up the world's first long 
ice cores from the Greenland ice cap in 1983, the Greenland ice cores 
revealed the 1,500-year cycles for the first time, embedded in 250,000 
years of Greenland ice history. (Oxygen isotopes in the ice layers 
documented the air temperatures that existed when each layer was laid 
down.)\2\ The cycles had been too long, and too moderate, to be 
discerned by peoples lacking thermometers and written records.
---------------------------------------------------------------------------
    \2\ W. Dansgaard, et al, (1984), ``North Atlantic Climatic 
Oscillations Reveled by Deep Greenland Ice Cores,'' in Climate 
Processes and Climate Sensitivity, F.E. Hansen, ed., Geophysical 
Monograph 29, 28-98, American Geophysical Union, Washington, D.C.
---------------------------------------------------------------------------
    Since the 1980s, the evidence of these cycles has also been found 
in a 900,000-year Antarctic ice core; in the sediments of at least six 
oceans and hundreds of lakes; in cave stalagmites on every continent 
plus New Zealand; in ancient documents in Europe and Asia; in the long-
term records of Nile floods; and in archeological remains, which show 
farms and primitive villages simultaneously moved up the slopes of the 
Alps and Andes during the warmings, and back down during the coolings.
    Fossil pollen shows nine complete reorganizations of North 
America's trees and plants during the past 14,000 years, in concert 
with the temperature cycling. In Ontario, this means that beech trees 
dominated the forests during the Medieval Warming, giving way to more 
oak trees as the Little Ice Age set in, and finally yielding to more 
pine trees as the cold intensified. Today, the oak trees are coming 
back and the beech trees are waiting their next turn.
    Both seabed sediments and ice cores show the Dansgaard-Oeschger 
cycles extending back at least 1 million years, and dominating the 
earth's temperatures during the last 11,000 years. Incidentally, 
Dansgaard and Oeschger shared the 1996 Tyler Prize (the ``environmental 
Nobel'') with Claude Lorius, leader of the Antarctic team that brought 
up the Vostok ice core, so the cycle evidence is well-known to the 
environmental movement.
    I have co-written a new book, with climate expert Fred Singer, 
titled Unstoppbable Global Warming: Every 1,500 Years. It cites peer-
reviewed studies, authored and co-authored by more than 500 scientists 
and published in leading scientific journals, which (1) found evidence 
of the natural cycle, (2) linked it to the sun's variations, or (3) 
found some other serious flaw in the current global warming alarmism, 
such as the loss of 1 million wild species or radically increased human 
deaths. The researchers' scientific specialties range from tree rings, 
lichens and marine fossils to public health and satellite imagry. There 
are many more such studies which the book did not cite, and we plan to 
identify more of them and their authors in the near future.
    The Dansgaard-Oeschger cycles are moderate above all. They have 
typically warmed the earth by 1-2 C above the long-term average, and 
then dropped it by 1-2 degrees below the long-term average at the 
latitude of Washington and the Chesapeake. Arctic temperatures vary 
more widely, which may or may not stress the polar bears but seems 
inevitable. The shifts from warm to cool and back are often abrupt, 
gaining half their total change within a few decades. Near the equator, 
temperatures change little, but rainfall patterns change sharply, as 
the tropical rain belts shift north and south by hundreds of miles. 
This shift in the rain belts has produced mega-droughts in California 
and very long droughts in the Chesapeake region.
    All of the current global warming evidence today is consistent with 
our Modern Warming being a natural rebound from the Little Ice Age. Our 
total warming since 1850 is apparently just 0.7 C. The only place we 
find dramatically dangerous man-made warming is in the projections of 
the global computer models--which have been verified with each other, 
but not with the real world. The models have consistently overestimated 
the Greenhouse effect, and the UN's Intergovernmental Panel on Climate 
Change has been slowly and reluctantly reducing its warming forecasts 
over time.
    This moderate climate cycle has raised the Chesapeake's 
temperatures higher than today as recently as 5,000 years ago. Thus, we 
can hardly call today's temperatures an ``unprecedented'' or 
``unnatural'' threat to wild species. Rather, today's temperatures 
should be regarded as ``within the normal range'' of the ecosystem, and 
the responses of the Bay's plants and animals as ``normal'' 
adaptations.
       recent studies of the bay's long-term temperature history
    In 2003, T.M. Cronin and his research team used the magnesium/
calcium ratios in Chesapeake Bay sediment cores to document rapid 
temperature shifts--2-4 C within 100 years--in past Chesapeake Bay 
temperatures.\3\ These big shifts occurred:
---------------------------------------------------------------------------
    \3\ T.M. Cronin, et al., (2003), ``Medieval Warm Period, Little Ice 
Age and 20th Century temperature variability from Chesapeake Bay,'' 
Global and Planetary Change 36: 17-29.
---------------------------------------------------------------------------
    (a) 150 years ago in 1850 AD
    (b) 400 years ago in 1600 AD
    (c) 650 years ago in1350 AD
    (d) 950 years ago in 1050 AD
    (e) 1600 years ago in 400 AD and
    (f) 2100 years ago in 100 BC.
    The big, sudden temperature changes reflect the Roman Warming, the 
Dark Ages, the Medieval Warming and the Little Ice Age. Nothing would 
be more ``natural'' than the Little Ice Age being followed by another 
warming.
    Cronin and his colleagues noted that the temperatures of the 20th 
century were 2-3 C higher than those in the previous 2000 years. 
However, they did not comment on the Holocene warmings, which other 
authors have found to be as much as 6 degrees warmer than any of the 
more recent cycles in the Arctic (with somewhat lesser temperature 
elevations at lower latitudes).
    Debra Willard of the U.S. Geological Survey and a research team in 
2005 used pollen from Bay seabed sediments to reconstruct the Bay's 
temperature history for the past 10,000 years.\4\ Her team identified a 
1429-year cycle in the abundance of the Bay's pine trees, associated 
with winter temperature declines of up to 2 C. The most recent of 
these cycles correlates with the Little Ice Age. This is consistent 
with the findings of the Cronin team.
---------------------------------------------------------------------------
    \4\ D.A. Willard, et al., (2005), ``Impact of millennial-scale 
Holocene climate variability on eastern North American terrestrial 
ecosystems: pollen-based climatic reconstruction,'' Global and 
Planetary Change 47:17-35.
---------------------------------------------------------------------------
    Willard and her authors note that the climate cycle fits well with 
a similar cycle in the ``solar isotopes'' (carbon<SUP>14</SUP> in trees 
and beryllium<SUP>10</SUP> in ice). The solar isotope cycle, in turn, 
correlates closely with temperature proxy cycles found in Greenland ice 
by Dansgaard in 1984 and by Colombia University's Gerard Bond in North 
Atlantic ice-rafted glacial debris in 2001. All are thus tied to 
cyclical changes in solar activity.
    In 2003, Dr. Willard had used the fossils of tiny marine organisms 
and the pollen from long-dead trees to construct a record of rainfall 
in the Chesapeake region for the last 2300 years. The authors found 
very long dry periods (1) during the Roman Warming, from 200 BC to 300 
AD, and (2) during the Medieval Warming, from 800 AD to 1200 AD.\5\ 
These droughts were due to the north-south movement of the tropical 
rain belts as part of the Dansgaard-Oeschger cycling.
---------------------------------------------------------------------------
    \5\ Willard, et al., (2003), Late Holocene climate and ecosystem 
history from Chesapeake Bay sediment cores, USA,'' The Holocene 13: 
201-214.
---------------------------------------------------------------------------
    The Willard study also found decade-long dry periods during the 
Little Ice Age, between 1320-1400 and 1525-1650. One of these may have 
eliminated the ``lost'' British colony established on North Carolina's 
Roanoke Island in 1587, during the most extreme growing-season drought 
in 800 years. The Jamestown colony also had bad weather luck, arriving 
in 1607, during the driest 7-year period in 770 years.
    All of these Chesapeake droughts seemed to reflect much more 
serious and simultaneous droughts in the Southwestern U.S., including 
southern California. California's Medieval-Warming droughts have been 
well-publicized by Scott Stine of California State University.
                   the ``new math'' of global warming
    The temperatures of the Modern Warming are well within the 
parameters of past natural warmings and coolings. The earth has 
probably warmed about 0.7 C since 1850, but about 0.5 C of the 
warming occurred before 1940, before significant human emissions of 
CO<INF>2</INF>. The pre-1940 warming can, therefore, be credited to the 
natural cycle.
    The net warming since 1940 is a tiny 0.2 degrees, over more than 60 
years, during which the atmosphere has become increasingly saturated 
with CO<INF>2</INF>. (After saturation, no more CO<INF>2</INF> be 
retained in the air around us or have a Greenhouse impact.) Logic would 
indicate that human emissions can be credited for half of that warming 
or .1 degree. It is difficult to assign any significant climate change 
in the Chesapeake to human-emitted fossil fuels.
    We have had no additional warming since 1998, though CO<INF>2</INF> 
levels in the atmosphere have continued to soar. 1934 is still the 
warmest year of the last century, followed closely by 1998 and 1921, 
which emphasizes how moderate our warming has been. The solar index has 
recently turned sharply downward and the temperatures are likely to 
follow. None of this guarantees that there will be no further warming, 
but indicates further warming is likely to be moderate.
    If human emissions can logically claim only 0.1 degree of warming 
over 65 years, then the climate models are claiming too high a 
Greenhouse sensitivity for the atmosphere. There is certainly no 
published evidence to support the current high numbers. The climate has 
never warmed anywhere near as much as the IPCC's original forecasts, 
even with the documented assistance of the current Dansgaard-Oeschger 
warming.
                           species adaptation
    It is important to note that no wild species extinction has yet 
been tied to the rise in earth temperatures since 1850. A claim was 
made that the Golden Toad, which lived in a Costa Rican cloud forest, 
went extinct due to higher sea surface temperatures. However, the loss 
of the Golden Toad has now been blamed on the clearing of the once-
forested mountainsides below its cloud forest home, which altered the 
cloud-forest moisture conditions.
    Biologist Chris Thomas of Great Britain has claimed that the world 
would lose more than a million wild species due to the projected speed 
and scope of modern global warming, but this claim is literally 
incredible.
    In the first place, the record of past Dansgaard-Oeschger cycles 
indicates that they are typically abrupt. Yet most of our wild species 
``body types'' date back about 600 million years and are still going 
strong.
    In the second place, the shifts in ecosystems are not likely to be 
abrupt. Most trees and plants are cold-limited but they are not heat-
limited. Stand replacement of trees must await fires or disease 
outbreaks to clear a path for the invading species to take over. Thus, 
the current warming is encouraging the vegetation to gradually expand 
ranges, and the associated fauna have the same opportunity. Study after 
study, around the world, shows more biodiversity in our forests and 
wild meadows today than have resided in them for centuries.\6\
---------------------------------------------------------------------------
    \6\ N.K. Johnson, (1994), ``Pioneering and Natural Expansion of 
Breeding Distributions in Western North American Birds,'' Studies in 
Avian Biology 15: 24-44. See also E. Pollard et al., (1995), 
``Population Trends of Common British Butterflies at Monitored Sites,'' 
Journal of Applied ecology 32: 9-16.
---------------------------------------------------------------------------
    Thirdly, Dr. Thomas himself has documented wild species' 
adaptations to the warming. He has reported on butterflies colonizing 
``new types of habitat'' during the warming, and bush crickets 
producing more offspring with longer wings, the better to reach new 
territories.\7\ We have already seen dramatic evolutions of wild 
species, including tolerance for massive quantities of cadmium by 
mudworms in the Hudson River near a battery factory, and insects 
quickly developing tolerance for synthetic pesticides.
---------------------------------------------------------------------------
    \7\ Chris Thomas, et al. (2001) ``Ecological and Evolutionary 
Processes at Expanding Range Margins,'' Nature 411: 577-81. Have the 
species adapted before? They must have. Does the polar bear have 
adaptation strategies too? That also seems certain. Even though the 
polar bear is a relatively recent offshoot of the grizzly bear, it goes 
back some 200,000 years.
---------------------------------------------------------------------------
                        not much sea level rise
    Much has been made of the potential of the current warming to melt 
the Greenland and Antarctic Ice Caps, dramatically raising sea levels. 
That would certainly impact the Chesapeake. However, it takes 80 times 
as much heat to melt an ice cube as it does to raise the temperature of 
the water from that ice cube 1 degree. Recently, we have seen estimates 
that the Arctic ice has been radically reduced in extent--but the 
extent of Antarctic ice has simultaneously risen to amazing levels.
    Warmer temperatures melt more glacier ice, but they also evaporate 
more water from the oceans, much of which falls again as snow on the 
ice caps. More snow becomes more ice, and the Antarctic is currently 
adding billions of tons of ice per year, mostly on the ultra-cold East 
Antarctic Ice Sheet. This ice is too cold to melt. It flows downhill 
virtually in solid blocks, based on the slope of the underlying 
mountains. It has been flowing at about the same rate for 10,000 years, 
and that rate has not accelerated during our warming. It would take 
another 7000 years to get rid of that ice at current rates, according 
to John Stone of the University of Washington.\8\
---------------------------------------------------------------------------
    \8\ J. Stone et al.,(2003), ``Holocene Deglaciation of Marie Byrd 
Land, West Antarctica,'' Science 299: 99-102
---------------------------------------------------------------------------
    Walter Munk of the Scripps Oceanographic Institute reports that 
glacial melting due to higher 20th-century temperatures can account for 
only four inches per century of sea level rise\9\ Neils Reeh of the 
University of Denmark reports a ``broad consensus'' that another 1 
degree of warming would increase the melting of Greenland's ice sheet 
only enough to raise sea levels 0.3 to 0.77 inches--while the 
additional ice in Antarctica would subtract 0.2 to 0.7 mm per year.\10\
---------------------------------------------------------------------------
    \9\ W. Munk, ``Ocean Freshening, Sea Level Rising?'' Science 300 
(2003): 2014-43.
    \10\ N. Reeh, ``Mass Balance of the Greenland Ice Sheet: Can Modern 
Observations Methods Reduce the Uncertainty?'' Geografiska annaler 81A 
(1999): 735-42.
---------------------------------------------------------------------------
              the emerging dangers of grain-based ethanol
    If humans have not significantly changed the Bay's temperatures, 
they have certainly had other impacts on it. The Willard authors note 
that European colonization had severe impacts on the watershed and 
estuary. Forest clearance and farming altered estuarine water quality, 
with the fossils indicating less dissolved oxygen and increased 
turbidity. The Willard data also show another drop in the Bay's water 
quality after 1950, when the fossils indicate water-quality changes 
associated with increased urbanization, more hypoxia, and more 
fertilizer use.
    A new element of man-made danger now threatens the Bay for the 
first time, and it is a direct result of our concern about burning 
fossil fuels. The Federal government has adopted a mandate to produce 
35 billion gallons of ethanol per year to help achieve ``energy 
independence'' without increasing gasoline use. Unfortunately, America 
has only corn with which to produce the ethanol, and corn yields only 
about 50 gallons worth of gasoline per acre per year--against annual 
gasoline demand of more than 134 billion gallons.
    Ethanol's demand for corn has already doubled corn prices, and has 
bid farming acres away from soybeans, wheat, and cotton. The whole 
price structure for commodities and farmland has been wrenched upward, 
causing street riots in Mexico over tortilla prices and China's 
canceling of further expansion in its ethanol program due to food price 
inflation. Food prices make up a full one-third of the Chinese cost of 
living.
    The Center's analysis indicates that the current federal ethanol 
mandate will soon drive corn to $4.50 per bushel, even in the absence 
of any crop diseases or weather problems in the Corn Belt.
    The commodity magazine that follows vegetable oil prices, Oil 
World, recently stated, ``It is high time to realize that the world 
community is approaching a food crisis in 2008 unless usage of 
agricultural products for biofuels is curbed.''
    World food demand is rising due to moderate population growth plus 
rapid income gains. There is no more farmland to bring into production, 
unless the Sierra Club and Greenpeace are prepared to endorse massive 
forest-clearing in the American Midwest to support more corn ethanol. 
Unfortunately, the U.S. might have to clear 50 million acres of forest 
for enough corn ethanol to make much of a dent in its gasoline demand.
    The President apparently wanted to foster ethanol from non-food 
sources, but the enzymes to break down the cellulose in switchgrass, 
corn stalks and wood chips are not yet available, and we do not know 
when they might be. Corn ethanol is not an adequate substitute for 
cellulosic ethanol.
    I recently toured parts of the Eastern Shore of the Chesapeake Bay. 
I have never seen such intensive planting of crops. Next to a marina, 
the owners of a mansion could no longer see the water, because they had 
planted their front yard to corn! Ethanol plants are being planned for 
the Eastern Shore that would lock in this intensive cropping pattern, 
and even intensify it further. The USDA says America's corn ethanol 
plants will need an extra 1 billion bushels of corn in 2008, and then 
more and more corn in the years after that.
    All to produce high-cost corn ethanol that will not protect the Bay 
from higher temperatures but will certainly subject it to more soil 
erosion and potential pollution.
    I submit that corn ethanol is merely the first of a whole series of 
``global warming'' decisions that could threaten ecological damage, 
global food supplies and public health--without ``saving the planet.''
                                 ______
                                 
   Responses by Dennis T. Avery to Additional Questions from Senator 
                                 Inhofe
    Question 1. I would also like to insert into the record the 
attached chart. It shows that the Bay's sea surface water temperatures 
have fluctuated over the last 2000 years. Is this consistent with your 
understanding of global sea surface temperatures?
    Response. Yes, the attached chart represents the Bay's surface 
water temperatures over the last 2000 years, as found in a study of the 
Bay's bottom sediments over that period. The study was led by Dr. 
Thomas Cronin of the U.S. Geological Survey, and published in Global 
and Planetary Change, Vol. 36, pp. 17-29. The study shows that the 
Bay's surface temperatures have fluctuated by several degrees Celsius, 
in a rhythm of about 1,500 years, plus or minus 500 years. The Holocene 
Warmings 6,000 years ago were particularly strong.

    Question 2. What few people outside of academia understand is that 
those who argue man-made emissions are causing global warming are using 
computer models to predict the alleged global warming related 
catastrophes. As noted by Dr. Art Robinson of the Oregon Institute of 
Science and Medicine ``There is no scientific basis upon which to guess 
that the rise will be less or will be more than this value. Such a long 
extrapolation over two centuries is likely to be significantly in 
error--but it is the only extrapolation that can be made with current 
data. There may be no sea level rise at all. No one knows.''
    Can you comment on the risks associated with these models and 
basing future investment decisions on the models' conclusions?
    Response. Climate is one of the most complex phenomena we try to 
understand. The computerized climate models have never been validated 
with real-world data, and there is no reason to believe that they are 
giving us accurate forecasts of the earth's climate future. In 
particular, the IPCC admitted in its 2001 report that the computer 
models cannot accurately model clouds. Yet Dr. Henrik Svensmark of the 
Danish Space Research Institute has found evidence that the low, wet 
clouds, which deflect solar heat back into space, are among our 
planet's key thermostats. If the computer models cannot model clouds, 
it is highly unlikely that they can forecast future changes in the 
earth's temperatures--or in its sea level riser.

    Question 3. In Mr. Baker's testimony, he acknowledges that today's 
climate models are inconclusive about whether more precipitation will 
fall in the Chesapeake Bay watershed. Mr. Boesch would have us 
integrate climate change mitigation into our restoration efforts. One 
of the primary contributors to the Bay's impairment is stormwater 
runoff. If the models cannot predict future levels of rainfall, do you 
know how to incorporate those rainfall levels into the mitigation 
projects?
    Response. If the climate models cannot predict future levels of 
rainfall, then they cannot forecast future stormwater runoff, one of 
the key Bay variables. The models are particularly bad at attempting to 
forecast regional climate changes, such as in the Mid-Atlantic States. 
One model tells us South Dakota will be a future desert, while another 
model says it will be a swamp. Even if we could believe the models, we 
would have no guidelines for action.

    Senator Cardin. We will now hear from Dr. David Schnare, 
Senior Fellow for Energy and the Environment, Thomas Jefferson 
Institute for Public Policy.

STATEMENT OF DAVID W. SCHNARE, SENIOR FELLOW FOR ENERGY AND THE 
                 ENVIRONMENT, THOMAS JEFFERSON 
                  INSTITUTE FOR PUBLIC POLICY

    Dr. Schnare. Thank you, Senator Cardin.
    I would also like to thank Senator Mikulski for being here. 
I have two messages for you, Senator Mikulski. It was some 
years ago when I had the honor of serving on Appropriations 
staff when you first came to the committee, and I saw your 
leadership and I know that your leadership will be needed now 
on these issues. The one issue that no one seems to be 
discussing is something known as geo-engineering. It is the 
mechanism by which humans alter large-scale geophysical 
processes such as putting sulfates high into the stratosphere 
to create a sunscreen that would reduce the temperature. This 
is the identical process that happens when volcanoes erupt and 
they cause cooling.
    Why do I raise this? I raise this because according to 
Scott Barrett, Professor at Johns Hopkins University in 
International Policy Studies, he says geo-engineering is 
inevitable. Why is it inevitable? A report that came out as 
recently as just this morning suggests that Bangladesh, with a 
single meter of ocean rise, will lose one third of their 
landmass and require 25 to 30 million of their people to move. 
As a result, someone is going to say it is in our interest to 
reduce global temperatures using this kind of engineering, 
especially in light of the fact that doing so would cost one 
one thousandth the cost of relying exclusively on reducing 
greenhouse gases.
    Geo-engineering is not new and it will potentially have an 
effect on the Bay and rain in this area because, as we have 
seen in China when they want a sunny day in Beijing, they seed 
the clouds to the west. This will happen next summer during the 
Olympics.
    Senator Mikulski. They seed?
    Mr. Schnare. Seed with nitrate crystals, which causes it to 
rain one place and not another. These techniques are already in 
use to sequester carbon. Significant tests are going on, and 
there are commercial activities to put iron into the ocean, to 
grow algae, to sequester carbon. None of this geo-engineering 
is under a regulatory control or the control of any 
governmental body.
    Yet because it is so inexpensive, because it is inevitable 
that it will be done because of the economic consequences of 
not doing it, we need leadership, international leadership and 
leadership that can begin with this Committee, to examine the 
significance of geo-engineering with regard to global warming 
and the means by which we can organize and ensure its use, its 
safe use, its incremental use, but its recognized high value 
use.
    Senator Mikulski, the research in this area is necessary.
    Now, let me turn to the Bay, briefly. If we rely 
exclusively on reducing greenhouse gases, it is my fear, having 
served on the staff of EPA's Appropriations subcommittee, that 
we will rob the purse of all the funds we need to clean up the 
Bay. The Thomas Jefferson Institute is very proud of its work 
in bringing together staff from the Chesapeake Bay Foundation 
and from the State of Virginia to accelerate the pace with 
which some of these techniques to reduce nutrient flows into 
the Bay are used. Never-till farming is an example.
    Part and parcel of that, it is critical that there be 
continued funding, Federal and State funding for these 
activities. If we let our activities to restore the Bay be 
sacrificed on the altar of exclusive greenhouse gas reductions, 
we will have larger dead zones, more fish kills, and a 
significantly deteriorated quality of the Bay.
    It is our view that this Committee should, as part of its 
approach to dealing with climate change rely as a first 
response on a thorough examination of geo-engineering and 
leadership in its use. Absent that, someone else will do it, 
and the United States will be a bystander watching. That is not 
in our interest. It is not in the interests of the 
international community.
    Thank you very much.
    [The prepared statement of Dr. Schnare follows:]
    Statement of David W. Schnare, Esq. Ph.D.\1\, Thomas Jefferson 
                       Institute of Public Policy
---------------------------------------------------------------------------
    \1\ Dr. Schnare is the Institute's Senior Fellow for Energy and the 
Environment. His position with the Institute is pro bono. He has been 
employed by the U.S. Environmental Protection Agency for 30 years and 
currently serves as a Senior Counsel in the Office of Civil Enforcement 
prosecuting violations of the nation's Clean Air Act. This testimony 
reflects the views of the author and does not necessarily reflect the 
position of the U.S. EPA or the Thomas Jefferson Institute. Dr. Schnare 
received his doctorate in environmental science and management from the 
University of North Carolina-Chapel Hill (1978) and his Juris Doctor 
Cum Laude from the George Mason University School of Law (1999).
---------------------------------------------------------------------------
    Good morning Madam Chairman and Members of the Committee. On behalf 
of the Thomas Jefferson Institute for Public Policy, we appreciate your 
invitation to attend this Hearing and thank you for the opportunity to 
participate in a discussion involving two issues on which the Institute 
has a continuing strong interest--Restoration of the Chesapeake Bay and 
the implications of alternative responses to global warming and climate 
change.
    The greatest threat to restoration of the Chesapeake Bay comes not 
from the potential geophysical effects of climate change, but from the 
potential responses to climate change and, in particular, exclusive 
reliance on a strategy of reducing greenhouse gases. The scientific 
community has reached a consensus on this. As Nobel Laureate Paul 
Crutzen admits, efforts to forestall climate change exclusively through 
reductions in greenhouse gases is no more than ``a pious wish''.\2\ \3\ 
Public reports show nations have rejected this strategy \4\, and 
without full, massive global cooperation, reliance on greenhouse gas 
reductions, alone, will fail.
---------------------------------------------------------------------------
    \2\P.J. Crutzen, ``Albedo Enhancement By Stratospheric Sulfur 
Injections: A Contribution To Resolve A Policy Dilemma?'' Climate 
Change, September 1, 2006; see: http://downloads.heartland.org/
19632.pdf.
    \3\ And see: William B. Mills, ``Geoengineering Techniques To 
Mitigate Climate Change: From Futuristic To Down-To-Earth Approaches'', 
American Geophysical Union, Fall Meeting 2006, abstract #GC51A-0451, 
``Within the past several years, more and more scientists are 
questioning whether these techniques can be implemented on a global 
scale quickly enough to avoid dangerous anthropogenic climate change 
impacts. Further, some signatories to the Kyoto Protocol have already 
indicated they will not be able to meet their reductions of emissions 
by the agreed upon date of 2012, and in fact expect to increase their 
emissions. An important question becomes: Are there other mitigation 
techniques that could be used in a supplemental manner to help control 
anthropogenically-induced climate change should those techniques 
mentioned above fall short? In fact there are a variety of techniques 
that are commonly called geo-engineering methods'' http://
adsabs.harvard.edu/abs/2006AGUFMGC51A0451M.
    \4\ See, e.g., International Herald Tribune at http://www.iht.com/
articles/ap/2007/08/18/asia/AS-GEN-Australia-APEC-Emissions.php, 
documenting China's refusal to attempt an 80% reduction, and see, 
reports on the international agreement to go no further than adopting 
unenforceabale ``aspirational'' goals at http://www.theage.com.au/news/
national/move-to-lower-greenhouse-expectations/2007/08/17/
1186857774683.html.
---------------------------------------------------------------------------
    In this light, how do we protect the Bay and otherwise address the 
potential effects of global warming? In his influential law review 
article, Jay Michaelson suggests, ``We need an alternative to the 
policy myopia that sees emission reductions as the sole path to climate 
change abatement,'' and in particular we need to apply geo-engineering 
that can prevent global warming and reduce acidification of the 
oceans.\5\ Others agree. Alan Carlin, Senior Economist with the U.S. 
Environmental Protection Agency argues that geo-engineering is ``our 
best hope of coping with a changing world.'' \6\ It is our best hope 
because we have firm evidence it will work and because the developing 
world can afford this approach. As Ken Caldeira, a professor of climate 
science at Stanford University, explains, reducing greenhouse gases 
will cost around 2 percent of the gross domestic product while geo-
engineering (by putting reflective aerosols into the upper atmosphere) 
will cost about one-thousandth of that.\7\
---------------------------------------------------------------------------
    \5\ Jay Michaelson (JD Yale), ``Geoengineering: A Climate Change 
Manhattan Project'' Stanford Environmental Law Journal January, 1998, 
see, http://www.metatronics.net/lit/geo2.html#three
    \6\ Alan Carlin, ``Risky Gamble,'' Environmental Forum, 24(5): 42-
7, (September/October, 2007), see http://
carlineconomics.googlepages.com/CarlinEnvForum.pdf; and see: ``Global 
Climate Change Control: Is there a Better Strategy than Reducing 
Greenhouse Gas Emissions?'' University of Pennsylvania Law Review, June 
2007, see http://pennumbra.com/issues/articles/155-6/Carlin.pdf; 
``Implementation & Utilization of Geoengineering for Global Climate 
Change Control,'' Sustainable Development Law and Policy, Winter 2007 
see http: //Carlineconomics.googlepages.com/
CarlinSustainableDevelopment.pdf; and ``New Research Suggests that 
Emissions Reductions May Be a Risky and Very Expensive Way to Avoid 
Dangerous Global Climate Changes,'' http://yosemite.epa.gov/EE/epa/
eed.nsf/WPNumberNew/2007-07
    \7\ Ken Caldeira, Standford University, quoted in the Christian 
Science Monitor, see, http://www.csmonitor.com/2007/0329/p13s02-
sten.htm.
---------------------------------------------------------------------------
    Indeed, the IPCC \8\ and William D. Nordhaus, Sterling Professor of 
Economics at Yale University, agree that the price tag for preventing 
the effects of global warming with geo-engineering is so small as to be 
considered virtually ``costless''.\9\ More significantly, Professor 
Scott Barrett, Director of the Johns Hopkins University School of 
Advanced International Studies argues convincingly that because geo-
engineering is the only practical means to mitigate catastrophic 
climate change, and is a virtually costless means of doing so, use of 
this technology is inevitable and our task is to ensure we do it in a 
sensible, incremental and reasoned manner.\10\
---------------------------------------------------------------------------
    \8\ IPCC Climate Change 2001: Report of Working Group III: 
Mitigation ``It is unclear whether the cost of these novel scattering 
systems would be less than that of the older proposals, as is claimed 
by Teller et al. (1997), because although the system mass would be 
less, the scatterers may be much more costly to fabricate. However, it 
is unlikely that cost would play an important role in the decision to 
deploy such a system. Even if we accept the higher cost estimates of 
the NAS (1992) study, the cost may be very small compared to the cost 
of other mitigation options'' (citing to Schelling, 1996). See, http://
www.grida.no/climate/ipcc_tar/wg3/176.htm
    \9\ William D. Nordhaus, ``The Challenge of Global Warming: 
Economic Models and Environmental Policy'', Yale University, July 24, 
2007; see: http://nordhaus.econ.yale.edu/dice_mss_072407_all.pdf.
    \10\ Scott Barrett, ``The Incredible Economics Of Geoengineering'' 
Johns Hopkins University School of Advanced International Studies, 18 
March 2007, (in press, Environmental and Resource Economics).
---------------------------------------------------------------------------
    Thus, any investments in reducing greenhouse gases that would eat 
away at our existing investment in protecting and restoring the Bay 
would be the greatest threat to the Bay.
    Restoration of the Bay requires concerted efforts by local, state 
and federal governments, and funding from each. It also requires a 
vigorous, market-based application of advanced agricultural 
practices.\11\ Any threat to that funding or the nascent nutrients 
market is a threat to restoration of the Bay. To date, private and 
governmental action has done no more than prevent further Bay 
degradation in the face of growing populations. To achieve full 
restoration, this local-state-federal-private coalition must expand its 
current commitments. It will need significant and continuing federal 
and state funding, as well as an expansion of the means to trade 
nutrient reduction credits. If it receives this support, we can look 
forward to restoration of the Bay within the next 20 years. If not, we 
simply cannot. Thus, the greatest threat to this restoration is not 
global warming or climate change. Rather, as explained below, barring 
an earthquake, and in light of the inevitability of geo-engineering, 
the strategy of relying exclusively on reduction of greenhouse gases 
stands as the single greatest threat to restoration of the Bay. If we 
rely exclusively on reduction of greenhouse gases, and prevent use of 
geo-engineering, advocates for the Bay will get a smaller slice of a 
smaller pie and the Bay will disappear in the impending ocean rise.
---------------------------------------------------------------------------
    \11\ See, David W. Schnare, ``Only a Market Can Clean Up the Bay'', 
PERC Reports (June 2007) http://www.perc.org/
perc.php?subsection=5&id=887.
---------------------------------------------------------------------------
    The remainder of this testimony first explains the timescale of 
climate change and the inevitable use of geo-engineering. Thereafter 
you will find a discussion of the Chesapeake Bay, its origin and how we 
are working to preserve and further restore its vitality. Finally, the 
testimony concludes with a recommendation that this Committee take a 
leadership role in building a two-pronged attack on climate change--one 
relying on geo-engineering as a first response and cost-effective 
greenhouse gas reduction as a final response.
                   climate change and geo-engineering
    As the Committee knows, the international policy community defines 
the term climate change as human-caused changes in climate and 
geophysical processes. The current assumption is that, if we do 
nothing, greenhouse gases will cause further increases in global 
temperature that, in turn, will cause no less than seven irreversible 
geophysical events. Those events, in turn, will cause large increases 
in ocean levels and other undesirable outcomes.
    The seven (preventable) irreversible events reach their first 
``tipping point'' with melting of the Greenland ice sheet, an event 
that commences with a 1.2  to 2 C rise in global temperature and 
which, according to the IPCC (2007) may have already, albeit slowly 
begun. We must keep in mind, however, that complete melting of the ice 
sheet would cause a 7 meter ocean rise only after some 300 to 1,000 
years. This long melting timescale assumes CO<INF>2</INF> rises to 
nearly three times the current level (four times the pre-industrial 
level) and stays that high for a millennium. Notably, science marches 
on, and in February of this year, a report on the assumptions 
underlying these estimates indicate that the IPCC estimate of the rate 
of sea-level rise is 29 percent higher than the actual value, while 
another analysis suggests the timescale is smaller than the IPCC 
estimate.\12\ Thus, Greenland ice sheet melting may be more than 300 
years off.\13\ The other six events do not reach their tipping points 
until global temperatures increase by about 3  to 6 C and include: 
loss of the Amazon rainforest, melting of the West Antarctic Ice Sheet, 
loss of boreal forests, massive positive and negative rain and heat 
effects in the Sahara and Sahel, stoppage of the Atlantic ocean 
circulatory system, and increases in ENSO amplification, leading to 
large shifts in climate over important agricultural lands 
worldwide.\14\ The only event necessary to destroy the Bay is complete 
melting of the Greenland ice sheet.
---------------------------------------------------------------------------
    \12\ G. Woppelmann, et al., ``Geocentric sea-level trend estimates 
from GPS analyses at relevant tide gauges world-wide'', Global and 
Planetary Change 57 (2007) 396-4. But note, while not a specialist in 
glaciers and ice sheets, Jim Hansen (NASA) argues that by 2100 we could 
expect a five meter rise in ocean levels due to melting of the 
Greenland ice sheet. As argued by Barrett, the timescale estimate is 
irrelevant as a mere one foot increase in sea level will occasion the 
inevitable use of geo-engineering.
    \13\ G. Woppelmann, et al., ``Geocentric sea-level trend estimates 
from GPS analyses at relevant tide gauges world-wide'', Global and 
Planetary Change 57 (2007) 396-4.
    \14\ Timothy M. Lenton, ``Tipping Points or Gradual Climate 
Change?'', (<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="b6c298dad3d8c2d9d8f6c3d3d798d7d598c3dd">[email&#160;protected]</a>) School of Environmental Sciences, 
University of East Anglia, Norwich NR4 7TJ, UK
---------------------------------------------------------------------------
    If permitted to occur, the land surrounding the Bay would 
eventually flood and the Bay itself would become no more than a part of 
the continental shelf. Under this assumption, as the watershed slowly 
submerges, the Bay environs would lose habitat, ecological integrity 
and commercial and recreational value. Notably, as part of a new coast 
line, we would also gain habitat, evolve a new ecological system and 
gain new commercial and recreational opportunities. According to the 
IPCC (2007), the loss of existing shoreline would begin very slowly and 
inundation would not occur for 300 to 1,000 years. As discussed below, 
natural processes may cause a similar degree of flooding at any time 
and are more likely to occur than the predicted climate change.
    Increasing greenhouse gas levels may also cause a second 
undesirable effect, ocean acidification. Modeling of climate change 
acidification effects has not focused on the Bay or similar estuarial 
waters, particularly with regard to the types of organisms prevalent in 
or sought to be resurrected in the Bay and its freshwater tributaries. 
Geo-engineering can also address this problem, as seen in the liming 
activities long used in Scandinavia to prevent acidification of their 
fragile lakes.
    We have every reason to believe that neither of these climate 
change-related geo-physical effects will ever harm the Bay because, as 
Professor Barrett explains, some party will apply geo-engineering 
techniques that will prevent the warming and protect the commercial 
activities in the Bay. What, then, is geo-engineering?
                geo-engineering--the inevitable response
    In general, geo-engineering is the deliberate modification of large 
scale geophysical processes and, in the context of this testimony, that 
means by processes other than by limiting the atmospheric concentration 
of greenhouse gases. The first of the two most common examples cited is 
placement of reflective aerosols into the upper atmosphere in order to 
reflect incoming sunlight and thus reduce global temperature. The 
second is injecting iron into parts of the ocean in order to speed the 
growth of phytoplankton and thus sequester carbon. Similar techniques 
can be used to inject lime into the ocean and reduce near-coast water 
acidity, and thereby protect coral reefs and shellfish.
    You might think of geo-engineering as a human effort to replicate 
natural processes such as volcanic eruptions that inject large 
quantities of sulfates into the air and thereby shield the planet from 
sunlight. The eruption of Mount Pinatubo in the Philippines in 1991 
injected a significant amount of sulfur dioxide into the stratosphere, 
lowering the Earth's surface temperature by about 0.5 C the year 
following the eruption.\15\. Indeed, there have been many examples of 
intended and unintended geo-engineering, including some that have 
exacerbated warming. For example, when coal is burned, sulfate 
particles are thrown into the troposphere, thus limiting the amount 
that global temperatures rise due to carbon dioxide, something also 
produced when burning coal. But, the U.S. EPA has established 
regulations to limit the emission of sulfates into the atmosphere and 
by reducing emissions of these sulfate particles, U.S. EPA has 
inadvertently exacerbated global warming. In another example, jet 
aircraft routinely emit sun-blocking exhaust into the atmosphere.\16\
---------------------------------------------------------------------------
    \15\ Crutzen, P.J. (2006). ``Albedo Enhancement by Stratospheric 
Sulfur Injections: A Contribution to Resolve a Policy Dilemma?'' 
Climatic Change 77: 211-219. http://downloads.heart- land.org/
19632.pdf.
    \16\ Travis, D.J., A.M. Carleton, and R.G. Lauritsen (2002). 
``Contrails Reduce Daily Temperature Range.'' Nature 418: 601
---------------------------------------------------------------------------
    Scientists have been studying geo-engineering solutions for a 
considerable time. As early as 1996, the American Association for the 
Advancement of Science sponsored a symposium on the subject,\17\ and 
recent contributions are reaching substantial numbers.\18\ As discussed 
in the geo-engineering literature generally, because these techniques 
mimic natural phenomena, we know more about how quickly and well they 
work than we do about the efficacy of attempting to reduce greenhouse 
gases. We have measured the effects of the natural processes and can 
state with considerable certainty, bordering of complete certainty, 
that they will produce the result sought. Although the effects of 
greenhouse gas reduction would occur over a period of no less than 
decades and more likely centuries, the effects of geo-engineering can 
(and will) be manifest in a matter of weeks after application.\19\
---------------------------------------------------------------------------
    \17\ Six papers delivered at the AAAS symposium appear in Clim. 
Change, 33(3), July 1996, edited by G. Marland. They cover scientific, 
legal, technical, political and ethical questions. See, http://
www.gcrio.org/gccd/gcc-digest/1996/d96aug2.htm.
    \18\ See, for example, the citations in Crutzen (2006), Barrett 
(2007) and Carlin (2007b), cited in supra notes 14, 10 & 6, 
respectively.
    \19\ Wigley, T.M.L.. ``A Combined Mitigation/Geoengineering 
Approach to Climate Stabilization.'' Science 314: 452-454. (2006)
---------------------------------------------------------------------------
    The extremely low cost of geo-engineering allows many like Barrett 
to describe these techniques as economically ``incredible.'' Table 1 
shows that geo-engineering is not merely 200 to 2000 times less 
expensive, it prevents more damage than exclusive reliance on carbon 
control. Further, consider a risk not included in the $17 Billion worth 
of residual global warming damages shown in Table 1--the $10 Billion a 
year cost to the United States from UV-caused cancer that would be 
avoided using geo-engineering.\20\ In practical terms, the benefits to 
the United States, alone, and for UV-related cancer, alone, justify 
using geo-engineering--a gift to the world that would prevent some $5.2 
Trillion in global warming-caused damages.\21\
---------------------------------------------------------------------------
    \20\ Teller, E., Hyde, R., Ishikawa, M., Nuckolls, J., and Wood, L. 
``Active stabilization of climate: inexpensive, low risk, near-term 
options for preventing global warming and ice ages via technologically 
varied solar radiative forcing,'' Lawrence Livermore National Library, 
30 November, 2003.
    \21\ Nordhaus (2007) http://nordhaus.econ.yale.edu/
dice_mss_072407_all.pdf.


                                 Table 1
------------------------------------------------------------------------
                                                            Residual
                                      Total Present      (unprevented)
                                     Value Abatement    Global Warming-
                                       Cost  (2005      Related Damages
                                        $Billions)      (2005 $Billions)
------------------------------------------------------------------------
Exclusive Reliance on CO2
 Emissions Reductions:............
  (Nordhaus ``optimal'', 2007)....             $2,200            $17,000
Aerosol geo-engineering:
  (Nordhaus, 1994)................                $10                  0
  (Teller et al., 2003)...........               $1.2
------------------------------------------------------------------------


    Notably, geo-engineering has gone commercial. Planktos, Inc., for 
example, is a for-profit ecorestoration company based in San Francisco 
with offices in the European Union and British Columbia. Their primary 
focus is to restore damaged habitats in the ocean and on land. They 
inject iron into iron-deficient waters to induce large blooms of 
plankton. This helps sequester carbon and Planktos sells carbon 
sequestration credits on the various carbon markets.\22\ One must ask, 
if private geo-engineering to sequester carbon is already in play, can 
private geo-engineering to reduce global temperatures be far behind? 
Considering the potential harm from global warming, the potential 
regulatory costs associated with a greenhouse gas-based strategy and 
the relatively low cost of launching sunscreens, there is good reason 
to believe the inevitable use of geo-engineering to limit global 
temperature risk could occur in the private sector. This is a troubling 
concern many have discussed and on which this testimony touches in its 
final section.
---------------------------------------------------------------------------
    \22\ See, http://www.planktos.com/About/About.html
---------------------------------------------------------------------------
                 the chesapeake bay and its restoration
    The Chesapeake Bay is a relatively recent geo-physical development. 
It exists because of a meteor impact occurring 35 million years ago. 
The impact fractured the earth's mantle and created a depression that 
forced rivers to reverse their flows and cut paths into what is now the 
Bay estuary. But the Bay formed long thereafter. As late as 18,000 
years ago, the bay region was dry land; the last great ice sheet was at 
its maximum over North America, and sea level was about 200 meters 
lower than today. This sea level exposed the area that now is the bay 
bottom and the continental shelf. With sea level this low, the major 
east coast rivers had to cut narrow valleys across the region all the 
way to the shelf's edge. About 10,000 years ago, however, the ice 
sheets began to melt rapidly, causing sea level to rise and flood the 
shelf and the coastal river valleys. The flooded valleys became the 
Chesapeake Bay and the rivers of the Chesapeake region converged at a 
location directly over the buried crater.\23\
---------------------------------------------------------------------------
    \23\ C. Wylie Poag, U.S. Geological Survey, ``The Chesapeake Bay 
Bolide Impact: A New View of Coastal Plain Evolution'', July, 1, 1998. 
See: http://marine.usgs.gov/fact-sheets/fs49-98/.
---------------------------------------------------------------------------
    This ancient meteor created many faults that now cut through the 
sedimentary beds below the site of the impact, many of which lay no 
more than 10 meters below the bay floor. These faults are zones of 
crustal weakness and have the potential to suddenly collapse and thus 
flood large portions of land surrounding the Bay. In other words, we 
now confront natural and potentially cataclysmic coastal flooding we 
cannot prevent and in a timeframe we cannot predict.
    Rather than permit this inevitability to limit our economic 
interests in the Bay, we instead accept the risk and seek to preserve 
this ecosystem for as long as nature allows. On the geological clock, 
our interests reflect mere ticks of the second hand.
    We measure the timescale of Bay degradation and restoration in 
decades, not centuries or millennia. A mere 70 years ago, the Bay was 
the largest commercial fishing waters in the U.S. If restored, the Bay 
could produce $3 billion in commercial fishery revenues per year. It 
now produces less than $100 million. Overall, some suggest the fishing 
and recreational value of a bay at full ecological competence (assuming 
the ecology of the past) at more than a trillion dollars.\24\ Virginia, 
Maryland, Pennsylvania, the District of Columbia, the U.S. 
Environmental Protection Agency, and others, began their efforts to 
recover the ecological wealth of the Bay only 20 years ago. They have 
succeeded in preventing significant further deterioration despite large 
increases in population density and growth over the intervening years.
---------------------------------------------------------------------------
    \24\ Rebecca Hanmer, U.S. Environmental Protection Agency, 
``Chesapeake's value worth more than the sum of its parts'', see http:/
/www.bayjournal.com/article.cfm?article=2395.
---------------------------------------------------------------------------
    An entire array of local, state and federal regulatory programs now 
protect the Bay as an ecological, recreational and commercial resource. 
The size of the annual revenues generated within the private 
marketplace for Bay related activities from mere shore-side residence 
to recreational swimming and sailing and to commercial activities like 
fishing, all testify to our success in maintaining, and to some degree 
improving the quality of the Bay. Nevertheless, problems persist. The 
Bay suffers from two threats that the current regulatory programs have 
not resolved: the discharge of sediments and nutrients into the waters 
of the Bay's watershed. The sediments bury the life on the bottoms of 
rivers, deltas, and shorelines. These include the extremely important 
breeding grounds for mollusks and fish. As the name implies, nutrients, 
specifically nitrogen and phosphorus, provide essential ``food'' to 
algae and other small life forms that constitute the bottom of the food 
chain in the bay. Too many nutrients, however, and the algae can 
consume too much oxygen, thus forcing the top of the food chain (the 
fish) to other waters, and causing mollusks and fish hatchlings to fail 
to thrive and eventually die. Restoration will require reductions in 
both sediments and nutrients by two critical sectors on the watershed, 
municipalities and the agricultural community.
    Figure 1, below, shows the significant sources of the threats to 
the Bay and each source's potential to reduce discharges. As these 
charts show, all sources will have to participate in reducing nutrient 
loadings into the Bay. In some cases, municipalities simply will not be 
able to do their share, in part because they simply will not have the 
funds needed to build advanced water treatment facilities. If response 
to climate change empties the state and federal environmental purse, as 
would happen with current legislative proposals, then we will not only 
lose the battle to restore the Bay but will lose ground due to 
continuing population growth. Even with current funding levels, 
municipalities will not have the capacity to do their share. 
Fortunately, in Virginia, the state legislature has authorized a state 
nutrients bank that allows municipalities to pay others to reduce 
nutrients when they can not. In the main, those ``others'' are our 
agricultural community.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Reduction of nutrients from agricultural sources takes several 
forms, but controls on concentrated animal feeding operations (CAFOs) 
and ``never-till'' crop management seems the most promising. By leaving 
all but the harvestable grain in the field, by not tilling the field 
and by planting cover crops to hold nutrients and soil in place over 
the winter, this cropping technique has reduced nutrient and sediment 
runoff from those croplands by over 95 percent.\25\ Ten years ago 
farmers used these conservation tillage practices in only rare 
occasions. In Virginia today, farmers have nearly 15 percent of small 
grains and corn cropland in never-till management. To expand this 
number significantly will require a more robust nutrient market, 
increased technical agricultural assistance and further funding of 
transition to conservation tillage. Like municipal wastewater 
treatment, we will succeed in solving this problem only if response to 
climate change does not empty the state and federal environmental 
purse.
---------------------------------------------------------------------------
    \25\ See: http://www.charlescity.org/2rivers.php. There is a wealth 
of technical science on no-till and never-till cropping, as a browse 
through an internet search will access.
---------------------------------------------------------------------------
    With regard to sediment, again the agricultural community has the 
tools to resolve much of the problem. Conservation tillage holds 
sediments in the field, reducing sediment discharge by over 95%. 
Indeed, the nutrients adhere to the sediments and in particular the 
carbonaceous elements within the soil. Further, conservation tillage 
sequesters carbon in the soil. And, the farming community has already 
recognized the potential to reap carbon sequestration dollars through 
never-till farming.\26\
---------------------------------------------------------------------------
    \26\ See, http://www.ppionline.org/ppi--
ci.cfm?knlgAreaID=116&subsecID=900039&contentID=252026.
---------------------------------------------------------------------------
    At present, Iowa's Farm Bureau is currently providing services to 
allow farmers to participate in the carbon sequestration market.\27\ 
Notably, for every ten pounds of carbon sequestered through never-till 
practices, a pound of nitrogen (and an equivalent weight of phosphorus) 
is also sequestered in the soil.\28\
---------------------------------------------------------------------------
    \27\ See, http://www.iowafarmbureau.com/special/carbon/
default.aspx.
    \28\ Soil Organic Carbon Sequestration Rates by Tillage and Crop 
Rotation: A Global Data Analysis, see, http://cdiac.ornl.gov/programs/
CSEQ/terrestrial/westpost2002/westpost2002.pdf.
---------------------------------------------------------------------------
    In light of the financial interest the farming community has in 
carbon sequestration and the potential for large scale positive effects 
of conservation tillage on the water quality of the Bay, we believe Bay 
restoration should be considered an element of climate change 
mitigation, but recognize this opportunity will disappear if funding 
for both municipal and agricultural Bay restoration efforts evaporate.
    We further suggest that the timescale of Bay restoration stands in 
stark contrast to the timescale of climate change and the timescale of 
a response to climate change that relies exclusively on reduction of 
greenhouse gases.
    We recommend something else.
      global leadership on geo-engineering--an unmet national duty
    In light of the inevitable use of geo-engineering to prevent 
further global warming, this Committee may be well advised to follow 
Professor Sunstein's admonition to avoid the twin dangers of over-
reaction and apathy.\29\ So too would groups that have decided to 
bypass Congress and attempt to convince State governments to commit to 
policies relying exclusively on regulatory reduction of greenhouse 
gases.\30\ Sunstein recommends that Congress try to ameliorate, if not 
avoid, future catastrophes, by looking at the widest possible solution 
set, by rejecting preconceived notions and emotion-based argument, thus 
retaining our sanity as well as scarce financial resources that can be 
devoted to more constructive ends.
---------------------------------------------------------------------------
    \29\ Cass R. Sunstein, Karl N. Llewellyn Distinguished Service 
Professor of Jurisprudence, University of Chicago, Worst-Case 
Scenarios'', Harvard University Press (2007).
    \30\ The worst example of this narrow-minded approach was recently 
used in North Carolina and is on the hunt in many other states. One 
group (Center for Climate Strategies), funded by foundations committed 
to raising alarm about global warming, has used non-transparent, highly 
subjective and openly coercive methods to exclude discussions on 
alternatives to their preferred carbon-reduction strategy. Notably, 
this group has failed to provide your testifier the basis for their 
analysis or the assumptions they used in their analysis. They have 
failed to consider a policy of limiting action only to those efforts 
likely to reduce global warming. And, they refuse to estimate the 
effects their proposals on global warming. Groups such as CCS offer a 
false promise in light of the international rejection of greenhouse gas 
proposals required to prevent significant warming. See: http://
www.carolinajournal.com/exclusives/display--exclusive.html?id=4087
---------------------------------------------------------------------------
    Sunstein makes an important point on the need to remember we have 
goals other than carbon reduction. In this hearing you cannot fail to 
recognize that commitment to a remedy based exclusively on reduction of 
greenhouse gases would sacrifice our current commitment to restoration 
of the Bay. Having served on the staff of the Senate appropriation 
committee, I thoroughly understand the level of competition for federal 
dollars. I know you do too. As you consider how to respond to global 
warming, I ask that you keep in mind what programs you will cut in 
order to pay for what you propose. And keep in mind that use of geo-
engineering will pay for itself, while exclusive reliance on greenhouse 
reduction will not only fail to pay for itself, it will fail to prevent 
global warming.
    In light of Professor Sunstein's admonition, and the economic and 
fiscal realities of global warming, geo-engineering and alternatives 
thereto, the most sensible approach would be a mixed strategy of geo-
engineering to prevent further global warming and the effects of ocean 
acidification over the next century or two and vigorously developing a 
transition from carbon-based energy, to include research on scrubbing 
greenhouse gases from the atmosphere. Lacking this two-pronged attack, 
current legislative proposals must be considered what Sunstein calls 
``over-reaction'' or panic.
    We can make no more eloquent argument than that of Professor 
Barrett regarding what next this nation should do with regard to 
climate change, so this testimony ends by quoting his recommendation:

          Mitigating, forestalling, or averting global climate change 
        is a global public good. Supplying it by means of reducing 
        emissions is vulnerable to free riding. Too few countries are 
        likely to participate in such an effort, those that do 
        participate are likely to reduce their emissions by too little, 
        and even their efforts may be overwhelmed by trade leakage 
        (Barrett 2005). Geoengineering presents a very different set of 
        incentives. A single country can deploy a geoengineering 
        project on its own--and the economics of geoengineering are so 
        attractive that it seems likely that a country, or perhaps a 
        small group of countries, may want to try to do so at some 
        point in the future, especially should the worst fears about 
        climate change ever unfold.
          The challenge posed by geoengineering is not how to get 
        countries to do it. It is to address the fundamental question 
        of who should decide whether and how geoengineering should be 
        attempted--a problem of governance (Barrett 2007). Failure to 
        acknowledge the possibility of geoengineering may or may not 
        spur countries to reduce their emissions, but it will mean that 
        countries will be unrestrained should the day come when they 
        would want to experiment with this technology. This, to my 
        mind, is the greater danger.

    Madam Chairman, as this Committee demonstrates leadership in 
protecting the Chesapeake Bay while meeting its duty to help prevent 
catastrophic climate change, it should champion sensible, incremental, 
international geo-engineering, in addition to reasoned, cost-effective 
efforts to limit greenhouse gases.
    Because the Barrett and Carlin messages are of such paramount 
importance, I have attached hereto copies of their seminal papers. [The 
referenced document follows on page 109.]
                                 ______
                                 
Responses by David W. Schnare, Esq. Ph.D., to Additional Questions from 
                             Senator Inhofe
    Question 1. Can you expand on your testimony regarding the natural 
processes that may cause the flooding of the Chesapeake Bay and why you 
think that is more likely to occur than flooding from climate change?
    Response. The phrase ``flooding of the Chesapeake Bay'' has been 
used in an ambiguous manner. The concern about ``flooding'' reflects 
two different phenomena--ocean level rise and land subsidence. Thus, 
the question asks whether ocean level rise, presumably from global 
warming, is less or more likely to happen than land subsidence. Under 
either condition, coastal lands will be submerged--surely a 
considerable human and environmental loss. The likelihood of this 
occurring due to global warming and related ocean rise, however, is 
relatively small, considering our ability to prevent such warming, 
either through heroic reductions in CO<INF>2</INF> or through solar 
radiation management, a form of geo-engineering. Director of Johns 
Hopkins International Programs and graduate of the London School of 
Economics in Natural Resource Economics, Professor Scott Barrett 
explains that the cost of solar radiation management is so small, a 
mere billion dollars a year compared with tens of trillions per year 
for CO<INF>2</INF> reduction, that the use of this geo-engineering is 
inevitable. If the United States or some international body does not 
use the technology, some nation at great risk from flooding will. Thus, 
the likelihood of flooding of Bay tidal lands due to global warming is 
very small.
    Conversely, the likelihood of land subsidence from geological 
faults is not merely high, it is common. The lands around the Bay have 
seen twice the flooding as the rest of the world specifically because 
of this subsidence. Indeed, the area is overdue for an earthquake--one 
which will cause significant subsidence around the crater that created 
the lower portions of the Bay.
    Thus, flooding due to subsidence is certain to occur while the 
likelihood of flooding from global warming is unlikely.

    Question 2. Let's assume that greenhouse gases will cause 
temperatures to rise, why will current legislative and environmental 
organizations' proposal fail to prevent the catastrophes they claim 
will arise?
    Response. The IPCC has stated that a 2 C. rise in temperature will 
cause an irreversible loss of the Greenland Ice Sheet. The IPCC 
suggests that there is greater than a 90% chance that the globe will 
suffer this temperature if greenhouse gases reach levels equivalent to 
450 parts per million of CO<INF>2</INF>. According to Flannery, the 
IPCC has concluded that the GHG levels reached 455 CO<INF>2</INF>eq in 
2005 and continue to rise; and that the IPCC will announce that 
conclusion this fall. As such, absent some form of geo-engineering to 
reduce temperatures or scavenge CO<INF>2</INF> out of the atmosphere, 
it is too late to prevent melting of the Greenland Ice Sheet, and the 
planet will suffer a 23 foot rise in ocean levels. None of the 
legislative proposals direct research on or use of solar radiation 
management to prevent catastrophic melting of the Greenland ice sheet. 
Thus, the goal of environmental organizations and legislative proposals 
to stabilize CO<INF>2</INF> levels will fail to prevent ocean level 
rise of mammoth proportions.

    Question 3. Does geo-engineering make sense even if global warming 
is a natural phenomenon?
    Response. That depends on the associated risks and benefits of 
global warming as compared with using geo-engineering to stabilize 
planetary temperatures. A small increase in global temperatures appears 
to have net positive benefits for the world civilization and nature. A 
large temperature rise will cause massive geophysical change with 
equally massive net-adverse effects on world civilizations and massive 
upsets in nature.
    Regarding effects on human civilization due to warming and 
concomitant sea level rise, a single meter rise in ocean levels would 
flood one-third of Bangladesh and force the relocation of from 25 to 30 
million people. Similar effects would be felt in China at a two-meter 
rise in the ocean. A five foot rise in storm surge would incapacitate 
nearly all commercial harbors world-wide causing hundreds of trillions 
of dollars in damage. In light of these potential effects, a measured 
effort to stabilize global temperatures would be justified even if, for 
example, it caused small adverse effects such as minor drought in 
portions of the world. Current modeling of the potential adverse 
effects of solar radiation management, using high-tech particles to 
reflect the sun in only one wavelength and with no chemical reactivity 
in the upper atmosphere (stratosphere and troposphere), suggest no 
change in local climate (see Caldeira 2006).
    The reverse of the question is also of interest. Would it make 
sense to warm the planet, using solar radiation management, if we 
confronted a new ice age? Would it be sensible to stabilize 
temperatures to prevent loss of Chicago, Detroit, Seattle, and the rest 
of developed land north of the Mason Dixon line--worldwide? Again, the 
negatives would have to be very large to refuse use of solar radiation 
management.
    The appropriate approach to use of geo-engineering is to fund 
research on these tools now so that if they need to be deployed, we 
will have second or third generation technology on the shelf, rather 
than have to use unexamined proposals. For this reason, I have 
recommended directing $3.5 million toward research on solar radiation 
management (see my supplemental testimony which includes the geo-
engineering framework requested by Senator Mikulski), along with 
research on how to create a body to manage international coordination 
of geo-engineering activities to ensure measured, responsible and 
efficacious stabilization of possible global climate extremes.

    Senator Cardin. Thank you for your testimony.
    We will now hear from Pastor Richard Edmund, who is from 
the United Methodist Churches of Smith Island. As I mentioned 
earlier, Smith Island is the only inhabitable island in 
Maryland. It is on the Virginia-Maryland border, 225 sturdy 
people. Pastor Edmund is their spiritual leader and we thank 
him for that. We are pleased to hear from you.

STATEMENT OF RICHARD EDMUND, PASTOR, UNITED METHODIST CHURCHES 
                        OF SMITH ISLAND

    Pastor Edmund. All right. Thank you, Senator Cardin. It is 
an honor to be here, and also with Senator Mikulski, especially 
in light of the other distinguished panel members that came 
before me.
    My name is C. Richard Edmund. I am the Pastor of the three 
United Methodist Churches on Smith Island, Maryland. I am here 
to speak for Smith Island, the planet, future generations, and 
how I believe God wants humans to interact with creation. Smith 
Island is located across from the mouth of the Potomac River, 
surrounded by the waters of the Chesapeake Bay. Our population 
is about 225 people spread among the three communities of 
Ewell, Rhodes Point, which you can see in the photograph up 
there, and Tylerton.
    Because of our geographic location, we are certainly 
vulnerable to the effects of a rising sea level. Most of the 
dwellings are just a couple feet above an abnormally high tide 
or a storm surge from a hurricane. In 2003, Hurricane Isabel 
caused a storm surge which came into a few of the homes and 
covered most of the inhabitable land, and all of the marsh 
area.
    A rising sea level would accelerate the effects of erosion 
which threaten parts of the island. The recent work by this 
Committee and the corresponding members on the House side is 
greatly appreciated in including the Smith Island Project in 
the recently passed Water Resources Development Act. Thank you.
    Almost all the island families depend on harvesting from 
the water for their livelihood. The numbers of crabs and 
oysters are much less than earlier. Any climate changes caused 
by human activity can only diminish what God created and called 
good.
    While I have not been on the island long enough to observe 
possible climate changes myself, older residents tell me that, 
number one, some houses that never or rarely had water in their 
yards now often experience that inconvenience during extra high 
tides. Number two, we do not have the winter blizzards or 
freezes that is within the memory of many islanders. Now, most 
winters, the total snowfall is less than six inches.
    Number three, there is a wildlife presence now that didn't 
used to be there. The brown pelican is the largest example. 
They began settling this far north about a dozen years ago and 
now nest on the border with Virginia.
    The independent folks of our community have been toughened 
over time from dealing with the elements of nature. Despite the 
difficult times for watermen, residents are determined to stay 
until forced to leave by the economy or the environment. 
Twenty-five years ago, experts said we wouldn't be here in 25 
years. As one islander, Jennings Evans, summed it up, ``We will 
be here as long as the Lord wants us here.''
    But reports of potential sea level rises are daunting. I 
know both of you and others have been to Greenland recently and 
seen firsthand the beginning of large-scale meltdown. 
Predictions of a 20 foot to 23 foot sea level rise would affect 
many millions of people worldwide. A rise of three feet would 
likely be the end of practical living on Smith Island.
    A recent movie, which I was with at the premier with 
Congressman Gilchrest, was entitled ``We Are All Smith 
Islanders.'' It highlights that while our area is the oft-
referred-to canary in the coal mine, all of us are vulnerable 
in some way to any human-involved climate changes.
    In 1813, one of the future members of the Senate, Army 
General William Henry Harrison of Ohio, received a war report 
from Commodore Oliver Perry after the battle of Lake Erie: ``We 
have met the enemy and he is ours.'' For Earth Day in 1970, 
Walt Kelly changed one word in order to point out where the 
blame originates with our environmental problems. His cartoon 
character, Pogo, says: ``We have met the enemy and he is us.''
    I urge this Committee to strongly address this issue. It 
threatens our security, and I believe disrupts God's 
instructions to Adam and Eve to work the Garden of Eden and 
take care of it.
    On a kayak trip I took down the Susquehanna River, a man in 
Northern Pennsylvania asked me, ``Are they mad at us down 
there?'' He was wondering if the acid mine drainage, silt 
runoff, and other pollutants originating in the upper river 
area had upset those living around the Bay. The larger question 
is whether future generations downstream in time will be 
angered with us for not doing more to stem the changes that 
seem inevitable now.
    One of the reasons I feel good about being here today is 
that my daughter has brought my four oldest grandchildren, 
Bryn, Elisabeth, Brooke and Caroline here with me. I trust that 
part of my legacy to them will be that they will tell their 
grandchildren that in September of 2007 their great-great-
grandfather spoke to this Committee to address the issue of 
global warming and the long-term consequences. I want them to 
know that I did what I could. Members of this committee, I 
trust you will do the same.
    Thank you for the privilege of speaking.
    [The prepared statement of Pastor Edmund follows:]
    Statement of Richard Edmund, Pastor, United Methodist Churches, 
                            Smith Island, MD
    Thank you, Madam Chairman, and members of the Committee. My name is 
C. Richard Edmund and I am the pastor of the three United Methodist 
churches on Smith Island, Maryland.
    I'm here to speak for Smith Island, the planet, future generations, 
and how, I believe, God wants humans to interact with Creation.
    Smith Island, Maryland is located across from the mouth of the 
Potomac River surrounded by the waters of the Chesapeake Bay. Our 
population is about 225 people spread among the three communities of 
Ewell, Rhodes Point, and Tylerton.
    Because of our geographical location we are certainly vulnerable to 
the effects of a rising sea level. Most of the dwellings are just a 
couple of feet above an abnormally high tide or a storm surge from a 
hurricane. In 2003 Hurricane Isabel caused a storm surge which came 
into a few of the houses, and covered most of the inhabitable land, and 
all of the marsh area.
    A rising sea level will accelerate the effect of erosion which 
threatens parts of the Island. The recent work by this Committee and 
the corresponding members on the House side is greatly appreciated in 
including a Smith Island project in the recently passed Water Resources 
Development Act bill. Thank you!
    Almost all of the Island families depend on harvesting from the 
water for their livelihood, and the numbers of crabs and oysters are 
much less now than earlier. Any climate changes caused by human 
activity can only diminish what God created and called `good'.
    While I have not been on the Island long enough to observe possible 
climate changes myself, older residents tell me:
    1. Some houses that never or rarely had water in their yards now 
often experience that inconvenience during extra high tides.
    2. We do not have the winter blizzards or freezes that is within 
the memory of many Islanders. Now most winters the total snowfall is 
less than 6 inches.
    3. There is wildlife present now that didn't use to be there. The 
brown pelican began settling this far north about a dozen years ago and 
now nest on the border with Virginia.
    The independent folks of our communities have been toughened over 
time from dealing with the elements of nature. Despite difficult times 
for watermen, residents are determined to stay until forced to leave by 
the economy or the environment. Twenty five years ago, experts said we 
wouldn't be here in 25 years. As an Islander, Jennings Evans summed it 
up, ``We'll be here as long as the Lord wants us here''.
    But reports of potential sea level rises are daunting. I know 
several of you have been to Greenland recently and have seen first hand 
the beginning of a large scale meltdown. Predictions of a 20-23 foot 
sea level rise would affect many millions of people worldwide. A rise 
of three feet would likely be the end of practical living on Smith 
Island. A recent movie entitled, ``We Are All Smith Islanders'' 
highlights that while our area is the oft referred to ``canary in the 
coal mine'', all of us are vulnerable is some way to any human involved 
climate change.
    In 1813 one of the future members of the Senate, Army General 
William Henry Harrison of Ohio received a war report from Commodore 
Oliver Perry after the Battle of Lake Erie, ``We have met the enemy and 
he is ours''. For Earth Day 1970 Walt Kelly changed one word in order 
to point out where the blame originates with our environmental 
problems. His cartoon character Pogo says, ``We have met the enemy and 
he is us.''
    I urge this Committee to strongly address this issue which 
threatens our security and I believe disrupts God's instruction to Adam 
and Eve to ``work the Garden of Eden and take care of it''.
    On a kayak trip I took down the Susquehanna River a man in northern 
Pennsylvania asked me, ``Are they mad at us down there?'' He was 
wondering if the acid mine drainage, silt runoff and other pollutants 
originating in the upper River area had upset those living around the 
Bay.
    The larger question is whether future generations, downstream in 
time, will be angry with us for not doing more to stem the changes that 
seem inevitable now.
    One of the reasons I feel good about being here today is that my 
four oldest grandchildren, Bryn, Elisabeth, Brooke, and Caroline, are 
here with me, along with my daughters. I trust that part of my legacy 
for them will be that they will tell their grandchildren that in 
September of 2007 their great great grandfather spoke to this Committee 
to address the issue of global warming and the long term consequences. 
I want them to know that I did what I could. Members of this Committee, 
I trust you will do the same.
    Thank you for your time.
                                 ______
                                 
      Responses by Pastor Richard Edmund to Additional Questions 
                          from Senator Cardin
    Question 1. With a population of just 225 people and three 
churches, Smith Island must be home to people who really value their 
faith. You have spoken eloquently today about how faith sustains the 
people of Smith Island. Would you please take a few minutes more to 
talk about how your faith motivates you to be involved in issues such 
as this one, especially the role you see among people of faith and 
their stewardship responsibilities for God's creation?
    Response. A lot of my sense of responsibility for caring for God's 
creation comes from the book of Genesis. In chapter 2 verse 15 God 
instructs Adam to ``work and keep'' the Garden of Eden. Surely this is 
a guideline for the rest of our environment. While we have dominion 
over the earth, that doesn't mean we dominate and subject it to 
whatever purpose seems best for us for our immediate future.
    After the Flood God makes a covenant with Noah and his descendants 
never again to destroy the earth by a flood. In this passage in Genesis 
9, verses 9 and 10, God includes ``birds, livestock, and all the wild 
animals'' in this binding agreement. They are our partners in this 
covenant with God, and I believe we need to defend them against harm. 
There is Biblical support for this position in Proverbs 31:8-9 where we 
are told to ``speak up for those who cannot speak for themselves, . . . 
defend the rights of the poor and needy.'' While this is directed 
primarily toward other humans, I believe God would want us to defend 
His creation and our partners against harm due to our greed. Nature is 
often without defense from our modern machinery and waste products from 
power plants, homes and industry. It must please God that some are 
speaking up for the part of God's creation we are intentionally and 
unintentionally changing. As I said in my testimony, God called 
Creation good, and we can't make it better.
    We on Smith Island certainly use our share of energy and contribute 
to global warming, but I believe that folks like watermen and farmers 
who work with nature have a greater appreciation for being good 
stewards of God's creation. It is their faith in God and what I see as 
my responsibility to them, and the rest of the world, that helps form 
my faith response on this issue of global warming.

    Question 2. In your testimony you relate a wonderful story about a 
conversation you had with someone who lived `up-watershed' in 
Pennsylvania who expected criticism for the pollution that was making 
its way down into the Chesapeake. Your gracious answer to him was a 
good lesson to all of us about finding solutions, not assigning blame. 
But I want to focus on the challenge that you then issued to all of us. 
You say that we need to answer the challenge of those who live not just 
downstream today, but those who live in downstream generations. I 
agree. Would you take a moment to talk about the responsibility we have 
to future generations to address climate change today?
    Response. Many Native American tribes traditionally considered how 
their actions would affect those who came after them for seven 
generations. There is a statue dedicated to this thought on the banks 
of the Susquehanna River which provides one-half of the fresh water 
flowing into the Chesapeake Bay. It was further upriver from that point 
that the question was asked about responsibility for what has happened 
to the Bay and beyond. I have a feeling that those in the generations 
to follow ours will wonder ``What were they thinking?'' when those in 
positions to make a difference stood by and watched as pollutants in 
many forms poured into our air, land and water and did little or 
nothing to stop the effects with which they will then have to contend.
    As a heavily loaded train or a large ship takes a long distance to 
slow down and stop, the earth changes we seem to have initiated will 
take many years and maybe generations to slow down. It is an almost 
complete unknown what will really happen after we are gone. The wildly 
differing estimates of sea level rise attest to that factor in the 
equation of global change. But each little step will help and we can't 
be intimidated by the enormity of the problem.
    A couple years ago I testified for the Maryland legislature about 
why power plants should restrict their emissions into the atmosphere. 
In addition to the Senate hearing where I was very honored to speak to 
this issue of global warming, I will share that with my children and 
grandchildren, and I trust they will pass along to their children in 
turn, that I did try to help stem what seems like a runaway train that 
they will have to figure out how to stop, or how to live with the 
consequences. We all can do more to stem the changes that will 
inevitably come, but our legacy to those who come along after we are 
gone, should be that we tried to make a difference.

    Senator Cardin. Thank you for your testimony. We welcome 
your family. I think it is a fitting conclusion to this panel, 
and tells us the responsibility that all of us have in trying 
to get the Federal policies correct.
    We will start the questioning with Senator Mikulski.
    Senator Mikulski. First of all, I just want to thank every 
member of the panel for not only their contribution to this 
hearing, but what you do every day in terms of the vitality of 
the Bay, in terms of what you bring to the table, whether it is 
scientific commentary, pastoral stewardship, or advocacy.
    Dr. Schnare, thank you very much for bringing the geo-
engineering information. We will come back to it in time, but I 
would just invite you, if you have a framework that you would 
like to bring to my committee's attention, we would welcome 
this, because I think it will be a topic that will move on the 
global screen. I have questions and yellow lights about it. But 
rather than us giving our opinions about it, let's go beyond 
opinion and go to sound data and research, which is what we 
have been talking about here today.
    Dr. Schnare. I would be happy to do that.
    Senator Mikulski. I believe that anything dealing with 
global warming, and any changes, has to deal with, number one, 
the right diagnosis and the right prescription. Then you need 
the political will. Political will will only come if people 
think they are affected.
    Now, Pastor Edmund, when I hear your testimony and look at 
the fact that there are now only 225 people on Smith Island, 
when it used to have a much larger population, the fact that 
people leave the island every day to commute into Crisfield, 
taking jobs, for example, at the prison so that they could have 
health care and a reliable revenue stream, while the men are 
kind of foraging for crabs.
    My question to you, and I know you have been part of a 
covenant approach, et cetera, tell me why are so many people 
leaving the island now on a permanent basis?
    Pastor Edmund. It is complicated to answer, as global 
warming is. Some of them leave because it is a difficult 
situation for their young people to commute back and forth each 
day to school. It is a one hour boat ride each way, and if they 
want to be involved in sports activities and other activities.
    Senator Mikulski. Let's go to the economics. Is it the fact 
that there is a decline in oysters, or what?
    Pastor Edmund. There are certainly many of the younger 
people that are not deciding to get into the watermen industry. 
It is a big output financially to do that. The future doesn't 
hold strong for a good harvest from the crabs or the oysters, 
so some people are leaving for that reason. Some people are 
going and working on barges and tugs. Quite a few people do 
that for the consistent income and also for the benefits 
provided, because of the difficulty to continue crabbing.
    Senator Mikulski. So two things: No. 1, the concern about 
reliable income; and No. 2, reliable income is usually based on 
the way they earn their living, and the way they earn their 
living was off primarily crabbing and oysters. Isn't that 
right?
    Pastor Edmund. Yes. I would say maybe 90 percent of the 
income for just people living on the island comes from the 
watermen business.
    Senator Mikulski. Let's go to you, Dr. Boesch. The Wildlife 
Federation put out this report, and we welcome it. But how long 
have you been studying the Bay?
    Pastor Boesch. A little over 25 years.
    Senator Mikulski. Twenty-five years, and you have 
everything from peer measurements that go back 100 years, to 
your own research team. Now, in this report, as Senator Cardin 
has raised, oysters and crabs are part of our identity. They 
are also an important part of our economy, and we know that 
just if we look at watermen alone, let alone the multiplier 
part, we are talking about what was once thousands of people.
    So here is my question. Given temperature rise, the change 
in chemical composition possibly, as a colleague mentioned, 
what now are there indications will happen to crabs and 
oysters, say, in the next--let's take crabs and then go to 
oysters--over the next 5 years? Not the worst case scenario, 
but a mid-case scenario. And where do you think we will be in, 
say, 5 years or 10 years if current trend lines continue?
    Pastor Boesch. Well, of course the predictions are 
difficult, particularly, as they say, about the future. So it 
is hard to draw firm conclusions. However, we can look at the 
things that we think are the most likely to happen as the Bay 
continues to warm, and sea levels continue to rise. The threats 
to those two resources are primarily these.
    First of all, juvenile crabs, depend on the Zostera or 
eelgrass beds in the lower bay that we have talked about. Just 
2 years ago, we almost lost them. At the end of a very warm 
summer, populations were down to a very low level. Young crabs 
also depend on tidal marshes, which are very much in jeopardy 
as sea level rise accelerates. So for crabs, the habitat losses 
are a really critical problem. The prognosis doesn't seem to be 
promising. We won't lose crabs altogether, but the number and 
productivity of blue crabs will probably be diminished.
    Second, with respect to oysters, as the Bay deepens as sea 
level rises, more ocean water coming into the Bay. If there is 
a fixed amount of fresh water coming in from the rivers, this 
means the salinity lines move up in the Bay. As you know, 
Senator, that is really a serious problem for oysters because 
of the oyster diseases which are controlled by salinity. So as 
salinity increases, the diseases will progress farther up the 
Bay.
    Senator Mikulski. So is it conceivable that the economy 
that we know, that if we were sitting at one of our famous crab 
houses, and I won't mention them by name. It is like saying who 
is your favorite child. But if we were sitting in one of the 
crab houses in Maryland, it is conceivable--
    Senator Warner. Or Virginia.
    Senator Mikulski. Or Virginia.
    Senator Warner. Thank you.
    Senator Mikulski. You know, we still haven't had that 
crabcake cook-off that you challenged me with.
    [Laughter.]
    Senator Mikulski. But the fact is that we could look to 
more and more importing because we cannot meet the demand now. 
Is that right?
    Mr. Boesch. That is correct. As you know, Senator, that is 
happening now with the importation of both oysters and crabs to 
meet the local and regional demand.
    Senator Mikulski. Which would be a decline of our economy 
and our whole way of life. I mean, the watermen.
    Now, let's, if I could just turn from my last question, to 
Will Baker. Will, and all the panelists, do you remember when 
Isabel hit and we had the surge in the Bay and the water came 
up. In my mind, we got a taste of what rising sea level would 
mean. It was temporary, but it was devastating. Will, take me 
on a tour down the Bay, starting at Crisfield and ending in 
Baltimore. As you see the temperature rise, what would you say 
is the impact, just physically, on Crisfield, Hoopers, 
Annapolis, and Baltimore?
    Mr. Baker. Well, Senator, we released a climate change 
report this summer. On the cover is a picture of downtown 
Annapolis during Hurricane Isabel. I think that picture speaks 
1,000 words. That is what you are going to see in Crisfield and 
Hoopers Island and St. Michaels and all the way up into 
Baltimore, is streets flooded, resources flooded, economic 
damage. I think it is critical.
    You mentioned the farmers. It certainly impacts there. With 
greater storms and runoff and erosion, you are going to have 
more sediment loads in the Bay. So I would add that to what Dr. 
Boesch said is an impact.
    Senator Mikulski. And agricultural legacy issues, in other 
words, no matter what you have been able to work out 
constructively with agriculture and poultry, what will run off 
will not be pristine topsoil.
    Mr. Baker. There is no question. We could face severe 
economic, environmental, recreational, human health issues.
    Senator Mikulski. But if we picture Hoopers Island, that 
would probably go under water.
    Mr. Baker. The islands of the Bay are already disappearing, 
and you would see that accelerate and probably come to a 
conclusion in our lifetimes.
    Senator Mikulski. Now, let's picture Annapolis, from the 
Naval Academy to Main Street. During Isabel, it just flooded 
out. We had $42 million worth of damage at the Naval Academy. 
It flooded out the entire power plant at the Naval Academy, and 
classes had to be moved to a variety of other settings, just as 
an example.
    Can you describe what Annapolis would look like?
    Mr. Baker. Absolutely. That is what you would see more of. 
Fells Point, your hometown, underwater. So there is human, 
economic, and environmental health impacts from all of this.
    Senator Mikulski. Well, I will stop with my questions.
    Senator Cardin, do you remember how you, both as a House 
member and in the General Assembly, remember how we had to deal 
with beach erosion in Ocean City? So we had to deal with a lot 
of remedial work. It seems to me we have to look ahead to, if 
global warming is so, and water will rise, not at the draconian 
rate of say 20 feet, but 2 feet, then they are not going to be 
able to get insurance for their buildings; being able to pull 
back from the water. I don't know how you pull back the Naval 
Academy. I really don't. And all that has been around it would 
be significant.
    When you think of Baltimore, what would run off into the 
Bay, because you have agricultural legacy, but we have 
industrial legacy that could cause significant pollution. But 
there would be no remediation to protect our land resources.
    So I will stop now, because to me the best prevention will 
be working internationally, and of course, our own national 
solutions with Governors. But again, I am going to stop. We 
really want to thank you. I am sorry I couldn't ask each and 
every one of you a question.
    Senator Cardin. Senator Mikulski, thank you. As I pointed 
out, AllState already has stopped insuring, and many of the 
insurance companies. If you live in the coastal areas, it is 
tough to get insurance today because the insurance companies 
understand the risk, not only the risk from sea level change, 
but it is climate change. They understand that. They understand 
that they are not willing to risk their financial investments. 
It is causing real hardships for people who live in coastal 
areas.
    The chart that we brought here shows a one meter, the red 
is a one meter increase in sea level. Dr. Boesch indicated two 
to four feet would be what you could reasonably anticipate. So 
that would be about the average increase, but then red would be 
under water. So it gives you an indication of the serious 
threat this region has from sea level change increases.
    Senator Warner.
    Senator Warner. Thank you, Mr. Chairman.
    A question for Mr. Baker. The environmental bill that 
Senator Lieberman and I are working on does have a provision 
for the Bay. As a matter of fact, there is quite a liberal 
provision in there for distribution of funds to the interests 
of fishermen, trout streams. We have a lot of environmental 
funding streams going out. But let's assume we have a block of 
money, and it does pass through for the Bay, what are the 
mechanisms by which we get it down into the proper priorities 
for the Bay? Congress can't be expected to know the details to 
make that assessment.
    Should we sort of divide the money between the several 
States that are surrounding the Bay? It may be somewhat 
disproportionate for Maryland and Virginia, given that their 
shorelines consume a good deal of it. How would you go about 
the mechanism by which we--the conduit for the money to the Bay 
form the cap and trade proposal now under consideration?
    Mr. Baker. The good news, Senator, is that thanks to 
scientists here today, Dr. Boesch, Dr. Pyke and certainly all 
those behind them, the science is very precise in terms of how 
the money could be spent most effectively. I will just touch on 
one area that I mentioned in my testimony which has benefits 
also for global climate change because it sequesters carbon.
    To use some of this money to help the farmers put the best 
management practices on their land, that have proven to be the 
most cost-effective way to reduce a pound of nitrogen from 
coming into the Chesapeake Bay, just to take that one 
pollutant, seems to me the place where now much of the focus 
should be.
    Thanks to the good work in the Commonwealth and in the 
State of Maryland, we have come a long way towards addressing 
sewage treatment plant upgrades to the state of technology. But 
now we need to turn to the agricultural sector. They are 
meeting us more than half way. They want to do what is right. 
They want to invest their own money, but they need assistance.
    There are numerous mechanisms whereby those decisions can 
be made to get the money to the most effective areas in keeping 
with science.
    Senator Warner. Well, is it better to say to the State of 
Virginia and Maryland, ``Here is the money; you go back and 
direct how your farmers do it, not the Federal Government.'' If 
I might draw on a modest bit of experience. I spent many of my 
summers as a boy on farms growing up, back in the days when we 
didn't have many tractors. They are all big dray horses we 
used. And I then owned quite a few farms in my lifetime. So I 
have always been interested in it.
    Farmers are very independent. When you step on their land, 
that is their sovereign territory. Now, it doesn't take a 
genius to figure out that when you are plowing, you expose the 
soil, but you have to do it--although we do more sod planting 
now--but plowing exposes a very dangerous time for the drain-
off. But you can plug up the tributaries and so forth it drains 
off into.
    I don't see why it takes so much money to try and help the 
farmers do what seems to me is obvious to them. They have 
farmed that land and their forefathers in most instances have 
farmed it, too.
    Mr. Baker. Well, I think it is competing----
    Senator Warner. It's not rocket science, is it?
    Mr. Baker. I think it is competing in a world economy that 
is trying to get more and more production out of the same acre 
of land.
    Senator Warner. I agree with that.
    Mr. Baker. We see that happening all the time in terms of 
the intensity with which land is farmed now, dramatically 
increased even for the last 40 or 50 years, so more 
fertilizers, more herbicides, more intense croppings. I think 
that is really at the root of why it is so much more difficult 
today than it may have been in the past.
    Senator Warner. Any other suggestions? I think you are well 
taken and you are correct about the advancement in science in 
trying to take less and less tillage land and put it to good 
use.
    Dr. Schnare. Senator, the Thomas Jefferson Institute has 
been working very hard to try and find ways to encourage 
farmers to transition to never-till farming. We don't begin to 
take responsibility for what has happened, but we are very 
pleased to report what has happened. As recently as 5 years 
ago, fewer than 80,000 acres in Virginia were in the mix. It is 
now up to about 150,000 acres out of 1.1 million. You can 
reduce nutrients by 90 percent by using these advanced 
techniques.
    Senator Warner. You mean nutrients escaping from the 
farmland?
    Dr. Schnare. Exactly.
    Senator Warner. You don't have the streams and tributaries 
feeding into the----
    Dr. Schnare. Yes, sir. Exactly that. But what we found it 
takes, because farmers make money doing this, it is to their 
benefit to do it, it is rocket science. It is a difficult 
change in farming, and we found, and have worked very hard, for 
one, I am pleased that the State legislature acceded to this, 
to increase funding to the technical experts in the State Farm 
Bureaus and the like, who can be the agents of change to help 
farmers transition. They haven't done it immediately, but it is 
growing. The number one most productive corn farmer in the 
United States has been doing never-till farming for over 15 
years.
    Senator Warner. You mean sod planting?
    Dr. Schnare. No, Senator, I mean corn production Virginia.
    Senator Warner. No-till.
    Mr. Schnare. He doesn't even use winter cover crop at this 
point.
    Senator Warner. Is that right?
    Mr. Schnare. He is right on the Rappahannock. He is a 
remarkably good farmer and he is a model for the entire State. 
We are going to encourage more and more of that. That is why we 
work with the Chesapeake Bay Foundation and others to try to 
bring these methods forward over the last several years.
    But keep in mind, and this is important to understand, 
regardless of how we get them the money, we have a short-term 
problem as well as a long-term problem. The short-term problem 
is the foot or two ocean rise. The second problem is the many 
feet ocean rise. They are two different kinds of problems.
    I extend again the opportunity to inform you, as Senator 
Mikulski has asked us to do, to talk about geo-engineering, 
which will address these, some in the short term and some in 
the long term. Those are not State challenges. Those will have 
to be Federal and international.
    Senator Warner. I appreciate that testimony, and I may have 
been a little off the mark on that. I accept your answer as 
being the correct one, that there is a measure of rocket 
science in this and we have to help our farmers learn it.
    Could I have one more quick question? A little bit of 
philosophical approach to this whole subject of climate change. 
I am a relative newcomer. I have been on this committee I think 
20 odd years now, but we have really come into focus on this 
issue. I have teamed up, and I am ready to step out and take 
risks and politics be darned. We are going to try and drive 
this bill through.
    But in fairness to other colleagues on this Committee and 
throughout the Senate, there is still a lot of question marks 
about global climate change, is it real, what are the unknowns. 
I mean, it caught my attention when Mr. Boesch, his opening 
statement, very well drafted, and I will repeat it: ``Chairman 
Boxer, members of the Committee, I am Don Boesch. I am pleased 
to appear before you today to address what is known.'' That is 
the key phrase, ``what is known about the impacts of global 
climate change.''
    Now, any bill like cap and trade is secretly reaching into 
the pockets of Mr. and Mrs. America, the working people. There 
is nothing that is of greater value next to a man's home and 
his family, than his car. And that is becoming a more costly 
means of transportation because of fuel costs. Every home has 
got to go through a measure of heating or cooling, as the case 
may be, during various times of the year.
    These costs are going to begin to creep, and the public I 
think is going to say, ``OK, let's give it a chance; I will 
continue to pay.'' But if we try and push too far in our 
initial charge forward on this issue, and we overstep 
technology and overstep what we know and how to go about 
correcting it, I think the public might rebel and we will all 
pull back and then have to start again, and I don't know when 
we would get the momentum to start again.
    So I do it with a measure of caution. No matter how 
committed you are individually, and I am and certain members of 
this committee, there are those who way to say let's go at a 
pace where we are secure, and then consolidate our gains, and 
then move ahead again.
    Now, it is clear that we have to put down some very strong 
markers. We can't go about this thing half-hearted. But 
whatever we do, let's go at it with a full heart, but only try 
and gain that amount of ground in our first charge out of the 
trenches and over the top into the face of the unknown, and 
then consolidate and then do it again.
    Just philosophically, do you all share that? Or do you have 
a difference of views? Let's just start at your end and go the 
other way for a change.
    Pastor Edmund. Well, we certainly want to be correct in 
what we are doing. It is a fine line as to whether we delay 
long enough to make 100 percent certainty as to whether this 
climate change is actually going to occur. Of if we wait too 
long, and then it is so much of a larger job ahead of us.
    But I think if we apply reasonable measures, it is better 
to err on the side of caution. We certainly for a couple 
centuries now have been putting a lot of pollutants into the 
air that have to have some sort of effect, I believe, on the 
climate in the long run.
    Senator Warner. I agree with you. I am willing to take a 
measure of risk, not concerning my political risk or anything 
like that.
    Pastor Edmund. Right.
    Senator Warner. Take a measure of risk, but we just want to 
capture that high ground that we can take based on some pretty 
solid data as to the effects of climate change and the degree 
to which technology and modern science can put in corrective 
measures.
    Mr. Schnare. Thank you, Senator. I think the question of 
incremental approaches crashes on the rocks of the time scales 
with which we are operating. If we are to prevent 550 parts per 
million of CO<INF>2</INF> in our atmosphere, which is 
considered the point at which we hit the first tipping point, 
the inevitable full melting of the Greenland ice sheet, some 
argue, including Nobel laureate Paul Crutzen, that it is 
already too late, and that any attempt to prevent that is 
nothing more than, in his words, ``a pious hope.''
    If what I am hearing from you is that the 80 percent 
reduction needed worldwide is too much of a first step, and 
since China and India refuse to do it, it probably is, then I 
think what you have to examine is what can we do--we know there 
are acute things to do for the first 20 years. We know they are 
affordable. But they will not solve the initial problem. We are 
going to need a couple of centuries to move away from carbon-
based fuel, which is why I have raised to the Committee this 
concern about geo-engineering, that someone will use, but which 
is not now being managed or even contemplated on how we would 
manage this process.
    Senator Warner. Well, I don't mean to be half-hearted, but 
just philosophically I will take into consideration your views.
    Mr. Avery.
    Mr. Avery. The correlation between our temperature record 
over the last 150 years with CO<INF>2</INF> is very, very weak. 
The correlation with the sun spot index is very, very strong. I 
think that, with all due respect to the power of the Congress, 
you are headed for enormous anguish, frustration and misspent 
capital in this effort to reduce greenhouse gas emissions. It 
will not halt the temperature cycle.
    Mr. Boesch. Well, first the good news. We have a good 
starting point, because I think we have all agreed, despite the 
difference of perspectives, that the world is warming. So let's 
get on beyond that discussion and figure out how much of the 
warming is due to humankind, and how much is due to natural 
cycles.
    The fact of the matter is that we have added greenhouse 
gases into the atmosphere over the last 30 years that warmed 
the earth 10 times more than the variation in the solar energy 
reaching the earth. So although Mr. Avery indicated that the 
solar activity does affect our climate, we are going to a new 
era beyond that. We are already in a warm period and we are now 
taking it outside of what the earth has seen over hundreds of 
thousands of years.
    So I would agree that time is not on our side. We do need 
to make some positive commitments and actions, but we don't 
have all the solutions in hand. Whether it is geo-engineering 
or carbon sequestration, all of these things are going to take 
time and investment.
    However, another point that Dr. Schnare made, is that there 
are lots of things that we can do now to sort of reverse the 
upward growth in emissions and then reduce them. That is why 
States have formed climate commissions, including the one 
Governor O'Malley talked about, that are developing goals from 
a State perspective. The States are setting 2020 goals for 
emissions reductions, something that we could actually begin to 
strive to achieve specifically. What they are concluding is 
that once you look at it, it is feasible to return to levels of 
emissions that were present in 1990.
    Guess what? This fear that it is going to bankrupt us, we 
can't afford it, goes away when you start to look at ways to 
achieve these goals. The State of Arizona recently completed 
its plan. The State of Arizona is one of the fastest growing 
States in the Nation and Lord knows, it has huge demands for 
air conditioning. It estimated that it could reduce its 
greenhouse gas emissions back to 1990 levels even with all of 
its growth and economic development, and actually save for 
their economy $5.5 billion--not cost, but save. There are up-
front investments. There are investments that have to be made 
in terms of alternative energy sources. But most of the other 
things we can do actually benefit our economy and benefit 
families, because they reduce energy consumption.
    Senator Warner. The point is well taken. I didn't mean to 
consume time. I think I hit sort of an interesting note.
    Senator Cardin. No, no, I want to give you the chance for 
the last two to respond. I think it is a very important 
question.
    Senator Warner. Let's do that.
    Senator Cardin. Because we need to figure out what is the 
practical way we can get this accomplished.
    Senator Warner. That is correct.
    Mr. Pyke. Thank you. I will try to answer very succinctly.
    One, emissions choices make a difference. That is 
important. Two, wearing one hat, part of my professional life 
is in the building sector. It is an industry that is 
transforming itself to meet higher levels of performance. This 
not so much about cost as it is about fixing a fragmented and 
complicated industry. That is something we can do and we can 
all profit from in various ways.
    The third and more important issue, or equally important 
issue, is that a lot of the things we talked about with regard 
to the Bay are process improvements. This is about electing to 
make a different decision in how we are managing our resources. 
As Dr. Boesch had said, we are looking at changing conditions. 
Thus, it is irresponsible to carry out our responsibilities as 
if climate wasn't changing. And so as we carry out the Clean 
Water Act, as we carry out the Endangered Species Act, as we 
look at NEPA, those are situations where it is now responsible. 
The standard of care is shifting so that we should ask our 
agencies to include that in their decisionmaking process 
explicitly. That can be done immediately.
    Senator Warner. Good.
    Mr. Baker. I truly believe the costs will actually come 
down to the general public. In the Chesapeake Bay Foundation's 
energy efficient building, for instance, we are saving $75,000 
a year in energy costs. So I think conservation of energy is a 
great cost saving.
    Senator Warner. I agree.
    Mr. Baker. But secondly, maybe here is the philosophical 
part, let's accept for a moment that global warming is not 
going to happen. And then let's look at all the strategies that 
have been put forward to address global warming. All of them 
make great environmental sense even if they are not to address 
global warming. I will just cite my friend Jim Woolsey, who is 
such an advocate for energy conservation. His motivation is 
because he believes global warming is real, but also energy 
independence for this Country and the great benefit that is to 
national security.
    So there are lots of other benefits of the strategies we 
have all been talking about beyond global warming.
    Senator Warner. I share your admiration for Jim Woolsey.
    I thank the Chair. I thank my colleagues. What an excellent 
hearing we have had this morning.
    Senator Cardin. Senator Warner, thank you. I think the last 
point that Mr. Baker made is that there is more unity in this 
issue than one might expect, for different reasons. I think 
there is a strong need for the environmental issues, including 
the Chesapeake Bay, but also national security on energy 
independence, and also economic issues because we can save a 
lot of money for our economy.
    Following up with what Dr. Boesch said, there is agreement, 
I think consensus, that we are getting warmer, and warmer is 
not good for the health of the Chesapeake Bay region. Whether 
it has to do with the warmer waters, which is affecting the 
life on Smith Island because it affects the watermen's 
livelihood, or whether it affects people who want to live here 
because they want to go out on the weekend and catch rockfish, 
which might not be here in the future if we are not careful as 
to what happens with the warming of the Chesapeake Bay, whether 
it is sea level increases, which certainly is having an impact 
on the life of this entire region, or whether it is storm 
conditions which bring us more unpredictable weather, which is 
affecting the ability not only to get insurance, but the safety 
of your family.
    These are all issues that I think we need to deal with. I 
do think that there is also general agreement with what Dr. 
Boesch said, and that is, sure, we go through cycles of 
warming, but there is normally stability in those cycles. And 
then in the last 50 years, we have seen something somewhat 
dramatic as to what has happened. Although there may be some 
argument as to what impact the greenhouse gases have on that, 
it has been the major variable over the last 50 years, the 
amount of emissions of greenhouse gases. So it is something 
that is a major concern as to how we are going to figure out 
what is right for the Chesapeake Bay and our environment, but 
also what is right for our energy policy in this Country.
    I think Senator Warner's point about coming up with a 
practical solution is important. It is not only important from 
the point of view of getting a bill passed in the Congress and 
signed by the President, but we need also to be credible for 
international leadership. The United States has to get back in 
the game. We do need to be able to exercise international 
leadership as it relates to what is happening in China and 
India and other countries because obviously that has an impact 
on what we are doing.
    So I think these are all interrelated, but clearly the 
people in the Chesapeake Bay region are directly affected by 
these policies.
    I thank all of you for the manner in which you have made 
your presentations today. I agree with Chairman Boxer, I think 
this has been a very, very important hearing for all of us who 
are trying to do what we can to preserve a way of life for the 
people of this region. And to Pastor Edmund, I will conclude 
with you. Your grandchildren should be very proud of what you 
are doing. On a typical Sunday, you should know that Pastor 
Edmund needs to use a golf cart and a boat in order to get to 
the three churches on Smith Island in order to provide the 
spiritual leadership to that community, which is just an 
inspiration to all of us.
    We thank you very much for all of you being here. We look 
forward to working with you.
    The Committee will keep the record open for one week.
    If there is nothing further?
    Senator Mikulski. Mr. Chairman, Acting Chairman, I would 
like to just thank again everyone who participated, and all the 
hard work that went into it.
    What I would like to just comment is that I was very 
pleased that maybe I have had a modest impact on public policy 
by my presence. But I have obviously helped you move up and in 
2\1/2\ hours become Chairman.
    [Laughter.]
    Senator Mikulski. We have had a good day. Thank you very 
much.
    Senator Cardin. Maryland is in a good position right now.
    Senator Mikulski. As Louis Goldstein would say, ``God bless 
you all real good.''
    Senator Cardin. The Committee will stand adjourned. Thank 
you all.
    [Whereupon, at 12:04 p.m., the committee was adjourned.]
    [Additional statements submitted for the record follow:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
  

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
